<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2019

_______________________________________________________________________
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION
                            ___________________        
                                                        

              SUBOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, 
                     EDUCATION, AND RELATED AGENCIES

                       TOM COLE, Oklahoma, Chairman

  MICHAEL K. SIMPSON, Idaho			ROSA L. DeLAURO, Connecticut
  STEVE WOMACK, Arkansas			LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee		BARBARA LEE, California
  ANDY HARRIS, Maryland				MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama				KATHERINE CLARK, Massachusetts
  JAIME HERRERA BEUTLER, Washington
  JOHN R. MOOLENAAR, Michigan

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                Susan Ross, Jennifer Cama, Justin Gibbons,
               Kathryn Salmon, Karyn Richman, and Lori Bias
                            Subcommittee Staff

                              __________________

                                  PART 5

                                                                   Page
  Department of Labor.........................................        1
  Department of Health and Human Services.....................      113
  Department of Education.....................................      221

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
                             __________________

          Printed for the use of the Committee on Appropriations
          
                              __________________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-843                       WASHINGTON : 2018                    
          
--------------------------------------------------------------------------------------         
          
 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\			NITA M. LOWEY, New York	
  ROBERT B. ADERHOLT, Alabama			MARCY KAPTUR, Ohio
  KAY GRANGER, Texas				PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho			JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas			ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas				DAVID E. PRICE, North Carolina
  KEN CALVERT, California			LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma				SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida			BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania			BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia				TIM RYAN, Ohio
  KEVIN YODER, Kansas			        C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas			DEBBIE WASSERMAN SCHULTZ, Florida			
  JEFF FORTENBERRY, Nebraska			HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida			CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee		MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington		DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio				MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California		        GRACE MENG, New York
  ANDY HARRIS, Maryland				MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama				KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada			PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                     Nancy Fox, Clerk and Staff Director

                                   (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2019

                              ----------                              

                                            Tuesday, March 6, 2018.

                          DEPARTMENT OF LABOR

                                WITNESS

HON. ALEXANDER ACOSTA, SECRETARY, DEPARTMENT OF LABOR

             Opening Remarks by Subcommittee Chairman Cole

    Mr. Cole. Good morning, Mr. Secretary, and welcome.
    It is my pleasure to once again welcome you to the 
Subcommittee on Labor, Health and Human Services, and 
Education, and we are looking forward to your testimony very 
much.
    This hearing is to review the Department of Labor's fiscal 
year 2019 budget request. The committee understands that much 
of the budget had already been written when Congress agreed to 
increase discretionary budget caps last month. We need to be 
cautious when considering this request to include both the 
budget and addendum in our review of the budget.
    The committee's task is to carefully consider the 
Department's request and to make recommendations for the 
funding of needs of critical programs, including job training, 
worker safety, labor statistics, and others.
    Secretary, I want to thank you and commend the dedication 
and hard work of you and your staff. You have been immensely 
helpful to this committee, and without it, our work here would 
be much more difficult. I particularly want to thank you and 
your staff for welcoming us for a visit, the staff from this 
committee and, obviously, my personal staff, myself as well. It 
was really helpful, honestly, to sit down and talk to your 
people. I called it ``the John Kline alumni committee'' over 
there, since so many of your key people worked for my good 
friend and former chairman of Education and Labor. But you have 
got a great team, and it was a delight to visit with them.
    There are several issues I look forward to asking about 
this morning. They include details on the Department's 
apprenticeship initiatives, an update on the Department's 
efforts and approaches in reducing the skills gap, the 
reasoning behind requested increases in funding for Federal 
enforcement in the Department's worker protection programs, how 
additional money in the recent budget agreement might impact 
your proposed cuts in various job training programs, and how 
the Department intends to build upon the Reemployment Services 
and Eligibility Assessments initiative and reduce improper 
payments more broadly within the unemployment insurance system.
    It is unfortunate that we are considering the fiscal year 
2019 budget request before the final consolidated 
appropriations bill for fiscal year 2018's enacted. Certainly 
no fault of yours, but we are running a little bit behind where 
we would like to be. However, we hope to have something done on 
that soon and to move quickly after that into the fiscal year 
2019 appropriations process.
    I am sure members of the subcommittee will have many 
questions about the budget and policy issues of the Department. 
So without further delay, I would like to remind our members 
and our witnesses that we will abide by the 5-minute rule so 
that everyone will have a chance to get their questions asked 
and answered. But before we begin, I would like to yield 5 
minutes to my great subcommittee ranking member, the gentlelady 
from Connecticut, for her opening statement.

              Opening Statement by Ranking Member DeLauro

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And good morning to you, Mr. Secretary, and welcome to your 
second appropriations hearing before this committee.
    I think it is fitting that Labor is the first hearing that 
we will hold for fiscal year 2019 because, and this is my view, 
for the past year under this administration, working families 
have been under an all-out assault, in my view, as I said. We 
have witnessed both the elimination of worker protections and 
the unraveling of a social safety net.
    Let me quote from one of my heroes and the longest-serving 
Labor Secretary in our Nation's history, Frances Perkins. She 
said, and I quote, ``The people are what matter to government, 
and a government should aim to give all the people under its 
jurisdiction the best possible life.'' That is how I view the 
mission of this Department, and unfortunately, I think this 
budget request fails miserably in fulfilling that mission. It 
represents the hollowing out of the Department of Labor and a 
fundamental failure to govern.
    Mr. Secretary, the biggest economic challenge of our time 
is that people are in jobs and too many people are in jobs that 
do not pay them enough money to live on. We need to enact 
policies that ensure that everyone can benefit from the 
economic recovery and that everyone has the training they need 
to get good jobs with fair wages.


                  effects of new tax law on u.s. labor


    In your testimony, you talk about the Republican tax law. 
Yet the tax law incentivizes outsourcing. It encourages 
companies to export jobs by creating a lower rate for 
multinational corporations to invest abroad, nowhere near the 
corporate tax rate for domestic investments.
    Right now, a company that makes their wares outside of the 
United States pays up to 13 percent in taxes, and yet the same 
company making their wares in the United States will pay 21 
percent in taxes. And several of us, and I have recently 
introduced legislation striking the sections of the tax law 
that create this incentive to outsource.
    Furthermore, since the tax bill went into effect, the 
majority of corporate tax cuts have been used on stock 
buybacks, which benefit wealthy shareholders and company 
executives and not our workers. The vast majority of benefits 
from stock buybacks go to the richest 10 percent of American 
households, according to the Joint Economic Committee.
    American companies have announced more than 
$178,000,000,000 in planned stock buybacks, compared to less 
than $6,000,000,000 in bonuses or wage increases. That means 97 
percent of the tax law's benefits have accrued to wealthy 
shareholders and executives while only 3 percent of the 
benefits have gone to workers.


                        reported worker bonuses


    Even reported bonuses for workers have been misleading. I 
will use Walmart as an example. Bonuses for their employees, 
let us talk about the stringent requirements for being 
eligible. If you worked for more than 20 years of service, you 
got $1,000; 15 to 19 years, $750; 10 to 14 years, $400; 5 to 9 
years of service, $300; 2 to 4 years of service, $250; and less 
than 2 years of service, $200.
    I think $200, getting an additional $200 is fine. It is 
good. I don't decry that. I think that is fine. I don't knock 
that. But spare me, my gosh, if you are going to tell somebody 
they are getting $1,000, why isn't everyone getting that 
$1,000, and why is it just once and not permanently?
    I might also add that Walmart shuttered their doors of 63 
Sam's Clubs, cutting 10,000 jobs.


                     cuts in fy 2019 budget request


    I want to turn to the subject of today's hearing, and that 
is the Department's budget request. Your request would decimate 
the employment and training system by cutting $1,100,000,000, 
12 percent of funding, and eliminating critical services for 
Americans who need help to find a job or to move to a better-
paying career.
    In 2020, two out of three jobs will require training beyond 
the high school level, and it is up to us to meet this need. 
Yet the budget cuts Job Corps by more than $400,000,000, 
shuttering Job Corps centers across the country. Your testimony 
says that the budget eliminates programs that are less 
effective. Yet, in fact, it zeroes out programs that are known 
to be very effective.
    For example, a 2017 Urban Institute report concluded that 
the benefits of the Senior Community Service Employment Program 
outweigh the Federal--the small Federal investment that we 
make. Migrant and seasonal farm worker job training places 
participants into employment 90 percent of the time and 
increases wages threefold.
    At the same time, the budget proposes to redirect funding 
from the successful evidence-based registered apprenticeship 
model--which, I might add, I have heard directly from employers 
is not onerous--to create a new, untested scheme that is 
duplicative and confusing.
    And while the President has claimed he will be tough on 
trade, in his budget, he proposes to eviscerate the office 
whose mission is to identify cheating on trade deals. He wants 
to cut the Bureau of International Labor Affairs, ILAB, by 
$68,000,000. That is the lead agency for investigating labor 
violations and trade agreements with our trading partners. It 
compiles the annual reports on products that are made with 
child labor or forced labor.
    In your budget request, you focus on modest increases to 
compliance assistance programs, and while I agree there needs 
to be a balance between compliance assistance and enforcement, 
I am concerned that you plan to scale back enforcement 
activities, which would result in less oversight of bad 
employers that deprive workers of honest wages or expose them 
to dangerous health and safety hazards.
    OSHA has only enough funding to inspect every workplace 
under its jurisdiction every 159 years, and yet the budget 
proposes to eliminate funding Susan Harwood Training Grants 
that protect and educate workers in the most dangerous jobs. 
You want to cut funding for the Women's Bureau by $9,000,000. 
The agency continues to serve as a critical function to 
improving the work environment and opportunities for women. It 
is simply unacceptable to slash its budget at a time when women 
make 80 cents on the dollar on average compared to men.
    That is about almost $10,500 in lost wages on average every 
year. Given the Office of Management and Budget have 
effectively prohibited progress toward addressing the gender 
pay gap by disallowing the EEO-1 Survey of pay data, it is all 
the more critical to adequately fund the Women's Bureau, its 
research on pay equity.
    Final note, the administration has proposed a paltry 6-week 
parental-only pay leave scheme in the budget, despite the fact 
that more than 75 percent of the people who take family or 
medical leave do so for reasons other than parental leave. The 
President's proposal does not reflect the realities that 
workers face.
    Taken as a whole, the President is proposing to cut the 
Department of Labor by $1,200,000,000. That is a reduction of 
10 percent, Mr. Secretary. We need to know today. Do you agree 
that your Department should be cut by $1,200,000,000?


                        proposed dol regulation


    I am dismayed at the administration's decision to rob 
workers of fair pay by throwing the proposed overtime rule into 
limbo. I oppose your proposal to hurt tipped workers by 
allowing their employers to pocket their tips. This is, in 
essence, legal wage theft. It disproportionately affects women. 
According to the Economic Policy Institute, 80 percent of tips 
per year would be taken from women.
    And I oppose the Department's push for association health 
plans, which will lead to higher premiums in the individual and 
small group markets, more Americans with junk health insurance, 
and more Americans without any health insurance at all.
    It is the obligation of this subcommittee to ensure that 
the working men and women of this country are not harmed by 
reckless cuts and a disregard for their well-being. Should this 
budget proposal be implemented, it is my view that the harm 
would be irreparable.
    Mr. Secretary, I look forward to hearing why exactly you 
think working people should bear the brunt of cuts while 
millionaires, billionaires, and corporations reap the benefits 
of this administration's agenda.
    Thank you, and I look forward to the discussion.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    Mr. Secretary, I am advised we are going to be joined at 
some point in the hearing by the full chairman of the full 
committee and the ranking member. And at that time, I am going 
to allow them not to interrupt your statement, but to offer any 
opening statements they care to make.
    But with that, since they are not here right now, if we 
can, we will proceed with whatever opening statement you care 
to make to the committee.

                 Opening Statement by Secretary Acosta

    Secretary Acosta. Mr. Chairman, thank you, Ranking Member 
DeLauro, members of the subcommittee.
    First, let me say thank you for your invitation to testify. 
I am pleased to appear to discuss the very important work at 
the Department of Labor and to discuss its proposed budget for 
fiscal year 2019. I am honored to lead the Department in its 
important work.
    At the beginning, let me just say that in the first year, 
the Trump administration has delivered strong opportunities for 
American workers, American job seekers, and American job 
creators. 2017 was a year of growth for the American workforce, 
for the American economy, and we can look at any variety of 
economic indicators--I am not going to go through those right 
now--but those are the facts.


                     dol accomplishments in fy 2017


    2017 was also a busy and productive year at the Department, 
and I would like to just present some facts. The Employee 
Benefits Security Administration recovered nearly $700,000,000 
in enforcement actions. It obtained nearly 100 criminal 
indictments and recovered an additional $437,000,000 on behalf 
of nearly 400,000 plan participants and beneficiaries.
    MSHA, the Mine Safety and Health Administration, fulfilled 
its statutory mandate to inspect all underground mines four 
times and all surface mines two times per year and, in 
addition, conducted nonmandatory inspections. In total, it 
conducted over 40,000 inspections.
    The Occupational Safety and Health Administration conducted 
more than 30,000 inspections. And I would note that last year, 
2017 marked the first time in 5 years that the inspections 
increased year-over-year despite a suspension of enforcement in 
certain areas immediately following the hurricanes because of 
hurricane recovery efforts.
    The Office of Federal Contract Compliance Programs reached 
the largest pay discrimination settlement in more than a 
decade, where a company agreed to pay $5,000,000 in back wages 
to settle allegations of discrimination against 300 women.
    The Office of Labor-Management Standards investigated 121 
union officer elections after complaints of violations and 
conducted 265 criminal investigations, according 82 
indictments.
    The Office of Workers' Compensation Programs implemented 
aggressive program integrity and pharmaceutical cost control 
measures that resulted in expenditures--in a reduction of 
expenditures of $221,000,000, as compared to the prior year, 
largely attributed to decreases in opioid prescriptions.
    The Wage and Hour Division recovered more than $260,000,000 
in back wages for nearly 250,000 employees and conducted more 
than 29,000 investigations in cases.


                     continuing enforcement efforts


    Looking forward to this year, our intention is to continue 
this enforcement effort, and I would like to highlight two 
programs in particular that we are in the process of 
announcing.
    The first involves MSHA, and the point here is simple. Mine 
operators must pay their health and safety fines. Now Americans 
across the country understand that if you have a fine, you have 
to pay, and anyone that has received a ticket knows that quite 
well. Yet if you look back over the last decade, $67,000,000 in 
fines have accrued in MSHA that have gone uncollected, and that 
needs to stop.
    And so beginning immediately, we are notifying individuals 
that have not paid their fines, and they need to pay their 
fines. And we have legal methods at our disposal that we can 
implement if they have not paid those fines. Sixty-seven 
million in uncollected fines, if you want to talk about 
enforcement, over the last decade.
    Secondly, in the Wage and Hour Division, we are 
implementing a program called PAID, the Payroll Audit 
Independent Determination system. Right now, if a company is 
aware of a mistake, there is no simple mechanism for them to 
come forward and say, ``We made a mistake. We want to 
voluntarily come forward and pay our back wages.''
    And so the Wage and Hour Division through this program will 
assess the amount of wages due and supervise payments to 
employees. Employees will receive 100 percent of back wages 
owed without costs of fees, without attorney's fees. This will 
happen much faster than through litigation.
    The program will include important safeguards. If a company 
is under investigation, it will not be eligible for this. This 
will be reserved for companies that realize their mistakes and 
come forward. And the intention is to get the money that is 
owed to hard-working men and women faster without attorney's 
fees, 100 percent.


                         dol regulatory efforts


    Finally, I wanted to highlight some regulatory efforts that 
I know you are all familiar with. The small business health 
plans or association health plans, there is a proposal--I 
believe today is the last day for public comment on the 
proposed rule. And it is so important that we look at this.
    Eleven million Americans may be uninsured because they or a 
loved one works for a small business that does not offer 
insurance. Many small business owners would like to provide 
health insurance for their employees, but they find it too 
expensive. In fact, less than a third of employers with fewer 
than 50 employees offer health insurance.
    And so the proposed rule is aimed at a fix that would allow 
more small employers and small proprietors to band together to 
create an association. And we can discuss, and I am sure 
questions will come up, about the overtime rule, the fiduciary 
rule, the cranes rule, and the tip pooling rule.
    And a final word about tip pooling. I have followed the 
public discussion on this issue, and let me just say I think it 
is unfortunate that basic facts are being misportrayed, and I 
say this without any antipathy as I recognize that we are in a 
time where, unfortunately, overstatement sometimes triumphs 
over a desire to solve a problem. And so in the spirit of 
problem-solving, let me just make something clear.
    No one is looking to take tips. There are simple problems 
to this. This is a question of law and a question of policy to 
some extent, but primarily a question of law. And so, as we 
discuss this today, I hope we can focus on problem-solving, and 
we can focus on what is actually allowed by law and not allowed 
by law, recognizing that this committee really has the 
authority to implement a solution to this matter.
    And so I look forward to your questions. I look forward to 
working with you not only today, but as we go forward. I know 
that--I would note the chairman mentioned that the budget is an 
ongoing effort, and that many--many of the rules that inform 
the budget are changing on a continual basis, and so I think 
that this is the first of many discussions.
    Thank you.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                         apprenticeship program


    Mr. Cole. I want to thank you for your testimony, Mr. 
Secretary, and again, you hit it right on the nose. I am sure 
we will be having a lot of discussion back and forth as the 
budget continues to take shape for fiscal year 2018.
    Let me move to an area that, frankly, the President has 
been very strong on, and that is the apprenticeship grant 
program at the Department. The committee has historically had 
some concerns about the underlying authorization, but Congress 
has provided 2 years of funding for the program, and I would 
like to, frankly, build on what the President has proposed in 
your budget.
    So I am going to ask two questions related to it. First, 
can you describe the current status of the Department's 
apprenticeship initiatives and how the Department would like to 
build upon and expand these initiatives in fiscal year 2019? 
And second, because we do have extra money, if we were able to 
find money above the $95,000,000 that the fiscal year 2017 
budget authorized for the fiscal year 2018 year, would you 
still have time to deploy that money efficiently, in your 
opinion, if we went above your current budget fairly 
substantially?
    Secretary Acosta. Mr. Chairman, thank you for the question.
    Let me take them in reverse order. First, as you are aware, 
the fiscal year 2019 budget asked for an increase to 
$200,000,000 above the $95,000,000 because we believe and the 
President believes that this is a very important initiative. We 
are looking at several measures currently to further 
apprenticeships generally, and certainly, if for fiscal year 
2018 additional money was put in that line, that is something 
that I believe we could make very efficient use of and would 
certainly welcome.
    Let me go to your first question, which is what is the 
current status of apprenticeship programs? And you know, and I 
note the ranking member's comment about registered 
apprenticeship programs. And for some industries, registered 
apprenticeship programs work. But I have been in many meetings 
with dozens of companies that have said quite bluntly, ``We are 
not participating in the registered apprenticeship program. We 
find the registration requirements too onerous. We find that it 
is too decentralized, and we are not interested.''
    And they have--they have been very, very clear on that, and 
as I--and Ranking Member, as I said, that is my--my 
observations, and so that is what we have been told.


               industry-recognized apprenticeship program


    And so, without taking anything away from the registered 
apprenticeship program, recognizing that it works for certain 
industries, the construction industry being one of them, the 
President's proposal is to have a second apprenticeship 
program.
    He has directed that a task force be set up. That task 
force has been set up. That task force is in the process of 
adopting recommendations. At the same time, the President has 
directed that we implement an industry-recognized 
apprenticeship program. And conceptually, this will be in 
parallel to the registered apprenticeship program and will work 
like this.
    The registered apprenticeship program requires a lot of 
registration. It requires significant reporting, and it has 
access to certain advantages under WIOA as by operation of law. 
That is the registered apprenticeship program.
    The industry-recognized apprenticeship program requires 
less registration. It would not require registration, per se. 
It would require less reporting, but it would not have access 
by operation of law to those benefits that Congress has deemed 
to provide to the registered apprenticeship program.
    So you have got one program that requires heavy 
registration, that requires heavy reporting, and that has 
access by operation of law to WIOA. You have another program 
that doesn't require those and that doesn't have access by 
operation of law to the WIOA funding. And that is a balance 
that we are establishing between one program and the second 
program.

                      JOB CORPS FUNDING REDUCTION

    Mr. Cole. I appreciate that. Finally, I have the time for 
one more and won't be able to give you too much time. But your 
budget proposed significant reduction in Job Corps funding. 
Again, we know we are in a different situation now. We are 
going to have additional money. We may well be able to, you 
know, plug that particular hole.
    So, number one, your thoughts as to what we need to do 
funding wise going forward, and if we were roughly the same 
kind of number that we have been at, would that--how would you 
deploy that? Would you still go ahead with changes, or are 
there things that you would maintain that, again, your original 
budget forced you to abandon?
    Secretary Acosta. Thank you, Mr. Chairman.
    So there are two issues to Job Corps perennially. You know, 
I was--I was speaking to the Labor Secretary going back many, 
many years, and I asked him about Job Corps, and he said that 
he had attempted to implement changes and had found that to be 
a challenge. And this is going back decades.
    And so I think this is a perennial issue. I recognize 
Congress' interest in Job Corps, and I understand why Congress 
has that interest because it serves a population that benefits 
greatly from job training. And so if Congress, in its judgment, 
funds Job Corps at the same level, we will continue the Job 
Corps at the same level.
    Let me say also this in the brief time remaining. There are 
some issues in Job Corps that need to be addressed. We have a 
certain level of discretion to look at alternative mechanisms 
to conduct pilot programs within Job Corps. And irrespective of 
funding, it is my hope that we can engage in a discussion where 
we can look at the way Job Corps operates; and we can say, 
``How can we improve the operation of Job Corps?''
    Because irrespective, I think at a bipartisan level, there 
are a number of issues that need to be addressed. We have 
gotten very, very strict on safety issues. There are ways that 
we can create efficiencies and that we can improve the program. 
The funding level is for Congress to determine. We will 
implement the funding level that Congress determines.
    Mr. Cole. Thank you. And thank you for your indulgence.
    And I want to go to my good friend the ranking member from 
Connecticut for whatever questions she cares to pose.

       REGISTERED VS. INDUSTRY RECOGNIZED APPRENTICESHIP PROGRAMS

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Just a very quick point on the apprenticeship program, Mr. 
Secretary. Registered apprenticeships, that model has expanded 
over the last several years about 42 percent since 2013. 
Twenty-four hundred new apprenticeship programs established in 
2017 alone. I have spoken with industry groups as well, and 
different story.
    Our standards are consistent and clear. Standards, where 
they do not make sense for a newer industry, the Department is 
Labor is flexible. It can and does negotiate.
    Also I held a panel on apprenticeships, and Bridget Gainer, 
who is vice president of Aon Corporation, commented on the ease 
of registration. ``It was not an overwhelmingly or overly 
onerous process.'' And they are in the insurance business. So 
there are differences of opinion, Mr. Secretary.

                            TIP POOLING RULE

    Let me move to the tip sharing rule, which is where you 
ended your testimony, and the Department has proposed a rule 
allowing employers to pocket really their workers' tips, as 
long as they are paid for. Your testimony, you emphasized your 
commitment to providing regulatory ``clarity'' to the public.
    The Department declined to release a study of the estimated 
impact on the tip sharing rule on worker wages, alongside a 
December notice in the Federal Register. EPI, Economic Policy 
Institute, developed its own estimate, suggesting that tipped 
workers will lose about $5,800,000,000 in stolen wages. Women 
alone lose $4,600,000,000. Sixty-seven percent of tipped 
workers are women.
    Three or four questions. I will pose them, but I want 
answers to each one. Why does the proposed rule not explicitly 
prohibit employers from pocketing their employees' earned 
tipped wages? Did the Department conduct a quantitative 
analysis for this proposed rule? That is a yes or no answer.
    According to a report by Bloomberg BNA, Department 
officials directed staff to withhold the disclosure of 
estimates which show the proposed tip sharing rule would cost 
workers' money in lost tips. Is that report correct? Were staff 
directed to withhold this information? And can you explain why 
the data estimating the impact of the tip sharing rule was not 
included in the original rulemaking notice?
    How can the Department claim a commitment to providing 
clarity to a regulated public but deny the public a chance to 
comment on the full effects of the proposed tip sharing rule? 
And will you withdraw the Notice of Proposed Rulemaking?
    Let us start with why employers are not prohibited from 
taking the earned tips.
    Secretary Acosta. So, Ranking Member DeLauro, I appreciate 
the questions, and let me say this, as I said at the beginning. 
No one wants establishments to keep--if you will--I will answer 
all your questions if you will allow me to do so.
    Ms. DeLauro. Okay. Sure.
    Secretary Acosta. No one wants establishments to keep tips. 
I wouldn't frequent such an establishment. My guess is that no 
one here on either side--Ranking Member, if you will allow me 
to finish, I will answer all your questions.
    Ms. DeLauro. You know, I have a limited amount of time, and 
the chairman will bang the gavel. So why are employers not 
prohibited from pocketing their employees' earned tipped wage? 
They are allowed to do that under this rule.
    Secretary Acosta. Ranking Member, if you would like a short 
answer, I would refer you to the Tenth Circuit's decision that 
struck down the prior rule established by the Department on the 
grounds that it lacked statutory authority. If you will allow 
me to walk through this, I am happy to explain why we are 
proceeding, why this is important, and at the end of the day, 
this is a legal issue where the Tenth Circuit has made clear 
that the Department lacks statutory authority. And so we are 
not in a system where we can----
    Ms. DeLauro. So let me be clear. The fact of the matter is, 
is that, in fact, employers will be allowed to pocket the tips 
of their employees, yes or no?
    Secretary Acosta. Ranking Member DeLauro----
    Ms. DeLauro. Yes or no?
    Secretary Acosta. The Department lacks statutory 
authority----

               QUANTITATIVE ANALYSIS FOR TIP POOLING RULE

    Ms. DeLauro. No, the answer is yes. They can pocket those. 
The second question is did the Department conduct a 
quantitative analysis for the proposed rule, yes or no?
    Secretary Acosta. Ranking Member DeLauro, when the rule was 
initially written in 2011, there wasn't a quantitative analysis 
published. The Department looked at whether or not a 
quantitative analysis could be conducted. There are assumptions 
behind----
    Ms. DeLauro. Was there an analysis conducted?
    Secretary Acosta. Ranking Member DeLauro----
    Ms. DeLauro. I know my name. Was it--was there an analysis 
conducted, yea or nay?
    Secretary Acosta. Ranking Member DeLauro, if you will allow 
me to answer, and I know we are over time----
    Ms. DeLauro. You know, Mr. Chairman, I will continue 
because I can't--I am asking for short answers. I have asked 
short questions, and I am not here to filibuster. Just tell me, 
yes or no?
    Secretary Acosta. Mr. Chairman, may I answer?
    Mr. Cole. Absolutely.
    Secretary Acosta. So as I was saying, Ranking Member 
DeLauro, we looked at whether or not we could conduct an 
analysis that had assumptions based on data. We can establish 
at a national level what the level of tips and overtime are 
that are paid to all workers. Once that is established, we have 
to make assumptions as to what percentage of restaurants will 
actually have a tip pool, and of that percentage, what 
percentage of restaurants will actually make a decision that 
they would like management or others to keep a portion of those 
tips.
    Depending--Ranking Member, I am now on my own time. So--
so----
    Ms. DeLauro. Was staff directed to withhold the 
information?
    Secretary Acosta. Ranking Member DeLauro, I am now on my 
own time. So if he will allow me--or I am on the chairman's 
time, so if he will allow me to answer?
    Ms. DeLauro. The chairman is not going to allow me all this 
time, and I don't blame him.
    Mr. Cole. I will allow him to answer.
    Ms. DeLauro. Thank you.
    Secretary Acosta. So once we establish the level of tips, 
there are assumptions that have to be made. Will 100 percent of 
restaurants choose to share with management, or will zero 
percent of restaurants choose to share that with management? 
Depending on that assumption, we can generate pretty much any 
number. And so at the end of the day, the determination was 
that the draft lacked sufficient data to be meaningful.
    Ms. DeLauro. So there was really no quantitative analysis 
to deal with what you were doing, in addition to which this was 
information that when the rule was promulgated, this 
information estimating the impact of tip sharing rule was not 
included in the rulemaking notice? Is that correct?
    Secretary Acosta. I believe I have answered your question. 
It was a qualitative, not a quantitative analysis.
    Ms. DeLauro. It was a qualitative, not a quantified. And if 
you can't quantify anything, you really don't have much of an 
analysis.
    So we have established that employers can pocket their 
employees' tips. We have also established that there was no 
quantifiable analysis, and in fact, I don't know what the 
answer is, were staff directed to withhold the information? And 
you talk about providing clarity to a regulated public, but you 
then deny the public the chance to comment on the full effects 
of the proposed tip sharing rule.

                    WITHDRAWING THE TIP POOLING RULE

    Finally, will you withdraw the Notice of Proposed 
Rulemaking, yes or no?
    Mr. Cole. Go ahead and answer.
    Secretary Acosta. No.
    Ms. DeLauro. What I assumed.
    Thank you very much for your indulgence, Mr. Chairman. I 
appreciate it. Thank you.
    Mr. Cole. We are joined by the chairman of the full 
committee.

          Opening Statement by Committee Chairman Frelinghuysen

    The Chairman. I guess I am glad to be here, Mr. Chairman. 
[Laughter.]
    Mr. Cole. I see you have taken a seat well away from----
    The Chairman. Yes, I know. I started my career on the end 
of the podium, actually at the children's table.
    But, Mr. Secretary--thank you, Mr. Chairman--obviously, I 
want to welcome you. Apologies, we have Secretary Mnuchin 
across--across the corridor here so I was with him. Just 
obviously want to thank you for your work, and I want to 
highlight, if I may, and ask you to respond very briefly.
    I know there are a lot of hot-button issues. I think you 
have taken some initiatives to address the needs of our 
Nation's veterans. Can you talk a little bit about what 
positive things you are doing here?

                    VETERANS' EMPLOYMENT INITIATIVES

    I think all of us at the podium here, maybe this will give 
an opportunity for the temperature to be lowered just a little 
bit for a few minutes. Could you give us sort of an update of 
some of the initiatives you are undertaking to make sure that 
those who have done so much for our country have the jobs that 
they need in order to look after their families, if the 
chairman would allow me to ask that question?
    Secretary Acosta. Thank you, Mr. Chairman.
    And let me say that the needs of the veterans are very 
important and very much a focus of our work. And I would like 
to highlight two programs in particular.
    The first is one that the Congress passed and authorized to 
begin, I believe, one fiscal year from now, but we were able to 
find a little bit of funding--actually, I think appropriated 
one fiscal year from now, but it is authorized. And we were 
able to find a little bit of funding to start it early, which 
is a recognition of companies that have a particularly strong 
record of hiring veterans.
    And we have already put out an invitation to apply, and we 
look forward to starting that recognition under pilot project 
authority. This year, we didn't receive funding, but we just 
thought it so important that we get ahead of the game and get 
going before the funding that was appropriated--start to 
recognize these companies.

                         OCCUPATIONAL LICENSING

    The second issue that I would like to highlight is 
occupational licensing. You know, if you are to look at various 
studies from Federal Reserve-sponsored studies to Brookings, 
there are 1.5 million to 3 million people right now that could 
hold jobs that aren't holding jobs because they are moving to 
States that don't recognize their current licenses. And this 
affects veterans in a particular way.
    A man or a woman may serve their nation, and they literally 
could be driving a truck with explosives in Fallujah and then 
discover that when they end their service to the Nation and 
want to come back to the U.S., they are not licensed to drive a 
milk truck in their home State. And that baffles me. I just 
don't understand why States are not willing to recognize 
military licensures and military qualifications.
    And so we are working very much with States through the 
National Governors Association. The Western Governors 
Association has been incredibly helpful in particular, and I 
want to single them out. And we have been working with them on 
a bipartisan basis because this is something that I think, you 
know, I would like to have someone explain to me why it has to 
be the way it is. It makes no sense.
    The Chairman. In closing, it is amazingly frustrating. 
Because when we travel to the Middle East and other places, 
people are looking at retiring, they express their frustration 
that they have spent their time, they have these 
qualifications, and these barriers remain.
    So I want to commend you for your effort. I am sure members 
of the committee feel very strongly, as I do, that this issue 
needs to be addressed as quickly as possible.
    Thank you, Mr. Chairman.
    Secretary Acosta. Thank you.
    Mr. Cole. Thank you very much.
    We will now resume the normal order of questioning. So, Mr. 
Womack, based on time of arrival, you are next. The gentleman 
from Arkansas is recognized.
    Mr. Womack. I thank the chairman.

                          TAX CUT AND JOBS ACT

    And before I ask a couple of questions of the Secretary, I 
feel a bit compelled to respond to my friend the ranking 
member's tirade a minute ago about a company near and dear to 
my heart, Walmart, since it is headquartered in my district.
    I find it interesting that too often my friends on the 
other side of the aisle cherry-pick the issues that they would 
like to complain about with regard to the Tax Cut and Jobs Act. 
And specifically to Walmart, it is true that bonuses were given 
to people on a tiered basis based on--based on how many years 
that would make them eligible.
    But you fail to point out that Walmart also raised its 
starting wage to $11 an hour. That was not--I mean, apparently, 
that is something good, and I wouldn't expect you to comment on 
something like that because it would defeat the narrative that 
you were presenting to this committee.
    An expanded parental and maternity leave policy, providing 
full-time hourly associates with 10 weeks of paid maternity 
leave and 6 weeks of paid parental leave. Salaried associates 
also receiving the same benefit. And that Walmart will provide 
financial assistance to associates adopting children, with a 
total of $5,000 per child for expenses such as adoption agency 
fees, translation fees, and legal or court costs.
    So if you are going to pick on Walmart, then tell the whole 
story. To impeach a company, arguably the world's largest 
company, the way you did I think was disrespectful. And let me 
also add that just in the State of Connecticut, the benefits 
totaled nearly $7,000,000 to associates, to people in the State 
of Connecticut.
    Ms. DeLauro. Will the gentleman yield?
    Mr. Womack. No, I will not yield.
    Ms. DeLauro. Okay.
    Mr. Womack. Because I have got a limited amount of time, 
and our committee is now shortened of time because of the 7 or 
8 minutes that you took. So I am just telling you----
    Ms. DeLauro. I don't apologize.
    Mr. Womack [continuing]. It is absolutely incredible to me 
that you want to be so critical of a company that employs over 
a million people benefited from these from these----
    Ms. DeLauro. One hundred fifty-five people in Orange, 
Connecticut, lost their job when Sam's Club closed down.
    Mr. Womack. Mr. Chairman, the committee should be in order.
    Ms. DeLauro. It is in order.
    Mr. Womack. So I won't belabor the point. But to be fair, 
you should tell the whole story.

        COLLABORATION WITH DEPARTMENT OF EDUCATION ON SKILLS GAP

    Mr. Secretary, it is great to have you here today. We 
appreciate your testimony. In your testimony, you talked about 
the ongoing collaboration with Secretary DeVos to ensure that 
American workers receive the highest-quality services 
available. And I am very pleased that we are beginning to 
address what we all know is the skills gap.
    Everywhere I go in my district, I have job creators telling 
me that they need people. They need people with certain skills. 
And I am pleased that our Congress is beginning to take steps 
to address these skills gap. And personally, I believe that we 
made a mistake by trying to convince so many people that over 
the last generation or so that their only path to success would 
be with a college education.
    So we have got a lot of things. So would you care to 
elaborate on the cooperation that you have with Secretary DeVos 
and touch on how Congress can be of assistance? And I know I 
have got a limited amount of time left.
    Secretary Acosta. Sir, thank you. Thank you for the 
question.
    And first, let me note that, you know, your State's 
unemployment rate is below the national average, and so the 
skills gap is a particular issue. And I believe it is your home 
State that has a program called ``Go Pro, Go Proud.''
    Mr. Womack. It is.
    Secretary Acosta. And I have seen the videos of that, and 
let me just commend that because I think it does a great job of 
exposing young adults to the full array of their career 
options. And this is what Secretary DeVos and I are really 
focused on.
    As young adults go into high school, are they being given 
the full information? Are they being told these are all your 
career options? You can go in this direction. This is the 
amount of higher education that you will need. This is the 
expected salaries, and this is the expected student debt. Or 
you can go in this direction, and this is the amount of 
additional education you will need, and this is the additional 
student debt.
    And I would contend that our counselors, particularly at 
the high school level, are not doing a very good job of that. I 
was in one State where I was speaking with the vice chancellor 
of a State school system, and I raised that. And he said, ``Mr. 
Secretary, you are absolutely right. We are focusing far too 
much on the top-end students, and we should be focusing more on 
SAT prep and ACT prep.''
    And I kind of looked at him, and I said, ``You just 
completely lost my point.'' The vast majority of Americans 
don't get their jobs based on SAT and ACT prep. And we need to 
encourage high schools to provide the full array of options to 
the students, and that is something that the Secretary and I 
have been collaborating on.
    And let me just say it is a great collaboration. So thank 
you for the question.
    Mr. Womack. Thank you. Thank you, Mr. Secretary. Appreciate 
your testimony. Keep up the good work.
    Mr. Cole. Thank you. Again, based on order of arrival, we 
will go to my good friend from Wisconsin, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman. Appreciate it.
    Thank you, Mr. Secretary, for being here.
    I am trying to get to four areas. I am already predicting I 
am going to fail, but I am going to do my best. And I will try 
to--if we can be brief in both ways----
    Secretary Acosta. Fair enough.

                       DECLINE IN OSHA INSPECTORS

    Mr. Pocan [continuing]. I would appreciate it. The first 
question on OSHA. There was a news report earlier in the year 
there is a 4 percent decline in OSHA inspectors since the 
President has taken office. They lost at least 40 inspectors, I 
think is the number, through attrition, and no new hires had 
been filled as of October.
    Can you tell me, one--hopefully, they are all easy--have 
you hired the new OSHA inspectors to fill those 40 slots? Two, 
are all the OSHA inspector positions currently staffed, and 
three, have we maintained the total number of inspections from 
2016 to 2017 to 2018?
    Secretary Acosta. So, Congressman, thank you. Thank you for 
the question. Let me try to address those briefly.
    You are correct that there was a decrease in the number of 
OSHA inspectors. I became concerned about that decrease last 
summer, and so although there was a general hiring freeze in 
place, I provided OSHA an exemption to start the process of 
hiring inspectors.
    And currently, I believe there are 65 recruiting actions in 
progress at various stages of the recruiting process. There is 
an onboarding procedure for OSHA. They have to undergo physical 
examination. They have to undergo others.
    In addition, I have encouraged the agency to hire more than 
is currently--than the current FTE, understanding that we need 
a continuous pool.
    Finally, on the number of inspections, I believe I said it 
in my opening. This is the first time in 5 years that the 
number of inspections has actually increased year-over-year. So 
despite this, there have been no decreases in the number of 
inspections.
    Mr. Pocan. And just real quick then, do you know of those 
empty slots, how many--you had 65 actions, how many of the 40 
slots have been filled, or are they part of that in the process 
of?
    Secretary Acosta. It is in the process. I don't know 
where--where it is as of today.
    Mr. Pocan. Fair enough.
    Secretary Acosta. I know that I authorized them to begin 
hiring this past summer, and they have proceeded in the regular 
process, and we could provide that information.
    Mr. Pocan. Okay. No problem. Thank you.

                               WAGE THEFT

    I would also like to submit into the record two stories, if 
I can, about Federal contractors driving down wages for workers 
and routinely committing wage theft while not seeing their 
Federal contractor status even reviewed. One, the headline is 
``Workers Who Really Do Support Our Troops Are Getting Their 
Wages Slashed.''
    I would just ask if you could take a look at those and if 
you could give them a little extra attention. You know, I am 
just a little bit concerned that some of our compliance 
assistance versus enforcement may not be working as well, and 
these are just two recent articles.
    Mr. Cole. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Pocan. Thank you very much.
    Secretary Acosta. And we will have--we will make sure that 
our staff communicates with yours to receive those.

                      PROPOSED REGULATION CHANGES

    Mr. Pocan. So issue three, we are doing pretty well. On a 
lot of the efforts that you and both the President have talked 
about around deregulation. There has been a lot of deregulation 
in your Department around things that protect workers' wages, 
overtime, health and safety, pensions, healthcare, civil 
rights, and other areas.
    Yet we have ramped up regulation at the Office of Labor-
Management Standards, specifically a 22 percent increase, 
including $2,800,000 to restore the International Union 
Compliance Audit Program, which has been used in the past to 
actually harass labor unions. I am just wondering why unions 
are the only group that seems to be singled out for more 
regulation when everything else has been moving toward 
deregulation?
    Secretary Acosta. Congressman, first of all, I think we are 
referring to the budget because we haven't had new regulations 
issued----
    Mr. Pocan. The budget proposals.
    Secretary Acosta. But the budget on the enforcement 
agencies is pretty much the same as it has always been. The one 
office that you have referred to was--unlike other offices, was 
substantially reduced over the prior years, and so this is an 
attempt to bring it up to what are historical levels.
    Mr. Pocan. But the only one that you are adding to 
regulation. So which two are you getting rid of? Because isn't 
it if you add one, you have to take away two? Isn't that the 
informal rule your administration has?
    Secretary Acosta. We are talking budget here, and we are 
not talking--I am not aware of----
    Mr. Pocan. Okay. So you can budget more regulation, just 
you can't----
    Secretary Acosta. Congressman, as I have gone through, you 
know, I think the enforcement record, and I went through the 
facts to address the narrative, which I think is a false 
narrative of any decrease in enforcement. And if you look at 
the budget proposal, even though--if I could?
    Mr. Pocan. I understand. I think I understand. If I can get 
my last in, I would be so successful. So if I can just get my 
last and I will try to do it really quick.
    Secretary Acosta. Fair enough.

                  PROTECTIONS FOR GIG ECONOMY WORKERS

    Mr. Pocan. Thank you. Just some concerns around you talked 
about reevaluating the laws around the Labor Department for the 
gig economy. You referred to it as entrepreneurialship. We have 
some concerns that the direction you might be going could take 
away protections for people like Uber and Lyft drivers, Amazon 
delivery drivers, that they might not get paid minimum wage and 
other things.
    Can you just talk very quickly about that? I appreciate it.
    Secretary Acosta. Congressman, certainly. And I think what 
I have said, to just put on the record, is the Bureau of Labor 
Statistics is coming up with a--is going to be issuing a study 
on alternative work arrangements on the gig economy, the 
entrepreneurial economy. And I think that study is an important 
marker to start a national discussion on what is a larger 
percentage of the economy.
    And so I think--let us start with the agreement. We all 
should be having that discussion. It should be a fulsome 
discussion, and it should look to assure that there are 
protections in place while at the same time there is access to 
benefits that are not traditionally afforded these individuals 
in these work arrangements.
    Mr. Pocan. Great. And thank you for helping me be 
successful.
    Mr. Cole. Well, you got a little help here, too, my friend. 
[Laughter.]
    Mr. Cole. If we can, I next want to go to my great friend 
from the State of Tennessee, Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for appearing today and 
for your testimony.
    I represent the great people of the Third District of 
Tennessee from Chattanooga to Oak Ridge, 11 wonderful East 
Tennessee counties. A personal note of thanks not only for the 
rhetoric and policies of this administration in regard to the 
Department of Labor, but to the successes that you have had, 
and I think you have aptly stated those. So I thank you for 
that.

                    WORKFORCE DEVELOPMENT INITIATIVE

    Several years ago, right after my first term, I began a 
workforce development initiative in my district. I was trying 
to find something that not only Republicans and Democrats could 
sit around the table, but we could have employers, employees, 
educators, and civic leaders, and there was a need for that, 
and there still is. So that has really been my main focus in 
this area of jurisdiction.
    So I want to applaud you for your efforts in that regard, 
and I want us all to continue to work forward as Americans. I 
think when employers and employees can work together, America 
does move forward, and I come at the process in that regard.

            MATCHING JOB CORPS TRAINING WITH IN-DEMAND JOBS

    I do have a question. Mr. Secretary, there are 4.9 million 
Americans, American youth between the ages of 16 and 24 who are 
neither in school nor employed. As you know, the $1,700,000,000 
Jobs Corps program at the Department of Labor is the Nation's 
largest residential job training program for at-risk youth 
between the ages of 16 and 24. And yet there seems to be a 
mismatch between the training that is offered at Jobs Corps 
centers across the country and the actual jobs that are in 
demand and expected to grow in the market.
    For example, in 2015, the Department of Labor issued a 
joint jobs report with the Department of Transportation and 
Education that found the transportation sector will need to 
hire 4.2 million new workers by 2022 and that the trucking 
industry in particular has by far the largest number of 
projected job openings at over 2 million jobs that need to be 
filled in that spot.
    Yet according to the Department of Labor's website, only 4 
out of the Nation's 122 federally administrated Job Corps 
centers offer any type of training in heavy-duty trucking.
    Mr. Secretary, do you know why truck driver training is 
limited to only four Job Corps centers, and would you kindly 
consider expanding the number of Job Corps centers that offer 
truck driver training, sir?
    Secretary Acosta. Congressman, thank you for the question, 
and let me address it on a few levels.
    First, I do not know the why, but I will gladly consider. 
More broadly, this goes then back to the point that I mentioned 
with military, you know, training, if you are licensed to drive 
a truck with explosives in the military, why can't States 
recognize that license when these servicemembers come home? You 
know, that is a no-brainer.
    Let me say more broadly on Job Corps, you know, I would 
very much like the opportunity to sit down with individual 
Members and start discussions about the Job Corps center in 
their particular States. Right now, Job Corps is a very large 
national program, and it is operating the same way it operated 
as far back as the '70s.

                           YOUTHBUILD PROGRAM

    You know, I had the opportunity to visit a very different 
model. I was in Nevada, and I had the opportunity to go to I 
believe it was Truckee Meadows Community College, and that 
community college was working with a program called YouthBuild. 
And I talked to some of the students in that program, and then 
I asked the administrators to sort of leave the room.
    I put on my old prof hat and just talked to the students 
directly, and I was really moved. One of the students said that 
they had been on the streets, that they had been taking drugs, 
that they seriously thought about ending their life. And then 
they found the YouthBuild program that is working with this 
community college that is also working with businesses, creates 
a partnership between education, business, and YouthBuild.
    And here is what they were doing. He was learning to be an 
HVAC certified repair person. For the first time, he had an 
apartment. He rented an apartment, and he was really proud of 
that. And this program per capita is a lot less expensive than 
Job Corps.

                     EVALUATING JOB CORPS SERVICES

    And so one of the questions that I think we need to ask is 
not an elimination, but in asking are we--is the way that 
educational services for Job Corps were provided in the '70s 
the best approach, or should we be looking at alternative 
mechanisms within the Job Corps system, perhaps changing what 
is taught, perhaps changing the age range, perhaps changing the 
length of study? And it doesn't have to be the same for every 
Job Corps center around the United States.
    Mr. Fleischmann. Thank you, Mr. Secretary.
    Mr. Chairman, I believe my time is up. So I yield back.
    Mr. Cole. Done better than anybody else so far. Again, we 
will go to my good friend from Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here today.

                 POTENTIAL ISSUES WITH TIP POOLING RULE

    I want to go back to the issue you were discussing with the 
ranking member around tips. And I was struck by what you said 
that you wouldn't frequent a restaurant or a place where 
management was taking the tips from tipped workers. How would 
you know that was happening?
    Secretary Acosta. So in the era of Yelp and the Internet, 
I--you know, I think it would get out very quickly. And 
personally, I don't think many restaurants would do this 
because they would lose their workers, and they would lose 
their customers.
    Ms. Clark. Have you ever--have you ever worked for a tipped 
wage?
    Secretary Acosta. No, I have not.
    Ms. Clark. Well, I think--I have. And I can tell you that I 
doubt very much you would know because there is a lot that goes 
on. But you are in the unique position to help because the 
tipped wage in 18 States is only $2.13. That is also the 
Federal tipped wage. Excuse me.
    It is double the rate of poverty in States where that is 
the tipped wage for working people who are working for tips. 
And if you are wait staff, that is over double. It is 18 
percent when it is typically 7 percent for working people in 
poverty. So we are talking often about the working poor.
    So as you go through this in your role as Secretary, beyond 
Yelp, and you are looking at doing, I hope, a quantitative, 
since you found the qualitative not to be good enough as you go 
forward, what are your plans for assessing the impact on this? 
And if you are finding that it is not working out as you hope 
and that these tips are being pocketed, what is the plans for 
the labor?
    Secretary Acosta. So, Congresswoman, if you will allow me 
to answer and perhaps offer a fulsome answer because I think 
with about 2 minutes, we will get to a point where we might 
agree. No----
    Ms. Clark. I have other questions. So we may have to go 
faster.
    Secretary Acosta. Well, I will try to go fast. No one wants 
or believes that establishments should keep tips. To many, in 
many ways, this is a fundamental issue of law. The Tenth 
Circuit has struck down the prior regulation that was 
promulgated. The Ninth Circuit has upheld it over a vigorous 
dissent, and this issue is now pending in the Supreme Court.

                   AUTHORITY TO REGULATE TIP POOLING

    And so the question is, has Congress authorized the 
Department of Labor to regulate in this space? And we can have 
a legal debate, which I don't want to have. But personally, I 
find the Tenth Circuit decision persuasive. I believe that 
Congress has not authorized the Department to fully regulate in 
this space.
    Ms. Clark. So let me synthesize this so that we do come to 
some understanding on this. There is a split in the circuits on 
this. But is my understanding that your position is now that 
you have put this in place, removed protections for tipped 
workers, that you are not going to conduct any further analysis 
of this because you feel the Tenth Circuit has blocked you from 
doing that?
    Secretary Acosta. Congresswoman, if you will allow me to 
finish? And so we have already----
    Ms. Clark. Can you answer that question? Do you feel the 
Tenth Circuit has blocked any further analysis of the impact of 
this rule?
    Secretary Acosta. Congresswoman, I will answer questions if 
you allow me to finish.
    Ms. Clark. Yes or no? Yes or no?
    Secretary Acosta. Ultimately, I have already said publicly 
that any final rule will have a quantitative analysis. I have 
invited the public to provide data for that quantitative 
analysis. But let me say this. There is a real simple solution 
to this, which is that this committee could simply legislate 
our authority to prohibit this.
    And so if we are all concerned about this, why don't we 
just add a simple sentence to the law that says that 
establishments, whether or not they take a tip credit, may not 
keep any portion of the tips. I don't know of a single person 
that would oppose an--a law that says that an establishment may 
not keep part of a tip.
    Ms. Clark. So you would support us----
    Secretary Acosta. A hundred percent.
    Ms. Clark [continuing]. In a law that said--so you feel you 
are totally bound by the Tenth Circuit right now?
    Secretary Acosta. Well, the Department of Justice would 
determine whether I am totally bound. My personal view is I 
find the Tenth Circuit persuasive.
    Ms. Clark. I am asking your view as Secretary----
    Secretary Acosta. My personal view, my personal view is I 
find----
    Ms. Clark [continuing]. Of the Labor Department, would you 
support a law coming out of this Congress----
    Secretary Acosta. Absolutely.
    Ms. Clark [continuing]. Saying that tips belong exclusively 
to those who earn them?
    Secretary Acosta. Absolutely. OMB put that on the list of 
items to be looked at as part of the appropriations process, I 
believe about a week ago. And so that has already been on the 
list that has been transmitted by OMB.
    And the point that I was trying to make that I think we can 
find agreement and problem-solve on is no one wants this. This 
is a question of statutory authority. So I fully support a 
provision that says establishments should not be permitted to 
keep any portion of a tip.
    Ms. Clark. But yet you are siding with the Tenth Circuit 
and taking our entire policy in a different direction, which I 
am running out of time. So we can have this legal debate later 
on. But I think that we need some assurances from you, one, 
that you would support such a law, which you just gave, and 
two, that you will continue to conduct a robust analysis of the 
real impact because this affects working people and their wages 
in a profound way.
    Secretary Acosta. Assured and assured. What I have been 
trying to say is assured and assured. Yes.
    Ms. Clark. Thank you, Mr. Chairman.
    Mr. Cole. Thank you very much. And just for the 
gentlelady's information, we actually had this discussion. The 
Secretary has requested that we put something like this in 
language.
    I certainly would be very supportive of doing that, and I 
think we will probably be able to get there on this. So, 
anyway, I want to thank everybody involved in a vigorous 
discussion.
    With that, I want to move to my good friend from Maryland, 
Mr. Harris.
    Mr. Harris. Thank you very much. And it is good to see you, 
Mr. Secretary.
    Let me just clear up a couple things. And just one thing on 
the tip thing, and I agree. I will be onboard with that, but 
did you say that there was no quantitative analysis when the 
last administration did the rule?
    Secretary Acosta. That is correct.
    Mr. Harris. Oh, okay. Oh, I get it. All right.

                            OSHA INSPECTIONS

    All right. Now, the other one is that OSHA, let me get your 
testimony right, that OSHA, for which we are hearing complaints 
that this OSHA can't do the job, you actually increased the 
number of inspections, which hadn't been--gone up for the last 
4 years of the last administration?
    Secretary Acosta. For the last 5 years, they hadn't gone 
up.
    Mr. Harris. Oh, I am sorry. For the last 5. I have to 
change my notes. It is 5 years, not 4 years of the last 
administration.

                               EEO-1 RULE

    Okay. I want to thank you for the EEO-1 rule. The EEO-1 was 
a boondoggle. I mean, that form that the Department held up, as 
you know, this committee has taken a position against 
implementing that. Please think it out better. There have to be 
better ways to get the information than that--than the EEO-1 
suggestion.

                             OVERTIME RULE

    I want to thank you for taking a second look at the 
overtime rule. As you know, the real people who get squeezed 
are the people who are kind of in that--who are on that job 
ladder, who are climbing the job ladder, going--they have to 
prove that they are worthy of getting up to the top. And I 
think it impeded them getting up to the top. So thank you very 
much for that.

                        ASSOCIATION HEALTH PLANS

    Now let me talk a little about health insurance. It is 
something I think frequently about, and you know, the 
Affordable Care Act individual exchange is collapsing. Look, we 
all have to admit it is collapsing. Congress can't fix it. I 
mean, we just didn't have the will or whatever to fix it. You 
know, things stalled over in the Senate. So it is going to be 
left up to the administration and to States to solve this 
problem.
    Now in Maryland, we have bills before our legislature right 
now doing what we had proposed, which is set up either a 
reinsurance pool, which is what is going to be done in 
Maryland, a high-risk pool. But until you get there, I think 
the association health plans are the way to go. I think that 
the fact I think your testimony was that less than a third of 
employers with 50 or less employees actually offer insurance.
    And I think employer-based insurance actually has a lot of 
things to say for it. So it would kind of move--it would give 
the ability of small employers to actually offer insurance as a 
benefit of working for that individual, and I think that is a 
good idea. It would remove some of the--these are not junk 
plans. I mean, most people who get insurance through employers 
are very happy with the plans.
    You know, to call anything except an Affordable Care Act 
plan a junk plan would say that before the Affordable Care Act, 
every plan was junk plan because no plan in America, no plan in 
America would have qualified under ACA before the ACA was 
implemented. So I want to thank you about that.

                               H-2B VISAS

    But you know the issue that I am most interested in because 
you were nice enough to take a meeting with me in the office, 
and that is the H-2B issue, the issue of temporary work visas. 
You know, on the front page of your testimony--and it is 
correct--the good news is, is that we got a lot of jobs. We got 
a lot of people working in this country, and our unemployment 
rate is very low. The number of workers is high.
    The bad news is, is that your last point in November 2017, 
the number of job openings was 6 million, near an all-time high 
of 6.2 million. We got a lot of job openings. We don't have 
people to fill those jobs.
    In my district, H-2B workers fill a vital role in seasonal 
employment, whether it is in beautiful Ocean City, whether it 
is in the tourism industry, whether it is in the seafood 
industry. People, you know, you go to meetings around here, 
they love to have those little crab cakes. You know, somebody 
has got to pick that crab, and the experienced workers are H-2B 
workers.
    And unfortunately, as we have discussed, there are 33,000--
the quota is 33,000 for the second half of the year, which is 
the summer season coming up. Eighty-eight thousand applicants. 
That means 55,000 workers could not have been hired. And I am 
hearing on a daily basis--I had a telephone town hall last 
night--two calls. You know, please do something about it 
because it is so vital to my neck of the woods.
    Could you outline where you see these temporary worker 
programs going in a setting of full employment?
    Secretary Acosta. Congressman, thank you for the question.
    Let me in 1 minute offer maybe three ideas. One, the 
current H-2B program is limited by congressional mandate to 
33,000 in this 6-month period. In the first day alone, we 
received applications for more than 80,000 of visas. If you 
break it down by industry, I particularly feel for the small 
businesses in districts like yours that have highly seasonal 
businesses, where the local workforce demand cannot be met by 
the local workforce population. And to me, that is the core of 
what H-2B is about.
    If you look at the businesses that are making use of H-2B, 
I am not sure that all the businesses that are using the 
program are as highly seasonal as the ones that you have cited, 
and--but I don't have discretion to pick and choose between 
businesses. I process as they come in. And so Congress is going 
to have to make a decision whether or not to address this 
issue.
    One final word. Last year, we asked for a fee as part of 
the budget. We are asking for that fee again as part of the 
budget to simply streamline the process. We are literally using 
snail mail right now for the application process to go from 
agency to agency, and this is a simple good government solution 
that would benefit everyone, regardless of caps.
    And so I know, as a general matter, Congress dislikes the 
fee-based process as opposed to the standard appropriation 
process. But for the sake of all the individuals, and I can 
describe the process in more detail later, that use this 
process, it is time to modernize, and so I would ask that the 
subcommittee look at the fee request again.
    Mr. Harris. I thank you very much, and I hope you work with 
us on that.
    Thank you, Mr. Chairman.
    Mr. Cole. Absolutely. Let us go to my good friend from 
California, Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman.
    Welcome, good to see you, Mr. Secretary.

                 UNEMPLOYMENT RATES IN MINORITY GROUPS

    I want to hear your understanding of why President Trump 
touted the supposedly low unemployment rate in the black 
community that he claims is only because of his policies. I 
want to hear what those policies were because this statement 
couldn't be further from the truth.
    Let me put this in for the record. Black unemployment is 
double that of whites at 6.8 percent, which is the highest 
among all racial groups nationwide. Latino unemployment is also 
high, around 5 percent, compared to 4 percent nationally and 
3.7 percent for whites.
    It is not just unemployment, Mr. Secretary. Black full-time 
workers earn less than 60 percent of what white workers earn 
every year. The median net worth of white households is also 10 
times higher than that of black households.
    And so here we have a President really trying to take 
credit for the lowest black unemployment and economic gains, 
but this happened long before he took office in terms of the 
trajectory. Black unemployment has been declining since 2011. 
For the record, black unemployment rate fell from 16.5 percent 
to 7.8 percent from January 2011 to January 2017.
    Now the Kerner Commission issued an updated report citing 
what is taking place now 50 years later as it relates to income 
and racial justice and inequality. Fifty years ago, African-
American unemployment rate was 6.7 percent. Now, today, it is 
6.8 percent.
    Mr. Chairman, I would like to ask if I could insert this 
updated report into the record?
    Mr. Cole. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                             KERNER REPORT

    Ms. Lee. It is called ``Healing Our Divided Society.'' And 
let me just read one paragraph.
    `` `In Healing Our Divided Society,' Fred Harris, the last 
surviving member of the Kerner Commission, along with 
Eisenhower Foundation CEO Alan Curtis, they reexamine 50 years 
later the work still necessary toward the goals set forth in 
the Kerner Report.'' That is 50 years ago.
    ``This timely volume unites the interests of minorities and 
white working and middle-class Americans to propose a strategy 
to reduce poverty, inequality, and racial injustice. Reflecting 
on America's urban climate decline, this new report sets forth 
evidence and policies concerning employment, education, 
housing, neighborhood development, and criminal justice based 
on what has been proven to work and not work.''
    And so, Mr. Secretary, I want to ask you, would you review 
the recommendations in this report and provide the committee 
your feedback on these recommendations and which ones you think 
could be adopted by this administration?

                 PROPOSED CUTS TO JOB TRAINING PROGRAMS

    And secondly, just with regard to your budget that slashes 
a lot of the critical job training programs, we talked about 
the 24 percent cut for Job Corps, 34 percent cut for Dislocated 
Worker National Reserve funding, $10,000,000 cut, that is 11 
percent for re-integration of ex-offenders back into the 
workforce. So don't you also believe we need targeted 
investments in communities of color where this unemployment 
rate is still twice the national average?
    So I want to hear what you intend to do, what you are 
doing, and why in the world are you--is the President at least 
misrepresenting the facts?
    Secretary Acosta. Congresswoman, thank you. And let me try 
to take those seriatim.
    So I will gladly review the report, and perhaps you and I 
can even sit down and talk about this.
    Ms. Lee. I would love to do it.
    Secretary Acosta. And I would very much enjoy the 
opportunity to sit down maybe with you and talk about it in 
more detail.
    With regard to the second question, I understand all the 
concerns, and then I certainly understand your points. But the 
fact is that since this series has been kept, I believe it was 
either in November or December, it did hit the lowest level 
since the series was initiated back in I believe the '70s. So 
that is just a factual statement, which is 100 percent 
accurate.
    Ms. Lee. But that was not under this President's policy.

         CURRENT ADMINISTRATION'S ROLE IN RECENT ECONOMIC GAINS

    Secretary Acosta. And I would add because I have heard--I 
have heard statements that, you know, President Trump is not 
responsible for--I have heard statements that I think are 
inaccurate that President Trump is not responsible for the 
economic gains. But if you look at the breakdown of the 
industries where we have had the greatest acceleration in 
growth, those industries tend to look like construction and 
manufacturing and all those industries that the President has 
focused his energy on.
    And so the acceleration in growth has been highest in those 
industries, which I think points to the fact that, in fact, it 
is the change in policies that has spurred the economic----
    Ms. Lee. But in those industries, you have very few African 
Americans and Latinos, Mr. Secretary. All you have to do is 
look at the workforce in those industries.
    Secretary Acosta. Happy to engage in discussion.
    Ms. Lee. Okay. Do we have a second round, Mr. Chairman?
    Mr. Cole. If we cobble it down in the first round, we will 
do our best.
    Ms. Lee. Okay. Okay, okay. Thank you, Mr. Secretary. I look 
forward to sitting down with you.
    Mr. Cole. Thank my friend from California, and I just want 
to note for the record, Fred Harris is from the Fourth District 
of Oklahoma. Before he was a United States Senator, he served 
as a State senator for the second-largest city in my district. 
So proud that you quoted him.
    With that, I want to move--the ranking member of the full 
committee has arrived, and we are delighted to have her here as 
always. We consider her really a member of this subcommittee. 
She is of all subcommittees, but we know we are her favorite, 
and so we are delighted to have her here, and we recognize her 
for any comments or questions she cares to offer.
    Mrs. Lowey. Well, you are very kind, and this is probably--
this is--oh, I better be careful. This is a very important 
subcommittee. I have been part of it for a long time. So it is 
always an honor to work with you and to all the outstanding 
members.

          DISABILITY COVERAGE FOR GROUND ZERO FIRST RESPONDERS

    I really want to thank you, Mr. Secretary, for joining us 
today. We have many multiple hearings this morning. I am so 
sorry I missed your testimony. I know that important Federal 
investments in worker training, apprenticeships, and more have 
been discussed, and I would like to raise a matter of great 
importance to one of my constituents.
    In 2001, Special Agent Terry Opiola was serving in the U.S. 
Customs Service, where he was part of the rescue and recovery 
team deployed after 9/11. Mr. Opiola spent nearly 600 hours at 
Ground Zero and the Fresh Kills landfill, digging through 
rubble in search of missing case evidence, exposing him to 
toxins that have caused great harm.
    Mr. Opiola was diagnosed with chronic lymphocytic leukemia, 
or CLL, in 2015 by physicians at Mount Sinai's World Trade 
Center Health Program. The physicians at Mount Sinai categorize 
CLL as a form of cancer and a recognized category of World 
Trade Center related health conditions.
    Mr. Opiola is now being treated by the World Trade Center 
Health Program affiliated oncologists at New York's Memorial 
Sloan Kettering Hospital. And yet the Department of Labor has 
denied his application for disability, stating that the 
Department has not found a causal relationships between his 
cancer and 9/11, even though the experts at the World Trade 
Center Health Program, OPM, and the Department of Justice 
Public Safety Office's Benefit Program all recognize the 
relationship.
    In November, I led a bipartisan letter with the original 
sponsors of the 9/11 health bill to bring this matter to your 
attention, and we are yet to receive a response. In recent 
months, Mr. Opiola has been going back and forth with the 
regional Department of Labor office who have asked him for 
documents he has already provided and given unclear 
instructions, which have amounted to unnecessary delays.
    This man gave everything he could to our country in a time 
of crisis, and it is, frankly, unfathomable to me that his case 
would be stuck in a bureaucratic mess. So I implore you to fix 
it.
    A few questions. Why is the Department of Labor not 
recognizing a causal relationship between these types of cancer 
and 9/11 when the medical experts and other Federal Government 
agencies have already determined the cause? And if you can 
respond about what you are going to do to fix it?
    Secretary Acosta. Ranking Member, thank you very much for 
that question.
    I can't respond to the specific case, but I think I can 
address the point that you are making. First, if we haven't 
responded to you, I feel very strongly that we should respond 
in a timely manner and will make sure we get a response to you 
this week.
    Secondly, I have been disturbed personally by the confusion 
in the standards in various programs that the Department 
administers, particularly as it affects first responders. I 
have asked staff to look at this and to give me an explanation 
because the questions that you ask, I have asked myself of 
staff. And as we have looked into this, we have seen that as 
Congress has developed the various programs over time, each one 
has a different standard, a different causal relationship that 
must be established, a different set of discretions for 
presumptions that we can make.
    Personally, as I look at this, you know, these are 
individuals that have served our communities, that have served 
us, and I think, to the extent that we can, we need to help 
them. I would very much welcome the opportunity to sit down on 
a bipartisan basis, and you know, there are several statutes 
with several different standards that must be met. And I think 
it is incredibly confusing because the American citizen out 
there that is applying doesn't understand that if you apply 
under this statute versus that statute versus that statute, 
there are different requirements.
    And I think it would be a wonderful thing for Congress to 
look at these and let us bring some sanity to the different 
standards by maybe harmonizing the standards so that first 
responders, irrespective of what program they fall under, can 
all have the same access to benefits and the recognition that 
as a statistical matter, much of what they are suffering is 
because they actually acted as first responders serving the 
people of our Nation.
    Mrs. Lowey. Let me just say this. I am glad you are going 
to do a lot of studies, and I am glad you are going to fix all 
the programs. But right now, the relationship has been 
established. So just fix it, please.
    Thank you.
    Secretary Acosta. Congresswoman, if I could? I have to 
follow the law. You set the law. I will gladly speak with you 
about harmonizing the statutory standards. I don't have 
authority to change statutory standards, and that is the 
problem.
    Mrs. Lowey. I would be delighted to have a discussion with 
you anytime about statutory standards, but the relationship 
with this man's illness clearly has been established. So I 
would hope you would take your executive action and fix it, and 
then I am delighted to have meetings with you at any time.
    Thank you. And thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    We next go to my good friend from the great State of 
Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.

          PROPOSED RULE EXPANSION FOR ASSOCIATION HEALTH PLANS

    Dr. Harris touched on the topic I want to talk about. The 
Department of Labor's fiscal year 2019 budget request provides 
expanding access to health coverage by allowing more employers 
to form small business health plans or association health 
plans. This initiative is supported by increasing funding for 
the Employee Benefits Security Administration to develop policy 
and enforcement capacity to expand access to small business 
health plans.
    So as you know, Obamacare is currently the law of the land 
on healthcare, despites numerous attempts by my colleagues in 
the House to completely repeal and replace this ill-conceived 
law. However, we were able to repeal the individual mandate 
required under Obamacare so that individuals will no longer be 
assessed a penalty if unable to maintain coverage.
    While this is a step in the right direction, more reforms 
are necessary. Obamacare is riddled with burdensome regulations 
that hinder States across the country in providing affordable 
healthcare options to their citizens. Many from Alabama and 
throughout the country have shared their stories of insurance 
policy cancellations, skyrocketing premiums or copays, and new 
limitations on what physicians they can see. In my State of 
Alabama, there is only one healthcare--health insurance 
provider. There is no question that America's healthcare system 
is in need of dire reforms.
    So, Mr. Secretary, it is my understanding that the 
administration and in your testimony, you mentioned the 
proposed rules expansion of association health plans will 
increase access and provide more affordable options. Could you 
provide this committee with a little bit more detail about how 
the proposed small business health plans or associated health 
plans will work and how they will help relieve some of the 
strain caused by the burdensome Obamacare regulations?
    And then also how much flexibility will these small 
business health plans allow for?
    Secretary Acosta. Congresswoman, thank you. Thank you for 
the question because this is a very important issue.
    And so under ERISA, the Department has regulatory authority 
to determine what is a commonality of interest so that 
businesses can associate in providing things like healthcare. 
And so the concept behind the association health plan or the 
small business health plan is that businesses that have a 
commonality of interest can come together, and they can 
negotiate for health as a group, for health insurance as a 
group. And so, you know, I was talking to a small business 
person about this that went from 60 employees to 40 employees, 
and they pointed out how much more expensive the small group 
market is than the large group market. The same health plan, 
but an increase in premiums.
    But if all the small businesses can come together and 
access that large group market, a few things will happen. 
First, they have an economy of scale. Secondly, most small 
employers aren't in the business of negotiating healthcare. 
They are in the business of running their small businesses.
    And so this would allow them to come together and have an 
association that they would control, if we proceed with this 
proposal after notice and comment, that they could come 
together and then have experts that are much more focused on 
how to negotiate healthcare. And I believe that very--that very 
change that creates an economy of scale and that allows an 
expert to actually negotiate the plan on behalf of a large 
association would be important steps in driving down the cost 
of healthcare.
    So small businesses can offer employer-based healthcare to 
their employees and their families, nearly 11 million 
individuals working for these small businesses that don't have 
access to healthcare.
    Mrs. Roby. And I can just say that we get calls all the 
time. There are so many people in my State, and I am sure 
throughout the country as well, that have an insurance card in 
their pocket that they can't afford to use. So just please know 
that you have my full support as you develop these policies 
that will increase choices and return health insurance 
decisions back to where they belong, with the doctors and the 
patients.
    So thank you again for your leadership. I appreciate you 
being here.
    Mr. Chairman, I yield back.
    Secretary Acosta. Thank you.
    Mr. Cole. A new champion. Under time, not even close. 
[Laughter.]
    Mr. Cole. If we can, we will now go to my other good friend 
from the great State of California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    First of all, let me just associate myself with the 
concerns that have been raised regarding the rule on tips and 
also with regard to the $1,100,000,000 cut to the Employment 
and Training Administration.

                       FORCED ARBITRATION CLAUSES

    Secretary Acosta, when you testified before the 
subcommittee last year, I expressed concern about President 
Trump's executive order to revoke the 2014 Fair Pay and Safe 
Workplaces order, which prevents companies with Government 
contracts from using forced arbitration clauses to keep sex 
discrimination claims out of the courts and off the public 
record.
    Five months after that hearing, we learned of the 
widespread use of forced arbitration clauses by many industries 
to hide sex discrimination and sexual harassment in the 
workplace, and such revelations gave birth to the ``Me Too'' 
movement. Last year, you noted that, as a general matter, 
Federal policy favors arbitration. So I am not contesting that, 
but I would like to specifically focus on forced arbitration 
because there is a difference between an employee choosing 
arbitration and an employer forcing arbitration to silence 
victims and conceal a corporate culture where sexual 
harassment, sexual assault, and discrimination may be 
commonplace.
    So my question to you, Mr. Secretary, is do you believe 
that companies with Government contracts should be able to use 
forced arbitration clauses? And since the arbitration is done 
in secret and unavailable to the public, how can you protect 
others from being vulnerable for the same types of abuses, and 
how can you protect the rights of victims, especially from 
retaliation from their employer?
    Secretary Acosta. Thank you, Congresswoman.
    I believe what you are referring to is an executive order 
that said that companies that had violated certain rules could 
not be, as a matter of law--or should not be, as a matter of 
law, prohibited from engaging in the contracting process. Now 
your question goes to whether or not arbitration, there should 
be arbitration provisions--from what I sense, arbitration 
provisions in employment contracts? Is that what your 
question----
    Ms. Roybal-Allard. Yes. I am referring to forced 
arbitration that some companies have.
    Secretary Acosta. So when you say ``forced,'' is that a 
contractually agreed-to arbitration?
    Ms. Roybal-Allard. Yes.
    Secretary Acosta. And so, so Federal policy for decades has 
favored arbitration, and that includes arbitration agreements 
that are part of a contract where individuals agree in a 
contractual relationship that they will use arbitration. 
Certainly, that is something that we can discuss and that we 
can look at and whether there should be further discussion on 
that. But that is something that has been part of Federal 
policy for decades.
    Ms. Roybal-Allard. No, I understand that in general. But I 
guess what my question is, is what is your opinion with regards 
to forced arbitration with companies that have Government 
contracts since it has been shown that it is used to hide a 
culture of either discrimination, sex abuse, and so on?
    Secretary Acosta. And I guess here is where my confusion is 
coming in. When you are saying ``forced arbitration,'' is that 
the same as contractually agreed-to arbitration?
    Ms. Roybal-Allard. Yes.
    Secretary Acosta. And so, you know, when arbitration is 
contractually agreed to, you have two parties coming together 
and contractually agreeing to engage in arbitration as a way 
to--as a recognition that the legal system can be very 
expensive and that the arbitration is a less expensive, more 
affordable remedy. Now there may be protections that we should 
be looking at within the arbitration system.
    Ms. Roybal-Allard. Let me ask the question another way. Do 
you think that companies that have these contractual agreements 
of forced arbitration should be given Federal dollars?
    Secretary Acosta. Well, Congresswoman, I believe most 
companies out there have arbitration clauses in all sorts of 
relationships, including employment, and Federal policy has for 
decades. So that would be a drastic change from established 
Federal policy that has been in place for decades and decades. 
And before we go down that road, I would want to have----
    Ms. Roybal-Allard. Are we still talking strictly about 
forced? I understand the arbitration, and I am not contesting 
that.
    Secretary Acosta. We were talking about contractual--yes, 
yes. And I would want to have a discussion about whether there 
are procedures that perhaps could address your concerns within 
the arbitration process before we----
    Ms. Roybal-Allard. Okay. Because my understanding is that 
in order for an employee to get a job, they need to sign that 
contract that includes the forced arbitration. So, again, I am 
talking about forced arbitration and companies that receive 
Federal money. So I would very much like to maybe talk about 
this further and see if there is something that can be done 
because it really just opens up the doors for abuses and leaves 
employers very vulnerable to what is happening in that company.
    Secretary Acosta. Happy to have the discussion.
    Ms. Roybal-Allard. I have asked all my questions.
    Mr. Cole. Okay. I thank the gentlelady.
    We now go to my good friend from the great State of 
Michigan, Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    Mr. Secretary, can you see me?
    Secretary Acosta. Yes.

                       ADDRESSING H-2B VISA CAPS

    Mr. Moolenaar. There we go. I wanted to follow up on some 
of the discussion we were having on the H-2B visas. At the core 
of your response, I got the sense that you said Congress needs 
to take action to make changes there.
    I guess one of the questions I have, is there anything you 
can do unilaterally to make changes that might help this 
situation?
    Secretary Acosta. Congressman, this is pretty 
straightforward. Congress has said that there is an annual cap 
of 66,000. That is divided into two parts of 33,000 every 6-
month period. For this 33,000 period, we received 81,000 
requests. Congress has given us that number, and if that number 
is to change, it needs to initiate here.
    One issue that I want to highlight, however, is we don't 
have discretion as to how these are issued. There are some 
industries that are highly, highly seasonal where, for a few 
short weeks, you have a large peak in demand, larger than the 
local workforce could possibly cover.
    That, to me and to my mind, is what the whole concept of 
that seasonal visa is about. There are other industries that 
while they are seasonal, they don't have that one peak, and 
they are spread over a larger geographic area so they don't 
have as big a strain on the workforce because it is spread out 
over large swaths of the country.
    And so one of the concerns as Congress looks at this is, 
are you really focusing on those highly seasonal industries, 
and should there be any distinction between the highly seasonal 
industry where the local workforce is simply insufficient and 
other seasonal industries that are taking up a large portion of 
these visas? That ultimately is a question for Congress as how 
you set those standards.
    And the second point that I would make is currently the 
Department of Labor has a system, the Department--DHS has a 
system, and State has a system. And we have asked for a fee to 
integrate those three systems so that much like we see in our 
telephone apps, someone can apply and track where it goes from 
agency one to agency two to agency three. I think that is a 
simple good government thing that everyone should be in favor 
of.
    And so I believe, you know, we might have the opportunity 
to receive a little bit in this year's budget to start that 
process, but that to be long term to fund that streamlined 
system I think is something I would ask the committee to look 
at again.

                     H-2B VISA APPLICATION PROCESS

    Mr. Moolenaar. Just a follow-up question. So when you issue 
certifications for H-2B workers, for instance, my understanding 
is your Department, as of February 27th, had issued 59,537 
certifications for H-2B visas, for H-2B workers. Does that mean 
that your Department has sort of verified that there are not 
employees that are available for those jobs, U.S. employees, 
and that it kind of certifies that that is in the case needed?
    Secretary Acosta. Sir, that is not the case. And let me 
briefly walk through the process. Someone that is looking to 
hire an H-2B worker would apply to the Department of Labor. We 
would certify the wage rate that they are offering as an 
appropriate wage rate.
    We would then send them a notice, and they would then 
advertise. They would show us proof that they had advertised, 
and then we would then certify that they have met the 
advertising requirement. At that point, the individual seeking 
the visa would then send the request to DHS, which is the one 
that would then process that visa. Send it back to the 
individual. The individual would then send it to the Department 
of State for issuance.
    And so our role is to certify the wage and certify that 
they have met the advertising requirements, and we will certify 
all the individuals that apply, whether or not the cap has been 
met. It is our policy because we don't know if Congress is 
going to change the 33,000 cap. So it is our policy to certify 
the individuals that have applied whether or not the visa cap 
has been met.

                      INCREASING THE H-2B VISA CAP

    Mr. Moolenaar. And for someone to come up with a new cap 
number and to have that kind of support within the 
administration, if we were going to work on that in Congress, 
who would need to be in the room to have that agreement that 
this is what is needed for--because I will tell you, in 
Mackinac Island--you may be familiar with Mackinac Island--
there is one business that wasn't able to open some aspects of 
their business because it is an employer that required 1,000 
workers, and there is only 500 people that live in that town 
year round.
    And you know, it is a highly summer vacation area, and so 
we are experiencing this. But how do we make that happen in 
terms of with the administration? I understand how Congress 
works, but with the administration. Because there are some I 
think in the administration that may not feel that these visas 
are necessary.
    Secretary Acosta. So, Congressman, as I said earlier, I am 
very sensitive to the needs of those businesses that are highly 
seasonal where the local workforce demand, and you gave a 
perfect example, was insufficient. And that is what I think the 
core of the visa is about.
    Last year, Congress gave authority to DHS in consultation 
with the Department of Labor to increase the cap, and then-
Secretary Kelly made the decision in consultation with me. And 
he and I are shoulder to shoulder in that decision that the 
visas would increase by 15,000. What Congress did last year, 
and I just want to mention this, is they gave discretion to the 
administration. And as a result, we had to write a rule, and 
that takes time.
    And so the mechanism that was used last year, while we made 
the discretionary decision to increase the number by 15,000, by 
the time the rule was written and issued, that 15,000 was not 
able to be focused on businesses like you are talking about.
    Mr. Moolenaar. Mm-hmm.
    Secretary Acosta. And so I would urge Congress, as you are 
looking at a solution this year, and we are happy to--our 
Department and DHS, if I could speak for them, I think would be 
happy to work with your staff to the extent that you are 
looking for solutions to craft something that does not require 
rulemaking. Because if we engage in that rulemaking, we are 
going to be exactly where we were last year, and that doesn't 
solve your problem, and that doesn't really address what we are 
looking for either.
    Mr. Moolenaar. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    Just to advise the committee, we are going to continue. The 
Secretary has a hard stop at noon. We are going to stay at 5 
minutes, but if you can do it under that, Ms. Clark will be 
very grateful. Mr. Moolenaar, if he hangs around, will be very 
grateful.

                      ADDRESSING SKILLS GAP ISSUE

    I am going to set the opening example. I just want to ask 
you one question.
    We have had always a persistent problem with the skills 
gap, and it is always difficult. You probably operate more 
training programs in your Department than anybody else in the 
Government. And, but it is a stubborn problem. It is a 
difficult one.
    So would you advise the committee on any special 
initiatives you are taking or looking at how we have 
traditionally done things so that we could, hopefully, cut into 
that a little bit more and put people in really good-paying 
jobs that have a real future with.
    Secretary Acosta. Mr. Chairman, thank you for the question.
    And certainly, we have talked about the apprenticeship 
program that we are very excited about, and we are excited 
about expanding that even more than has been expanded in the 
past. Let me note something that is in the budget that was in 
the budget last year that I think is incredibly important, and 
that is flexibility for Governors.
    The ways monies are appropriated for Governors currently, 
they have different programs that they administer. And 
Governors on both sides of the aisle have come to us and said, 
we have this great idea that works in our State. Can we take 
money from funding source A and use it for funding source B? 
In-school youth versus out-of-school youth, for example. And I 
am highly restricted in my ability to allow Governors to sort 
of move those funding streams around, and then Governors have 
said, well, the compliance and accounting efforts behind those 
are so onerous that we are not able to use monies as 
efficiently.
    And so we have asked again for additional flexibilities so 
that we can work with the Governors to recognize that Oklahoma 
may be different than California and that the needs of Oklahoma 
may be different and what programs work in Oklahoma may be 
different. And so I would ask the committee to look at those 
flexibilities because I do think they are important.
    Mr. Cole. Well, I appreciate that, and we will look at 
that. I think that is an excellent idea, and we are going to 
try and work with you on that.
    With that, let me go to my good friend, the gentlelady from 
Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.

                               JOB GROWTH

    Mr. Secretary, just a couple of things. My colleague Mr. 
Harris was clarifying the record. I would also like to make a 
point. This has to do with your commentary on job growth, which 
I would just say the last year of the Obama administration, 
there were 196,000 jobs created per month. First year of the 
Trump administration is 171,000 per month. So, in fact, job 
growth slowed.

                COURT RULINGS ON TIP POOLING REGULATION

    With regard to your selecting the Tenth Circuit over the 
Ninth Circuit, it would just seem to me that your view seems to 
view that there is legal wage theft is okay. I say that, but at 
the same time, we will take a very, very hard look at 
legislation, which will undo that and promulgate a law here.

              INCOME-SHARING AGREEMENTS IN APPRENTICESHIPS

    Let me move to apprenticeships. Just a point, two points I 
want to make. You tout the benefits of apprenticeships such as 
the average annual wage of $60,000. However, you failed to 
clarify that such benefits are only for registered 
apprenticeships. The appropriations language is clear that it 
can only be used for registered apprenticeship programs and not 
for this new scheme.
    I would comment on the subcommittee's progress report, and 
if you can get back to me on this, it would be helpful. That 
one of their recommendations on this, this is the 
recommendations from President Trump's Task Force on 
Apprenticeship Expansion. It talks about risk-sharing 
opportunities. A recommendation is, ``Income-sharing agreements 
provide a new tool that could help businesses fund 
apprenticeship training costs. Investors sponsor 
apprenticeships by investing in their training, and in return, 
they take an equity stake in the apprentice's wages over a 
certain period of time.''
    That would appear to me this is the same as indentured 
servitude that you get. So I would love to have clarification 
on that, and if you can do it for us in writing, that would be 
great because I would like to move to the International Labor 
Affairs, ILAB, if you will?

              PROPOSED CUTS TO ILAB IN 2019 BUDGET REQUEST

    ILAB is one of the few Federal agencies with the explicit 
responsibility to help level the playing field so that American 
workers are not forced into unfair competition. And we have 
seen since entering NAFTA that Carrier, GE, Nabisco have moved 
jobs across the border to pay poverty wages, dump toxins before 
selling their products back to the U.S. as imports.
    2019, you propose to cut 80 percent of funding for ILAB, 
explicitly seeking to eliminate the grants for labor capacity-
building that would help countries like Mexico protect worker 
rights, fight child labor, improve wages and working 
conditions. Your testimony said when trading partners fall 
short of labor standards set forth in trade agreements, they 
can create an uneven playing field that hurts American workers.
    Given the loss of nearly a million jobs, in large part due 
to the absence of healthy democratic institutions, independent 
workers organizations in Mexico, how would you describe the 
current status of labor rights and working conditions on the 
ground in Mexico? What are you prepared to do about it?
    Do you believe it is fair for workers in my district and 
districts across this country to compete with workers in Mexico 
who are paid poverty wages and effectively have no freedom to 
join in a union of their choice or negotiate for better wages 
and working conditions?
    I have other questions, but I will submit them for the 
record.
    Secretary Acosta. Fair enough. Ranking Member DeLauro, 
there are a number of assumptions and statements that I--let me 
just note that they are yours and that I would not necessarily 
agree with your characterizations of what I have said or 
otherwise. But let me move on and just address your question.
    Ms. DeLauro. This was a quote from your testimony. I have a 
quote.
    Secretary Acosta. I take no issue with--I was referring 
earlier to your summary of what I had said on other issues.
    Ms. DeLauro. Ah, got you.
    Secretary Acosta. But, and so we currently have a request 
that we investigate the labor conditions in Mexico. We are 
looking at that request within ILAB, and because that request 
is pending, I don't think it would be appropriate for me to 
prejudge how that request will be treated. But it is something 
that we are certainly aware of. It is something that is part of 
the discussions in the NAFTA.
    Ms. DeLauro. What about the 80 percent cut, though, in the 
ILAB grants that allow us to do these kinds of things?
    Secretary Acosta. So the budget, as proposed, looks to 
reduce or eliminate most of the grants out of ILAB. And this 
goes to I think a question of policy that Congress is going to 
have to address. What my testimony made clear is that when 
other trading partners violate labor rights, it creates an 
unfair labor system and uneven playing field, and that is 
absolutely right. The question is should the American taxpayer 
be paying for those countries to address those issues, or 
should those countries themselves be paying for it?
    And so if you look at the budget and what the budget is 
doing, most of the reductions that you are referencing go into 
grants that are provided to those foreign countries to address 
that. And I think Congress needs to decide whether it wants to 
spend American taxpayer money here in the United States or in 
other countries.
    Ms. DeLauro. You have answered my question. Just one last 
comment. But we are okay with a tax code that says you can go 
to Mexico and only pay up to 13 percent on your profits. But if 
you stay in the U.S., you pay 21 percent. Wow.
    Okay. Thank you very, very much, Mr. Secretary.
    Thank you, Mr. Chairman, again.
    Mr. Cole. Absolutely. With that, we will go to my good 
friend from Maryland, Mr. Harris.
    Mr. Harris. Thank you very much.
    And look, I am kind of glad we passed tax reform. We had a 
rate of 35 percent before, and we are going to repatriate 
money, and we are going to bring jobs back to America. And I 
just saw statistics that we increased manufacturing jobs by 1 
million last year, which is pretty phenomenal. That is what we 
are missing.

                             H-2B VISA CAP

    Anyway, let me just--and I have two specific questions, but 
just to close the loop on the H-2B. So if Congress is going to 
solve it in the omnibus bill, because that is really the only 
vehicle we are going to have that is going to do anything 
before the summer season, in my case for crab pickers or the 
gentleman from Michigan for Mackinac Island, it is your 
testimony that we have to be careful that we write something 
that doesn't require a department to write a rule. Is that 
right?
    Because then it would be a Pyrrhic victory. We could put 
the cap at whatever we want, and none of it would be available 
by summer?
    Secretary Acosta. That is correct, Congressman.
    Mr. Harris. Okay. So we will work on that.

                      PROPOSED OVERTIME REGULATION

    Okay. My two specific questions. One is, is that--and we 
talked about the overtime regulation already. But you have 
reportedly said that you are considering including an automatic 
increase mechanism in the proposed overtime regulation that the 
Department is developing, but the Fair Labor Standards Act 
doesn't--by my impression, doesn't include language permitting 
that. And indeed, it says that the overtime exemption shall be 
adjusted to regulation. So are you going to need a statutory 
change in order to put an automatic increase mechanism into the 
regulation?
    Secretary Acosta. Congressman, we asked--we issued a 
Request for Information, and we received several comments. Some 
of the comments raised that issue. That is an issue that we are 
going to look at. We are not asking for any statutory change at 
this time.
    We will examine whether the statute allows for an inflation 
adjustment and whether there are mechanisms that are really in 
keeping with good policy within the statute.
    Mr. Harris. Okay. No, thank you. And again, you know, if 
you need help, we can--hopefully, we can provide that help on 
the statutory side.

                             WORKER CENTERS

    Now the last 3 minutes I am going to take is going to be a 
topic that I was unaware of until I saw a letter back in 
January from the chairman of Education and Workforce to your 
office about what are called these ``worker centers.'' Because 
in my understanding is that, you know, the Labor-Management 
Reporting and Disclosure Act, I think kind of just makes it 
fair to someone who is going to be--you know, come under a 
union to make sure that the union is doing things right. That--
you know, that corruption is not occurring, financial 
responsibility, the whole thing.
    And that now what have come up are these things called 
these worker centers that apparently are affiliated with 
unions, sometimes closely affiliated with unions. But my 
understanding, they may not have this reporting requirement. So 
I don't know whether this is a--you know, an overt effort to 
just avoid reporting--reporting requirements, or what is going 
on. Can you just fill me in on what in the world is going on 
with worker centers, and are they truly able to skirt the law 
under the Labor-Management Reporting and Disclosure Act?
    And will the Office of Labor-Management Standards, I don't 
think you have a new Director in the office yet approved. I 
mean, are we paralyzed by this, and these worker centers are 
just going to spring up all over the place?
    Secretary Acosta. Congressman, first, I hope to have a new 
Director in place soon. We are not paralyzed by this. To the 
extent that worker centers are acting as labor organizations 
and to the extent they are covered by the LMRDA, then they 
should, in fact, be covered by the LMRDA. And I have already 
asked OLMS to look at this and to determine whether any workers 
centers are acting as labor organizations, and if so, whether 
they, in fact, should be filing. So this is something that has 
already been addressed and is ongoing.
    Mr. Harris. Now if you find that they are, in fact, acting 
as--you know, they fall under the Disclosure Act, what can you 
do? I mean, what mechanisms do you have for enforcement of that 
act with these worker centers?
    Secretary Acosta. Well, Congressman, if they fall under the 
act, then all the enforcement mechanisms of the act would 
apply, and so they would have to follow the disclosure 
requirements of the act, or there would be enforcement. And you 
know, if there is something that I hope has been heard multiple 
times by the committee, it is that we were going to follow the 
law. And that includes both OSHA, and that includes Wage and 
Hour, and that also includes the LMRDA.
    Mr. Harris. So are you still trying to determine if some of 
these fall under, or it is your belief that they do fall under 
it and you are just initiating these, you know, the necessary 
actions under the act?
    Secretary Acosta. There have been allegations that some 
worker centers are functioning as labor organizations. And so I 
have directed OLMS to consider those allegations and to 
determine if they, in fact, are true. And if they are true and 
if, in fact, they fall under the LMRDA, then the LMRDA would 
apply, and they would have to disclose. And they would be 
subject to the provisions of the LMRDA.
    Mr. Harris. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Cole. Thank you. We will next go to my friend, Ms. Lee, 
from California.
    Ms. Lee. Okay. Thank you.

              PROPOSED FUNDING REDUCTIONS IN 2019 REQUEST

    Let me ask you, Mr. Secretary, a couple of questions with 
regard to the administration's proposed cut to the Supplemental 
Nutrition Assistance Program, SNAP. I believe it is about 
$213,000,000,000, 30 percent over 10 years.
    It also, though, radically really restructures how the 
benefits are delivered like through Harvest Box, you know, that 
includes eligibility cuts and workforce requirements that would 
cause and I believe it is about 4 million people to lose SNAP 
benefits altogether. That is according to the Center for Budget 
and Policy Priorities.
    Now the cuts, though, in your workforce training programs 
disturb many of us. They are problematic because that--these 
programs are supposed to help people get jobs. So, of course, 
you are talking about the 24 percent cut for job training, 34 
percent cut for Dislocated Worker National Reserve, again the 
reintegration of ex-offender 11 percent cut, 13 percent cut 
Office of Federal Contract Compliance, 29 percent cut Office of 
Disability Employment Policy, 79 percent cut for International 
Labor Affairs, 72 percent cut for the Women's Bureau.

              EFFECT OF 2019 PROPOSALS ON AMERICAN WORKERS

    Now let me ask you, how do you expect people on SNAP to get 
a job if you are cutting the very programs that they are 
supposed to help? Secondly, I hope you all are aware of the 
fact that the majority of people who receive SNAP benefits are 
already working and that two-thirds of individuals who receive 
SNAP are children, seniors, and the disabled.
    And so what do you think about these cuts that undermine, 
first of all, the ability to work, but secondly, these onerous 
work requirements now that are going to cause millions of 
people to lose their SNAP benefits? And then the second part of 
my question has to do with just an increase in the minimum wage 
from $7.25 an hour. It has been stagnant. I believe the Federal 
tip minimum wage has been stuck at about $2.13 an hour for 
about 25 years, and I do associate myself with the remarks of 
all my colleagues on the tipped wage issue.
    But I remember at your hearing, you said that whether it is 
those who are working, those who still seek work, those who are 
discouraged or under employed, or those who have retired, if 
confirmed as Secretary of Labor, I will advocate for them. That 
was your quote at your hearing.
    And so do you support legislation to increase the minimum 
wage and also eliminate, of course, the tipped wage, which we 
discussed earlier.
    Secretary Acosta. Congresswoman, thank you for the 
question, and you know, as I was listening to your percentages, 
I am trying to match them up with my information of the budget 
here. And they don't--they don't align, and I am trying to 
understand why.
    It may be that there really are two different budget 
proposals that we are working with here. Because after Congress 
reached the resolution that it did, additional monies were put 
in the budget. And so as I am looking through this budget, the 
programmatic side, putting aside the decreases--let us not even 
go on the programmatic side.
    The overall decrease is about 10 percent. No one agency 
within the Department is receiving, other than ILAB is 
receiving--I am sorry, other than ETA is receiving substantial 
reductions. And the reductions within ETA, which is the agency 
that does much of the workforce training, focus on particular 
programs that are being reallocated. And so those are the 
migrant and seasonal farm worker and the community service for 
older Americans.
    And certainly, the hope is that with increased--with 
increased flexibilities, those can be made part of the larger 
program. So I don't know where the percentages are coming from. 
You have those. I have different figures. Let us put those 
aside.

                          WORKFORCE EDUCATION

    I strongly believe that workforce education is important 
and critical. And in terms of returns on investment, one of the 
best things that we can do is provide skills so that someone 
can get a job.
    Going to your point of reentry, one of the things I have 
said, and I have been saying this--did my mike go off? And I 
have been saying this since I was United States attorney. I am 
a big fan of reentry programs. I was a prosecutor, and so I say 
this from the perspective of a prosecutor. Once someone has 
served their time, the best thing we can do for them is get 
them a job.
    Ms. Lee. Yes, Mr. Secretary, but again, we will have to 
reconcile these figures. But I see a $10,000,000 cut in the 
reintegration of ex-offenders in this year's budget.
    What about the minimum wage?
    Mr. Cole. I would ask the lady----
    Ms. Lee. Pardon?
    Mr. Cole. Her time has expired, and I want to be able to 
give Ms. Clark----
    Ms. Lee. Oh, I am sorry. Excuse me. We will follow up with 
you.
    Mr. Cole. Thank you very much. I appreciate that.
    Ms. Clark? If you will indulge us, Mr. Secretary, we are 
going to go just a few minutes over so my friend can get her 
second round in.
    Ms. Clark. Thank you very much, Mr. Chairman and Mr. 
Secretary.

      MANDATORY ARBITRATION UNDER FAIR PAY AND SAFE WORKPLACES EO

    We are on a roll of working together. We are going to work 
together on tipped wages, and I hope that we can work together 
also I want to go back to some of the comments my colleague 
from California had around mandated arbitration because it was 
the rule under the Fair Pay and Safe Workplace Executive Order 
that that was mandatory arbitration for a host of civil rights, 
including sexual harassment and assault was banned for Federal 
contractors who have a contract for a minimum of $1,000,000. So 
$1,000,000 or more extensive taxpayer funds.
    Would you be open to working in reinstating that ban as we 
are in the Me Too movement and understand the impact that 
sexual harassment and assault has in our workplace, and that 
when you are receiving taxpayer dollars as a significant 
Federal contractor, there really is no place for this mandated 
arbitration around sexual harassment claims that keep them 
quiet and out of the courts.
    And you know, I think I understood you to say this had been 
a private contracting, you know, and that is not what I am 
talking. I am talking about Federal contractors who until this 
administration rescinded those protections had to do away with 
the mandated arbitration around Title VII claims.
    Secretary Acosta. And so, Congresswoman, I am certainly 
open to discussions, and what I was trying to point out is that 
there are really two parts to this. One is whether or not there 
should--contractual arbitration should be permitted or not, and 
that is a policy question. And the other one is if it is 
permitted, what might appropriate safeguards or caveats be 
around that arbitration process?
    And let us before we eliminate something that has been in 
Federal policy for decades, let us talk about maybe there are 
safeguards that would make sense. But I think the key part is 
let us talk about that and let us--you know, let us discuss, 
and I am certainly open to that discussion.

                JOB TRAINING FOR RECOVERING OPIOID USERS

    Ms. Clark. Okay. And the last one I wanted to mention was 
as Massachusetts and the country continues to fight an opiate 
crisis--1,900 lives lost in Massachusetts alone last year to 
overdoses--I think there is a real role for the Department of 
Labor in working with us on job training programs for those 
coming out of treatment.
    Would you be open to that? Have you been asked by the White 
House to weigh in on the opiate crisis and what tools you have 
and resources for people?
    Secretary Acosta. So, Congresswoman, I agree entirely. If 
you look at the data, I believe the Bureau of Labor Statistics 
in one of the surveys, I forget exactly which one, asked, ``Did 
you take a pain killer yesterday?'' And I believe the response, 
44 percent of prime age males outside the workforce answered 
yes.
    I believe Professor--I am blanking on the name now, he is 
in Princeton, and he was President Obama's--one of President 
Obama's economic advisers. I think was it Krueger? Yes, 
Professor Krueger did a separate survey and found 47 percent. 
His survey went on to say, ``Was it a prescription drug?'' And 
it was either 31 or 33 percent said yes. Not, you know, last 
week or last month, but yesterday.
    And so this is, you know, a major, major issue, and 
Professor Krueger concluded that I believe 20 to 25 percent, 
according to him, of prime age males, which was his focus, that 
are not working or not working because of opioid addiction. And 
so I have already asked ETA within the Department of Labor to 
see within existing funding what we can do to address this.
    Because I think when whether it is 20 percent or 15 or 25, 
we can have a long discussion about. But that is a very high 
number irrespective. And so to the extent that I have 
flexibility within the ETA budget, I have already asked ETA to 
see what we can do to target programs specifically for 
individuals that have opioid addiction so they can come back 
and get a job.
    And if I could briefly, going back to the reentry issue? I 
think there is an analogy to be drawn here. Just like the best 
thing you can do for someone coming out of prison is work to 
give them the skills to get a job, I think one of the best 
things you can do to address an opioid addiction is give 
someone a job. Because with the job comes a confidence and a 
sense of belonging and all these other soft benefits that are 
associated with employment that I think do help combat opioid 
addiction. And so, gladly.
    Ms. Clark. Wonderful, and I would agree with you that the 
two issues are intertwined and that it is a great use of your 
budget in asking for additional funds for your budget around 
this because the money we will save in the long run by having 
people gainfully employed is well documented.
    Thank you, Mr. Chairman, very much.

                  Closing Statements by Chairman Cole

    Mr. Cole. Thank you.
    Mr. Secretary, thank you very much for your time and for 
your indulgence here at the end. We appreciate that.
    I want to thank the members of the committee as well for a 
very robust exchange. It was a good hearing.
    With that, we are adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    

                                          Thursday, March 15, 2018.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

HON. ALEX M. AZAR II, SECRETARY, U.S. DEPARTMENT OF HEALTH AND HUMAN 
    SERVICES
    Mr. Cole [presiding]. Good morning, Mr. Secretary. It is my 
pleasure to welcome you to the Subcommittee on Labor, Health 
and Human Services, and Education, and we are genuinely looking 
forward to your testimony. Delighted to have you here and 
delighted that you are in place over at the Office of Health 
and Human Services.
    Mr. Secretary, your responsibilities are many. Your 
Department is responsible for ensuring proper payments for 
Medicare and Medicaid dollars, for overseeing biomedical 
research that can save millions of lives, for helping families 
break the cycle of poverty, and for protecting our Nation 
against bioterror and pandemic events. I will ask you some 
questions this morning about whether this budget leaves America 
sufficiently prepared to respond to a pandemic new disease, 
like Zika, or a bioterrorism event. And I will ask you some 
questions how you will fulfill your mission of enhancing the 
health and well-being of Americans at your proposed level of 
funding. I will ask how you will work to solve some of the 
challenges in your agencies, including those related to the 
Indian Health Service and the opioid epidemic.
    And as a reminder to the subcommittee and our witness, we 
will abide by the 5-minute rule so that everybody will have a 
chance to get their questions asked and answered. But before we 
begin, I would like to yield the floor to our ranking member, 
my very good friend, the gentlelady from Connecticut, and then 
we will move on obviously to the chairman and the ranking 
member of the full committee.
    Ms. DeLauro. Thank you very, very much, Mr. Chairman, and 
it is good to be with the--thank you very much, Mr. Chairman, 
and chairman and ranking member of the full committee, and 
welcome, Mr. Secretary. This is, I guess, your first 
appropriations hearing, so we are delighted to have you here 
this morning.
    There are some real bright spots in this proposal. Let me 
highlight them right off the bat. First and foremost, I am 
heartened by your commitment to confronting the opioid 
epidemic. In my home State of Connecticut, the state medical 
examiner's office has reported that opioid deaths have tripled 
over just 6 years from 357 in 2012 to 1,038 in 2017. The 
Federal Government has a critical role to play in supporting 
State and local communities as they work to combat the tragic 
consequences of addiction. In the spirit of the 2-year budget 
agreement we passed in February, Congress committed to 
allocating $6,000,000,000 for opioids. The Department's 2019 
budget builds on that commitment by requesting an additional 
$10,000,000,000.
    Your budget includes some promising proposals on mental 
health and assertive community treatment that I believe move us 
in the right direction. Glad to know that you signed an 
extension of the Public Health Emergency Declaration for Puerto 
Rico and the U.S. Virgin Islands. And I was pleased to hear you 
say on February 15th that the Dickey Amendment does not prevent 
gun violence research within the Agency. We cannot let another 
year go by without funding to do this research. Since Congress 
ended support for gun violence research, more than 600,000 
people have been shot, and I think we can all agree that enough 
is enough.
    In your testimony you say you want to implement change and 
reform the programs that, and I quote, ``are not as effective 
as they can be, or cost more than they ought to, or fail to 
deliver on their promise.'' And yet in the same proposal, you 
completely eliminate the LIHEAP program which fits into the 
Administration for Children and Families' strategic goal to 
build healthy and safe environments.
    For 2014, approximately a third of LIHEAP heating were 
elderly households, and 19 percent were households with young 
children. I have heard from so many constituents who depend on 
LIHEAP. They rely on the program to keep their children 
healthy, to keep their families safe. So, I have a hard time 
seeing how keeping children warm is ``failing to deliver'' on a 
promise.
    Your budget eliminates the Community Services Block Grant, 
which is certainly effective given that it connects 16,000,000 
people in 99 percent of counties across this country with job 
training, nutrition programs, LIHEAP, and more. It eliminates 
preschool development grants which meets its stated goal of 
expanding access to high-quality preschool for low- and middle-
income families. In fact, it has led to 28,000 more children 
being served, and over the 4 years of the grants, approximately 
150,000 additional children will attend high-quality preschool 
programs.
    The proposal makes cuts to impactful programs as well: 
$729,000,000 for the Centers for Disease Control and 
Prevention, $1,000,000,000 from HRSA, workforce training, 
$68,000,000 from the Agency for Healthcare Research and Quality 
or AHRQ. And I am curious how eliminating programs that 
hardworking Americans depend on is keeping with the mission of 
your Agency.
    On first glance, the $10,000,000,000 requested for the 
opioid epidemic sounds impressive. It is clearly needed. So, I 
was surprised to see that in a budget that prioritizes opioid 
funding which we need, you also endorse an even more draconian 
version of Graham-Cassidy which cuts Medicaid by at least 
$175,000,000,000 and would cause 32,000,000 to lose their 
health insurance. The ACA and Medicaid expansion have helped so 
many Americans who suffer from mental health and substance 
abuse disorders. So, why are we looking to take away that care?
    The proposal for Medicaid includes cuts. It includes 
lifetime limits, work requirements. Just on Monday I held an 
opioid roundtable in my district with healthcare professionals, 
State and local officials, and, yes, addicts. I heard from 
people on the ground that the biggest problem is there are not 
enough providers for Medicaid recipients, that there is 
insufficient reimbursement to providers. So, my concern is that 
the result of your proposal may be more Americans, and 
particularly our most vulnerable--disabled children rely on 
Medicaid, disabled adults, seniors, individuals, children, 
families who would go without the healthcare coverage and 
access to the care that they need.
    The budget proposes to cut the Substance Abuse and Mental 
Health Services Administration by $219,000,000. On one hand, 
the Department requests funding for opioids, which is great. On 
the other hand, the Department slashes access to substance 
abuse treatment and cuts millions from SAMHSA. Again, I do not 
understand the logic.
    An area that appears to be good news is an increase for 
childcare. It is proposed along with cuts to programs on the 
mandatory side that low- and middle-income families rely on. 
This scheme would cut temporary assistance for needy families, 
eliminate the Social Services block grant, programs that 
support childcare, erasing the impact of the proposed 
additional discretionary funds. We have 1 in 6 children who are 
eligible for childcare assistance receiving, just that number 
receiving any help, so we need to be doing more.
    We have got cuts to the funding that CDC gives to the 
States for public health departments. It reduces surveillance, 
epidemiology, laboratory testing, as well as immunizations, and 
emergency preparedness activities in our States. The proposal 
decimates the healthcare workforce programs. Research shows us 
that we are facing a shortage of more than 100,000 doctors by 
2030.
    The funding for the NIH--for 2018, we have worked hard to 
increase funds, and yet the proposal for 2019 seems to reverse 
that direction, and we know that a breakthrough at NIH saves 
not just one life, but potentially millions of lives.
    So, in the proposal you propose to shift $4,400,000,000 in 
mandatory funding in HRSA to the discretionary side of the 
budget. That is $3,600,000,000 for community health centers. As 
you know, the Congress just reauthorized this mandatory funding 
for Fiscal Years 2018-2019, adding additional money in both 
years. So, I think you have to agree with us that this new 
proposal, it has to be a non-starter.
    If we were to make this shift, we would need to add more 
funding as well because there is no amount of magical 
accounting that is going to fund the programs you are cutting 
when you cut their funding source. It is a little bit like 
playing three-card Monty with funding for lifesaving programs.
    I am going to really end up with this. I need to hear from 
you on what is, in my view, a very grave matter, and that is 
the issue of a personnel matter for you, and that is Scott 
Lloyd. I will be frank with you as I was when we met. I believe 
he should be fired immediately. It should have happened months 
ago. I am going to be asking questions about that when we get 
to the Q&A.
    Who is Scott Lloyd? He is the director of the Office of 
Refugee Resettlement within HHS. He is a lawyer. He is not a 
medical professional. In my view, he has overstepped his 
position of authority, violated young immigrant women's 
privacy, their right to medical care, in some cases their 
safety, to keep them from accessing safe and legal abortions. 
He has overstepped his authority. This is not what his job is 
about.
    Finally, the barrage of attacks on Title X, a program that 
provides affordable birth control, reproductive healthcare will 
only hurt women. HHS' repeated actions to reduce access to 
contraception will lead to an increase in unplanned pregnancies 
and lead to more abortions. In order to achieve fewer abortions 
in this country, we need to support access to affordable 
contraception and family planning.
    It is the obligation of this subcommittee to ensure that 
working men and women in this country are not harmed by 
reckless cuts or a disregard for their well-being. Mr. 
Secretary, as I said, there are some very good things in this 
proposal, but there are some very bad things, in my view, in 
this proposal. I look forward to finding out whether you 
support these cuts. I certainly hope not. Thank you, and I look 
forward to our discussion.
    Mr. Cole. Thank you. Before we proceed, I just want to 
advise the committee and the audience, we are having obviously 
problems with our sound system here, so I want you all to be 
aware of that. And you might want to speak a little bit louder 
for the benefit of the Secretary. We are not yelling at you. We 
just want you to hear us, Mr. Secretary.
    With that, we are very honored to have the chairman of the 
full committee and our ranking member here as well, so I will 
recognize them for whatever opening remarks they care to make. 
So, Mr. Chairman, welcome.
    The Chairman. Well, thank you, Chairman Cole, for the time. 
I also want to welcome Secretary Azar to the Appropriations 
Committee. We look forward to your testimony and hearing your 
frank and candid views on a wide variety of subjects.
    As I say at every meeting, the power of the purse lies in 
this building. It is the constitutional duty of Congress to 
make spending decisions on behalf of the people we represent at 
home. With that in mind, this committee, ably led by Mr. Cole 
and Ms. DeLauro, did pass--it seems like 100 years ago--the 
Fiscal Year 2018 Labor, Health and Human Services 
appropriations bills. I just want to ensure everyone that Ms. 
Lowey and I are working very hard 24/7 with our Senate 
colleagues to finish the Fiscal Year 2018 appropriations 
process and send the bill to the President for his signature.
    We intend to adequately fund important programs, including 
yours, and with a remarkable increase in new domestic spending 
agreed up in the cap agreement for Fiscal Year 2018 and 2019. 
While much of it is targeted, we are counting on you to make 
sure that it is well spent and not wasted.
    Let me say, I do think, and there is certainly a reason for 
it, and a lot of what we are doing is opioid-centric. But I 
share with, I think, members of the panel on a bipartisan basis 
some concerns about some of the reductions. I think all of us 
are big supporters of the National Institutes of Health. Dr. 
Collins and his crew there do a remarkable job, and I think we 
involve our constituents often in some of those clinical 
trials. And we salute the work they do, and I know the chairman 
and the ranking member are very supportive of their mission.
    I also have concerns and have always been a strong 
supporter of the Centers for Disease Control. I am concerned 
about the health workforce programs to train nurses and 
physicians. This is a huge investment, important investment. It 
has historically been very important to our Nation. And I have 
always supported, maybe having been a county official over 35 
years ago, the important role of community service block 
grants. And coming from a State where the temperature this 
morning was below freezing, we have a lot of constituents who 
are concerned about the future of LIHEAP.
    We know you have a tough job, but you have a good committee 
here. The last time I stepped in here, the discussion was 
rather heated, and perhaps when I leave that will be the case. 
But it is not because, you know, there are not great people 
here. The people are very passionate on both sides on many of 
these issues, and we have confidence in the work and mission 
that you have.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you, Mr. Chairman. I now welcome our 
ranking member of the full committee back to her favorite 
subcommittee, and it is always a delight to have my good 
friend, the gentlelady from New York, here. The gentlelady is 
recognized.
    Ms. Lowey. Well, thank you, and I would like to thank 
Chairman Cole for your leadership on this committee, Chairman 
Frelinghuysen, Ranking Member DeLauro for holding this hearing. 
And Secretary--Mr. Secretary, it is a pleasure to have you here 
today. I enjoyed our first conversation, and I do hope we can 
continue the dialogue. And I do welcome you before this 
subcommittee.
    You come before us with a budget that would cut your 
Department's discretionary funding by 11 percent, weakening our 
ability to improve public health and confront emerging 
epidemics. But as I talk about this budget, Mr. Secretary, I 
would rather call it the Mulvaney budget since I know you are 
just assuming these responsibilities.
    And I hope that we can work together to improve this 
budget, because after looking at your record, your outstanding 
scholarship, your outstanding leadership, I know that we would 
probably agree on some of the changes that this committee and 
this Congress would make because your budget would eliminate 
heating assistance for low-income Americans and, in particular, 
seniors, gut investments in the health workforce at a time when 
we face a nursing and primary care shortage.
    And for reasons that, frankly, I cannot fathom, eliminate 
teen pregnancy prevention grants which since 2010 help more 
than 1,000,000 young Americans make informed decisions about 
their sexual health. These grants, when distributed to 
evidence-based programs, reduce unintended pregnancy and give 
more young people a shot at their dreams. Trying to eliminate 
them is just one of the ways this Administration is harming 
women's health.
    Of course, we have seen this Administration attack women's 
care, healthcare in particular, time and time again. Last year 
the Republicans in Congress tried to jam through a disastrous 
bill that would lead to more than 20,000,000 Americans losing 
healthcare, raise premiums, reduce essential benefits such as 
protections for preexisting conditions, maternity care, ER 
visits, substance abuse, mental health, and more.
    After the Republicans failed, the Administration turned to 
death by a thousand cuts, instilling uncertainty in the market 
and attempting to sabotage the ACA behind closed doors. The 
President seems to think healthcare is a game. He is toying 
with the lives of Americans. This was made clear by his 
baseless decision to cancel cost-sharing subsidies, which 
increases costs to the government and had led to double-digit 
premium increases in many States. This is unacceptable.
    And I want to make the point. None of us think that bill or 
any bill that we pass is perfect. We are always ready to work 
together to improve it. But to make the kind of changes that 
clearly damages healthcare in this country, in my judgment, is 
unacceptable.
    I am also troubled by the Administration's resistance to 
adequately fund our health infrastructure at CDC and, in 
particular, its apparent disrespect of the NIH. Investments in 
the NIH should be a national priority. I want to make clear 
there has always been bipartisan support. This is clear. This 
is simple. And I know that we are going to continue to support 
the NIH because we all respect the essential work they are 
doing. But the Fiscal Year 2018 Trump budget as well as the 
planned Fiscal Year NIH budget prior to the addendum, show that 
the Trump Administration does not think obviously that 
biomedical research is a priority worthy of increased funding.
    Too many Americans are suffering from debilitating cancers 
and diseases. Cuts to the NIH or even level funding is not an 
option, and I know that there are strong views on this issue 
from our chairman, our ranking member, and the members of this 
committee. It is imperative that the government have the best 
research at its fingertips. We count on researchers to look at 
evidence to shed light on what we can do to safeguard Americans 
from harm. This should include encouraging the CDC to study 
ways to reduce injury and death from firearms. I am glad we 
appear to agree on this important issue and look forward to 
discussing this further during my questions.
    Lastly, I am very concerned by the proposal to move the 
National Institute for Occupational Safety and Health from the 
CDC to the NIH, and to remove the World Trade Center Health 
Program from NIOSH's assistance and management. Not only could 
this jeopardize the level of care provided to more than 83,000 
9/11 first responders who have received monitoring and 
treatment from the World Trade Center Health Program under the 
existing structure, it would create fear and uncertainty for 
those who have already sacrificed greatly for our country. I 
implore you to stop this proposal.
    So, in conclusion, as you know from the chairman, this is a 
very important committee to me and to everyone who serves on 
this committee, and I know that we all look forward to working 
with you. Thank you again for assuming this responsibility.
    Mr. Cole. I thank the gentlelady. And, Mr. Secretary, we, 
again, appreciate your being here. You are now recognized for 
whatever opening statement you care to make.

                      Statement of Secretary Azar

    Secretary Azar. Thank you very much, Chairman Cole, and 
Ranking Member DeLauro, and Ranking Member Lowey, and Chairman 
Frelinghuysen. Thank you for inviting me to discuss the 
President's budget for the Department of Health and Human 
Services for fiscal year 2019. It is an honor to be here, and 
it is certainly to serve as Secretary of HHS. Our mission is to 
enhance and protect the health and well-being of all Americans. 
This is a vital one, and the President's budget clearly 
recognizes that.
    The budget makes significant strategic investments in HHS' 
work, boosting discretionary spending at the Department by 11 
percent in Fiscal Year 2019, $95,400,000,000. Among other 
targeted investment, that is an increase of $740,000,000 for 
the National Institutes of Health, a $473,000,000 increase for 
the Food and Drug Administration, and a $157,000,000 increase 
for emergency preparedness.
    The President's budget especially supports four particular 
priorities that I have laid out for the Department at the 
direction of the President, issues that the men and women of 
HHS are hard at work on already: Fighting the opioid crisis, 
increasing the affordability and accessibility of health 
insurance, tackling the high price of prescription drugs, and 
transforming our healthcare system to a value-based one. In 
addition, it strongly supports the ongoing work that HHS does 
to keep Americans safe from natural disasters and infectious 
threats.
    First, the President's budget brings a new level of 
commitment to fighting the crisis of opioid addiction and 
overdose that is stealing more than 100 American lives from us 
every day. Under President Trump, HHS has already disbursed 
unprecedented resources to support access to addiction 
treatment. The budget would take this investment to 
$10,000,000,000 in a joint allocation to address the opioid 
epidemic and serious mental illness.
    Within that allocation, the budget doubles the amount of 
the State-targeted response grants to $1,000,000,000 a year. It 
invests $74,000,000 to increase targeted access to lifesaving 
overdose reversing drugs, $150,000,000 in grants specifically 
to confront the crisis in high-risk rural communities, and 
$20,000,000 to expand grant programs for pregnant and 
postpartum women struggling with addiction.
    Recognizing that we need new tools and private sector 
innovation to defeat this epidemic, the budget invests 
$500,000,000 to launch an NIH public/private partnership to 
develop new addiction treatments and non-addictive approaches 
to pain management. Beyond the $10,000,000,000 joint 
allocation, the budget also increases support for programs that 
have a proven record of improving the lives of Americans who 
suffer from serious mental illness.
    Second, we are committed to bringing down the skyrocketing 
costs of health insurance, especially in the individual market. 
The budget proposes the historic transfer of resources and 
authority from the Federal government back to the States, 
empowering those who are closest to the people and can best 
determine their need while also bringing balance to the 
Medicaid program.
    Third, prescription drug costs in our country are too high. 
President Trump recognizes this, I recognize this, and we are 
doing something about it. We propose a 5-part reform plan to 
further improve the already successful Medicare Part D 
prescription drug program by straightening out incentives that 
too often serve middlemen more than they do our seniors. The 
budget also proposes Medicaid and Medicare Part B reforms to 
save patients money on drugs and provide strong support for 
FDA's efforts to spur innovation and competition in generic 
drug markets.
    We also want Medicare and Medicaid and our entire system to 
pay for health and outcomes rather than procedures and 
sickness. Our fourth departmental priority is to use the powers 
we have at HHS to drive value-based transformation through our 
health system. This budget takes steps toward that shift, 
laying the groundwork for the value-based care vision I 
recently laid out. Our system may be working for entrenched 
incumbents, but it is not working for patients and the 
taxpayer, and that has to change.
    Finally, I would like to highlight this budget's investment 
in HHS' efforts to make Americans safe from a range of threats, 
from natural disasters to international infectious threats like 
Ebola and pandemic influenza. The budget funds the continuation 
of successful public/private partnerships such as the 
Biomedical Advanced Research and Development Authority, which 
has launched 34 FDA-approved products since its establishment 
in 2006. The budget also provides U.S. support for the Global 
Health Security agenda, an effort to build other countries' 
response capacity so we can avoid infectious threats from ever 
reaching our shores.
    The President's budget will make the programs we run really 
work for the people they are meant to serve, including by 
making healthcare more affordable for all Americans. It will 
make sure that our programs are on a sound fiscal footing that 
will allow them to serve future generations, too, and it will 
make the investment we need to keep Americans safe. Delivering 
on these goals, as the President's budget does, is a sound 
vision for the Department of Health and Human Services, and I 
am proud to support it.
    Thank you very much, and I look forward to the committee's 
questions this morning.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Cole. Thank you, Mr. Secretary. That was pretty 
impressive. You went 2 seconds over the 5 minutes, so you do 
better than our members do up here.
    I want to actually begin the questioning where you left 
off. And I want to tell you having dealt with the first budget, 
I actually do think this is a much better budget than we saw 
last year, and I want to commend you on that. Particularly in 
NIH last year, we saw a lot of cuts. As you pointed out 
appropriately, we have got an increase in funding here. We may 
want to go further than you propose, but I really want to thank 
you for that.
    I want to thank you, too, for last year's budget we had the 
so-called F&A issue, facilities and administration. That is not 
in this budget, and I really want to commend you on that. I 
think it is important in securing our biomedical research base 
that we not walk down that road.

                              PREPAREDNESS

    What I want to ask you specifically is can you describe how 
you intend to maintain and enhance our preparedness within the 
topline funding level? I think that is probably the number one 
issue for this committee. We all know we could have another 
Zika, Ebola, you know, pandemic event of some sort, and, 
goodness, we could always have a--I hope this never happens--
but a bioterrorism event. So, tell us what you are planning to 
do there.
    Second related question to that, a couple of years ago on 
this subcommittee, we proposed, and the Senate was not too 
interested in it, to actually have an immediate response fund 
for disease outbreak, something like we, you know, proposed in 
the past. So, I would like to get your thoughts on whether or 
not you would find that a useful tool at your disposal.
    Secretary Azar. Thank you, Mr. Chairman. You have touched 
on an area of great personal passion for me having been at HHS 
on 9/11, there for Anthrax, and preparedness for potential 
smallpox outbreaks, SARS, Monkey Pox, Hurricane Katrina. So, I 
have been deeply involved in that in my past life at HHS, built 
and assisted in building many of the key structures that we are 
now talking about funding. So, a deep passion and commitment 
there.
    We are providing in the budget $2,800,000,000, or an 
increase of $157,000,000, for priority biodefense and emergency 
preparedness programs. These will address natural disasters, 
chemical, biological, radiological, nuclear, cyberthreats, and 
infectious disease outbreaks. The majority of the increase is 
targeted towards pandemic influenza threats, as you and I spoke 
about in your office, an area that I think we need to continue 
to just keep our foot on the pedal on this. No matter the 
current press or activity, that has got to always be a core 
element of what we are doing is pandemic preparedness. Of that 
$2,800,000,000, $2,200,000,000 is included for the assistant 
secretary for preparedness response, another $660,000,000,000 
is at CDC in the Public Health Emergency Preparedness grants.

                    FEDERAL EMERGENCY RESPONSE FUND

    The last question that you asked was around the Federal 
Emergency Response fund. Actually, we do support that. We do 
think having a flexible pool of money that enables us to be 
agile and nimble. We cannot predict these threats. We do our 
best. We have programs against many of them, but we do not know 
what the next Zika or Ebola will be.
    Mr. Cole. Well, that is something we look forward to 
working with you on, and perhaps you can help us convince our 
good friends in the other chamber that this is a wise idea. I 
know my good friend, the ranking member, supports it.

                         INDIAN HEALTH SERVICE

    I want to move quickly to another area I mentioned, and it 
is not directly the responsibility of this subcommittee, but I 
have a particular passion for Native American issues, and you 
have supervision obviously over the Indian Health Service.
    We have had steady bipartisan increases in funding there. I 
am actually pretty proud of that. But we all know the 
shortfalls are great in that particular area, and there are a 
number of Native American health initiatives that actually are 
under the jurisdiction of this subcommittee. So, I am curious 
what your plans are there, how you see the situation and where 
you would like to move ahead.
    Secretary Azar. So, we take our stewardship of care for the 
Native American and Alaska and Eskimo community through the 
Indian Health Service very seriously. I have always been deeply 
involved in those issues at HHS personally, and I am very proud 
that our 2019 budget proposal proposes $5,400,000,000 in total 
discretionary funding for IHS, which is an 8 percent increase 
over the Fiscal Year 2018 CR.
    So, we do intend to make a significant investment in this 
space. We have also been working with the committees of 
jurisdiction in the Fiscal Year 2018 omnibus appropriation to 
see what we can do there to further support our IHS efforts.
    We are focused on performance improvement across the IHS. 
We have dedicated in this proposal $58,000,000,000, which I 
think is a $29,000,000 increase to get $58,000,000, to focus on 
the certification issues that are particularly plaguing some of 
the Great Plains facilities. I am delighted that CMS has been 
able to work with the Pine Ridge facility to clear their 
immediate jeopardy finding. They are now, of course, going to 
be needing to get a renewal there and pass the following 
certification.
    We have a comprehensive quality framework agenda for the 
IHS. We want to improve quality of care, service delivery, 
customer service. I have asked the deputy secretary to 
personally take this charge on working with the IHS. I will be 
deeply involved there, but we also hope that the money that we 
have requested puts our money where our mouth is on that.
    Mr. Cole. Well, I thank you very much for that, and I can 
assure you will get very strong bipartisan support for that 
initiative. With that, I want to go to my good friend, the 
ranking member from Connecticut.

                      PUBLIC HEALTH EMERGENCY FUND

    Ms. DeLauro. Thank you very much, Mr. Chairman, and just on 
the point of a public health emergency fund which the chairman 
referenced, we introduced the bill again this year. It is a 
$5,000,000,000 fund patterned after what we do in disaster 
relief so that we do not have to go through the normal 
appropriations process. But at the discretion of the secretary 
when we have a public health emergency like we do with opioids, 
like we did with Ebola or Zika, et cetera, that we can move 
more quickly than we have been able to in the past. So, I will 
get you a copy of that legislation and hope you might be able 
to endorse it. Thank you.

                SCOTT LLOYD/OFFICE OF REFUGEE SETTLEMENT

    Mr. Secretary, let me begin by asking you some questions 
about, this is where I left off. And this is about the employee 
at HHS, and he has continued to make the news due to what has 
been regarded, and not my view, but illegal actions, and this 
is based on court decisions. This is the Jane Doe decision. I 
want to talk about Scott Lloyd, director of HHS Office of 
Refugee Settlement.
    Job description, director, in the Homeland Security Act: 
``responsible for coordinating and implementing the care and 
placement of unaccompanied alien children in Federal custody; 
ensuring that the interests of the children are considered in 
making decisions about their care and custody; responsible for 
identifying shelters and other facilities to house children who 
have entered the U.S., and for ensuring that the shelters 
remain suitable; is responsible for overseeing the placement 
process, includes identifying sponsors in the U.S. who can care 
for the unaccompanied minors.'' The vast majority are family 
members, placing children with those sponsors. ``The director 
is responsible for compiling and publishing a list of 
individuals who can provide guardian and attorney 
representation services for UACs.''
    As I said in my opening remarks, Scott Lloyd is not a 
doctor. A lawyer, I have regard for lawyers, but he is not a 
medical doctor. And in my view, he has shown disregard for the 
Constitution, overstepped the boundaries. He has abused his 
authority, forced his own personal beliefs on immigrant women 
in his custody over and over again, violated their 
constitutional rights. He has put their lives in danger, 
considering subjecting a woman to unproven medical experiments. 
He has personally tried to block a rape victim from getting an 
abortion.
    He wrote in a government memo, and I quote, ``Here there is 
no medical reason for abortion. It will not undo or erase the 
memory of the violence against her, and it may further 
traumatize her. I conclude it is not in her interest.'' Not a 
medical professional. His actions have been overruled by a 
Federal judge.
    We met on February 6th in my office. You said you needed to 
look into the situation, and you said, ``We are trying the best 
we can to comply with any legal obligations that we have both 
under the statute and constitutionally. We believe we are doing 
things right and correctly, but it is a very difficult task, a 
very difficult charge.''
    Since my time is limited, and I do not want to cut you off, 
but kind of ``yes'' and ``nos'' on these things. Have you met 
with Mr. Lloyd since becoming the Secretary of HHS?
    Secretary Azar. So, I have met with Mr. Lloyd, yes.
    Ms. DeLauro. Okay. And what was the nature of your 
conversation?
    Secretary Azar. So, I have followed up on our discussion 
and discussion with others. I have looked into this, and I do 
want to be very clear that I do not believe this is an issue 
involving Mr. Lloyd. It is a very serious charge that we have, 
as you mentioned. We are charged by statute with these children 
and to look out for their interests. And there is actually 
longstanding policy dating back to 2008 for providing serious 
medical services to these children, including involving 
discussing with their parents if we can reach them, parental 
notification and input as appropriate, complying with State 
law. It is a very serious charge. This is not about Mr. Lloyd. 
This is a longstanding policy how we deal with this very 
difficult issue of serious medical care for these children.

                            SCOTT LLOYD/ORR

    Ms. DeLauro. Right, mm-hmm. In 1997, the Federal settlement 
in Flores v. Reno requires the ORR to provide emergency 
healthcare and family planning services. This is in 1997. This 
is with regard, most recently you had a Texas State judge who 
ruled that Jane Doe was mature enough to make her own medical 
decisions.
    So, the questions are, are you concerned that Mr. Lloyd is 
violating the 1997 Federal settlement, is violating the 
constitutional rights of these young women. Is it appropriate 
for a political employee, appointee, to override the 
determination of a Texas state judge? And do you think it is 
appropriate for policies by HHS or any office within to take 
precedence over the law and the U.S. Constitution?
    Secretary Azar. So, we will absolutely comply with the law 
and the Constitution as determined by the courts. But also part 
of the law is complying with that very unique statutory 
obligation. We have to look out for the interests of these 
children and their unborn children. Part of that is talking to 
the parents to get input, complying with State law. It is a 
very difficult case-by-case situation, and if we get different 
guidance from the courts on how we need to be implementing 
that, we certainly will do that.
    Ms. DeLauro. Well, the courts so far have ruled in favor of 
these young immigrant women, and it would appear that Mr. 
Lloyd, we need to hold him to the law, and so that he should 
not be interfering with what is the constitutional right of 
access to healthcare. That is there. And we know that, whether 
you like it or not ideologically, there is a law that says they 
have a right to health services and to legal and safe 
abortions.
    My final question, Mr. Chairman, is that, look, I should 
not really have to ask this. This is a gentleman who should be 
gone from this position. He is not a medical doctor. He is not 
a psychiatrist. And reaching these children's families is often 
lengthy, and it is a process that puts their lives in danger. I 
am just going to ask you flat out, Mr. Secretary, when will you 
fire Mr. Lloyd?
    Secretary Azar. This is simply not an issue of Mr. Lloyd. 
This is the statutory obligation of the director of the Office 
of Refugee Settlement to coordinate and implement the care and 
placement of these minors, including providing for serious 
medical service to them and following the----
    Ms. DeLauro. So, you are not going to do that, and you are 
going to put their health in jeopardy.
    Mr. Cole. The gentlelady has gone well beyond.
    Ms. DeLauro. Well beyond.
    Mr. Cole. So, I want to give you a chance to respond if you 
care to add any----
    Secretary Azar. I certainly appreciate any concerns that 
you have, but I do want to make very clear this is not about 
Mr. Lloyd. This is the longstanding policy and procedure of the 
Department of Health and Human Services dating back at least--
--
    Ms. DeLauro. This is about access to healthcare. Access to 
healthcare.
    Mr. Cole. The gentlelady has exceeded her time.
    Secretary Azar[continued]. Serious medical concerns, 
absolutely.
    Mr. Cole. Again, we are going to try and be generous with 
the clock. We always are, but I would just ask the members to 
stay within the 5 minutes if they possibly can because I will 
intervene. With that, we will go to my good friend from 
Maryland, Mr. Harris, for any questions he might care to ask.
    Mr. Harris. Thank you very much, and thank you, Mr. 
Chairman. And, Secretary Azar, it is a pleasure to welcome you 
here, someone who grew up in the beautiful 1st District of 
Maryland, and I know a lot of your family still reside there.
    Let me just follow up on, and I appreciate your response to 
the ranking member about the ORR, because it is an interesting 
circumstance. This is not about access to healthcare. It is 
about access to abortion. Let use the ``A'' word. It is access 
to abortion. And as you realize, not all countries in the world 
actually have legalized abortion. In fact, there are many 
countries in Africa where it is absolutely illegal, where it is 
against the cultural preference of those countries.
    So, I would hope that if we get refugees from those 
countries that we do not impose our constitutional framework or 
legal framework upon refugees from countries where it may be 
illegal in those countries because then what we would be doing 
is we would be just making this a place to come. If you want an 
abortion and in your country it is illegal, and, you know, 
countries around the world have the right to restrict abortion, 
they certainly do--I wish this country restricted it more--you 
are in a difficult situation.
    So, I applaud actually using flexibility, saying, look, you 
know, a non-citizen coming to the United States actually does 
not have a constitutional right to abortion. And we should 
respect that they could come from cultures where it is not as 
widespread, as accepted as unfortunately it is here.

                                 SODIUM

    Let me get to some specific areas and, you know, I will try 
to stay within the 5 minutes, and there are many areas of 
concern. One is about the, and I question usually the Secretary 
about this every year, about the debate about population wide 
sodium levels and restrictions. And just an area of concern, 
and I may just do a follow-up question in writing about the 
review about the dietary reference intake for sodium.
    As you know, the National Academy of Medicine has said we 
are going to look at it again. HHS I understand is one of the 
primary sponsoring agencies. But just recently, you know, they 
put together these committees, and just recently two members of 
the committee actually write an editorial in the Journal of the 
American Medical Association espousing a further sodium 
reduction outcome. And it just looks a little strange that what 
we are doing is we are assembling a committee that is going to 
objectively look at what these things should be, and then two 
of the members of this committee actually write in probably one 
of the most broadly-distributed journals that they obviously 
have a pre-formed opinion before this committee even meets. So, 
I have a concern about that, and I may follow up that with you 
in writing.

                               BIODEFENSE

    Dr. Harris. With regards to biodefense, and we discussed 
it, it is one of the areas of interest, and I know the chairman 
has asked you about it as well. You know, I have concern that 
as we choose, because we recently had the pandemic flu that was 
more serious than before. You know, we include protection 
against that with also countermeasures against terrorist-
related chemical, biological, radiological, and nuclear 
threats. And we have to balance, you know, where are we going 
to spend our resources looking forward in biodefense and 
pandemics.
    And it is just an issue that I hope HHS spends time 
carefully considering how that balance has to occur because 
both are threats. I mean, the flu is a threat, but, you know, 
as the chairman alluded to, a broad biological threat, for 
instance, may be even more disastrous to the United States.
    I do see that the Administration made a late Fiscal Year 
2018 request for the forward appropriation, $5,500,000,000 to 
the Bioshield Special Reserve Fund. I think that is a good 
idea. I think providing that kind of certainty is important, 
and I just want to confirm and, I guess, just ask you, is that 
something that you still believe is an important thing to do.
    Secretary Azar. Yes, Congressman. We feel quite strongly 
about that. The advanced appropriation for Project Bioshield 
allows us to be a reliable purchaser of products that we are 
really the only purchaser in the country for. And so, having 
that certainty for people who are going to put hundreds of 
millions of dollars of development funding against potential 
products is quite important.

                              340B PROGRAM

    Dr. Harris. Yeah, thank you. No, and I agree. We will do 
some follow-up questions about the 340B program. I think it is 
a very important program, but honestly, I think it has been 
abused in some instances and shifted from its initial focus on 
providing low-cost medication or medication at lower cost to 
needy populations. And I think the system has been gamed a 
little bit.
    Of interest, and I hear this commonly, and I hope CMS 
addresses it. As a physician who delivered medical services, I 
know that the administrative burden placed on physicians is 
huge. In fact, I understand that last night, JAMA, the Journal 
of the American Medical Association actually published an 
article saying that our administrative burden for our 
healthcare providers is about 3 times that in other countries. 
And, you know, administration does not solve anyone's health 
problems, does not treat any patients, and I think it is a 
waste of resources.

                SECTION 1303 OF THE AFFORDABLE CARE ACT

    And finally, I know there was guidance issued in October 
2017 regarding the Section 1303 of the Affordable Care Act, 
restrictions on exactly how abortion services were going to be 
funded, the coverage for abortion services, needing for both a 
separate payment as well as a separate collection. The guidance 
was issued, and I guess we will just do follow-up questions 
about how the Department is dealing with following up with 
enforcement of that guidance issued in 2017, October of last 
year on this issue.
    And I yield back.
    Mr. Cole. I thank the gentleman. My good friend, the 
gentlelady from New York, the ranking member of the full 
committee.

                     CDC RESEARCH/DICKEY AMENDMENT

    Ms. Lowey. Thank you, Mr. Chairman. It was about 22 years 
ago that I had a disagreement, in fact, it was a battle, with 
Representative Jay Dickey in opposition to his amendment that 
placed a chilling effect on CDC research on injury and death 
due to firearms. Since that time, more than 600,000 gunshot 
victims later, the CDC has largely avoided this research. I 
understand there is some going on, but not to the extent 
possible. Prior to his death, Congressman Dickey reversed his 
position stating that he had deep regrets about the amendment 
and, in particular, the lives that could have been saved during 
this time.
    Mr. Secretary, I am pleased to know that you believe CDC 
has an important research mission and are supportive of CDC 
conducting research to gather evidence to prevent firearm 
injury and death. I just wanted to know what do you need from 
this subcommittee to empower CDC and its research partners to 
conduct even more research to reduce injuries due to firearms.
    Secretary Azar. Thank you, Ranking Member Lowey. As was 
referred to by Ranking Member DeLauro from our discussion, as 
we look at that Dickey amendment, that is a prohibition of 
advocacy, promotion of gun control. We do not believe that it 
gets in the way of our ability to do violence research or 
firearms violence research at any part of HHS, which I think 
was relatively clear.
    As you may know, NIH has ongoing and has had projects 
involving violence and firearms violence already provided. 
After I made my public statement in that regard, I had a 
discussion with the acting director of CDC, Dr. Schuchat, where 
she confirmed my understanding that we do not have any 
statutory prohibitions. And so, I think we are clear, and it is 
really now always subject to the peer review process and 
funding priorities, but I think we have now made it quite 
publicly and within the Administration clear that we do not see 
any barriers around violence or firearm research. We are in the 
evidence and science gathering business.

                         CONTRACEPTION/TITLE X

    Ms. Lowey. Thank you very much. A woman's decision on if 
and when to have a family and to healthfully space pregnancies 
is among the most important decisions of her life. Thanks to 
the contraceptive coverage provided in the ACA, more than 
62,000,000 have access to birth control with no out-of-pocket 
costs, saving consumers more than $1,000,000,000 each year. And 
yet the Trump Administration has issued interim final rules 
that would remove contraceptive coverage requirements.
    This is particularly concerning as Republicans complain 
that women could access contraception from Title X family 
planning centers or Medicaid, all while congressional 
Republicans are still to this day fighting to eliminate funding 
for Title X and included a devastating blow to Medicaid under 
their healthcare bill. It is almost like they just do not care 
about women having access to affordable birth control.
    Before issuing the interim rules that would gut 
contraceptive coverage, did the Department do an analysis of 
the increased cost for women?
    [The information follows:]

    Because we understand that this is currently the subject of ongoing 
litigation for the administration, we are not in a position to discuss 
the issue at this time.

                          CONSCIENCE PROVISION

    Secretary Azar. I am not aware of any analysis that was 
done before the interim final rules on this conscience 
provision to try to really balance women getting access to the 
care that they need and the small group of employers who have a 
conscience, a moral or religious conscience objection. We try 
to balance that. It is a very important American interest to 
balance right of conscience. We also want to make sure women 
have access to the care that they need.
    As we have looked at that under the conscience provision, 
it is probably about 200 employers, fewer than 120,000 impacted 
people, which is actually fewer than under the Affordable Care 
Act's grandfather plan provisions, vastly fewer people impacted 
than that which is not even subject to the contraception 
mandate. We are trying to balance. We really are trying to 
strike a delicate balance here between very important interests 
on all sides and try to be as sensible as we can to accommodate 
those.
    Ms. Lowey. Just in conclusion because I know I am running 
out of time, I would be interested in your evaluation of the 
unintended pregnancies. Has the Department conducted an 
analysis into the likely increase of unintended pregnancies if 
contraceptive coverage is rolled back.
    Secretary Azar. I do not know if they have. If you would 
permit me, I would like to get back to you in writing on that 
just because I would like to check and make sure I have the 
answer to that. I am not positive about that question.
    Ms. Lowey. I appreciate----
    Secretary Azar. That was part of the analysis.
    [The information follows:]

    Because we understand that this is currently the subject of ongoing 
litigation for the administration, we are not in a position to discuss 
the issue at this time.

                             CONTRACEPTION

    Ms. Lowey. Of course. I appreciate your response, but I am 
concerned that a purely political decision to make 
contraception more expensive for women could result in 
unintended consequences. And I am glad that we have an 
understanding, and I would appreciate you getting back to me. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the ranking member. She has done better 
than anybody else in sticking to 5 minutes, so thank you very 
much.
    Ms. Lowey. Oh, can I have a few more minutes? [Laughter.]
    Mr. Cole. No, no, but I appreciate your leadership as 
always. So, with that, I want to go to my good friend from 
Washington, Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman, and thank 
you, Mr. Secretary, for being here. I am just going to jump 
right in.

                  OFFICE OF MEDICARE APPEALS/BACKLOGS

    As you know, you inherited the growing problem of backlog 
of Medicare appeals at the administrative law judge level, and 
this backlog presents severe hardships for small companies, 
many of whom just do not have the money to float, to stay in 
business while they wait year upon year upon year. I mean, we 
are talking about small businesses.
    In 2016, the U.S. District Court for D.C. ordered Medicare 
to reduce the backlog of cases pending at the ALJ level by a 
threshold reduction schedule which would achieve 100 percent 
reduction by 2020. Are you aware of the court order? What are 
the Department's plans to reduce the waiting period for these 
healthcare companies at the ALJ level, and what progress has 
HHS made towards reaching this court ordered goal?
    Secretary Azar. So, Congresswoman, thank you very much for 
raising the issue of the appeals backlog. It is, as you said, a 
very important and priority issue. So, we actually had as part 
of the discretionary caps deal, the budget deal-- I do not know 
where this will end up in the final omnibus appropriation for 
2018--actually proposed a $500,000,000 plan that we believe 
would clear off the backlog of the Medicare appeals cases both 
at the Departmental Appeals Board and the Office of Medicare 
Hearing and Appeals. So, we remain hopeful that that 
$500,000,000 of no-year availability money might make it into 
that.
    We also in the 2019 budget, in the event that does not 
happen, we do have a plan in the 2019 budget that similarly 
tackles this at level one, two, three, and four of the appeals 
processes providing funding to, we think, clear off the backlog 
and get us on a sustainable path, both in terms of the 
procedures of appeal, but also staffing of judges, Departmental 
Appeals Board judges, et cetera.
    So, we think it is a comprehensive approach that ought to 
be able to deal with this if the Congress agrees with us and 
funds it.

                           MATERNAL MORTALITY

    Ms. Herrera Beutler. Great. We will be looking for that. 
Next question. I am sure you know this. The U.S. has an 
increasingly, or I should say, an increasing number of maternal 
mortality events in our country. And I think we are the highest 
for the developed world, but worse yet, but worse yet, yet, we 
are increasing year over year. And more startling is that it 
just seems like it is news to people. I mean, every time I say 
it, it shocks me, and pretty much everybody I present it to, it 
is news.
    So, the first step in my mind to reversing this trend is 
having robust data collection at each State level so States can 
understand why women are losing their lives, and then what we 
can do to help future moms. I have introduced a bipartisan 
bill, the Prevention Maternal Deaths Act, that would create a 
dedicated program at CDC to help States create new, and then 
improve upon the ones who have existing maternal mortality 
review committees. It is a very inexpensive bill. I mean, we 
are eking out the money to get this done because it is so just 
critical.
    And as we are working to get this passed in Congress, I 
wanted to see if the Department would prioritize support for 
maternal mortality review committees.
    Secretary Azar. So, we will be very happy to work with you 
on that legislation. We do at the CDC, we have emphasized the 
importance of State-level data gathering, as you said, on 
maternal deaths and mortality, including the maternal mortality 
review committees that operate at the State level, increasing 
the quality and quantity of the data that we get so we can 
understand the causes of maternal mortality.
    So, we have made a lot of progress we think, but certainly 
more can be done to assist in the collection and the 
dissemination of robust and accurate data around maternal 
mortality.

                              ACE KIDS ACT

    Ms. Herrera Beutler. Thank you. My final question. I wanted 
to mention that I strongly support this bipartisan legislation. 
It is called the ACE Kids Act, and it would basically improve 
care, coordinated care for Medicaid's sickest kiddos. Right 
now, you are limited by zip code if you are on Medicaid and you 
are a chronically ill child.
    So, if you are in an area where it is good for you to cross 
the State boundary to get care, you know, 20 minutes from home 
or be required to drive 3 hours north to, you know, the in-
State care facility, you might not have that option. We are 
obviously not going to build world-class facilities in every 
single community, right, for children, but what we do need to 
do is make sure that kids who do not live in those communities 
can then get there, can access it.
    And right now, if you have commercial insurance, you are 
good. If your parents can afford it, you are good. But if you 
are on Medicaid, the State directors can basically say no dice, 
you have to stay here. And I have worked with specific families 
on this. It is heartbreaking.
    This bill would change that. It is bipartisan. For those 
who are not on it, get on it. But I wanted to put that on your 
radar and, as we move forward, seek your help in kind of 
smoothing the way for this. It is good policy. It will save 
money, and, more importantly, it will save lives.
    Secretary Azar. Thank you. We are very happy to work in 
this important space.
    Ms. Herrera Beutler. Great. Thank you.
    Mr. Cole. Thank you. On order of arrival, we will now to go 
to my good friend from Massachusetts, Ms. Clark.

  OFFICE OF CIVIL RIGHTS/DIVISION OF CONSCIENCE AND RELIGIOUS FREEDOM

    Ms. Clark. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here with us. I wanted to talk about the 
newly-formed Division of Conscience and Religious Freedom 
within the Office of Civil Rights. I certainly agree the Office 
of Civil Rights should be concerned about religious 
discrimination, but I am a little perplexed by the focus on 
this one particular civil right.
    And is the OCR no longer going to be in charge of policing 
discrimination on the basis of that religion? Will that be 
totally within this new office?
    Secretary Azar. I am sorry. So, this is a component of the 
Office of Civil Rights, so it would remain in there. So, that 
function would still be, if I understand the question 
correctly, it would still be within that. It is an enforcement 
division within OCR.
    Ms. Clark. So, you have proposed some rather complex new 
notice and reporting requirements for healthcare providers and 
Federal enforcement. You have also proposed cuts to the OCR of 
$8,000,000 approximately 5 staff members. How are you going to 
fund the enforcement of these new proposals with these cuts?
    Secretary Azar. So, it is a fairly small commitment for 
this division within the Office of Civil Rights to engage in 
this enforcement. You know, it is interesting, ever since we 
have announced that we are open for business to enforce these 
conscience and discrimination provisions, some of which I think 
have been on the books as much as 40 years, we have seen a 
large number of complaints coming in, and now actually could 
have the focus to be investigated in this space to ensure that 
we are protecting the rights of people, rights of providers, 
their right of conscience in this space. So, it is a relatively 
small----
    Ms. Clark. But with that influx and with the proposed cuts 
to the overall office, how are you going to balance that?
    Secretary Azar. I think it is well within the capacities of 
OCR to deal with our range of different enforcement activities 
from HIPAA through conscience protection in there. We do not 
see that being any issue of our ability to manage it. Still, 
even with the increase of complaints that we have, it is not a 
material kind of financial commitment within the broad scope of 
OCR certainly.
    Ms. Clark. As of this Tuesday, 24,000 public comments have 
been filed on your proposed regulations around conscience 
regulations. Not one of them is available for public review. As 
appropriators, I think we are particularly interested in 
looking at these comments or proposed rules that may have 
significant budgetary impact on the Agency. When will you 
provide access to those public comments?
    Secretary Azar. I would be happy to get back to you on 
that. I do not know under the APA the position on that, whether 
there is a comment period open or once it is closed or when we 
make those available. If I could, I would like to get back to 
you with an answer on that just so I can check in with my 
general counsel on what the procedures are there.
    Ms. Clark. Sure, I would appreciate that.
    [The information follows:]

    As noted on regulations.gov, the Department has received 72,417 
comment submissions, which we have determined comprise comments from 
over 240,000 individual commenters. The total number of commenters 
exceeds submissions because some submitters attached or included 
comments from multiple commenters within the same submission. All 
individual timely comments submitted as specified in the notice of 
proposed rulemaking have been posted and are available for inspection 
online at regulations.gov, including electronic submissions, 
submissions mailed to OCR, and comments received as attachments to 
submissions. OCR will consider all individual comments as required by 
the Administrative Procedure Act during the rulemaking process.

             OFFICE OF CIVIL RIGHTS/DIVISION OF CONSCIENCE

    Ms. Clark. If you can also help me understand some of the 
impact on my constituents of this new office and some of these 
new rules. I have a constituent who is taking PrEP. It 
dramatically lowers the risk of contracting HIV, commonly used 
by gay men. And will a doctor or pharmacist be able to deny my 
constituent access to that based on their religious beliefs?
    Secretary Azar. I want to be careful speculating because it 
is a serious matter. I would be surprised by that. I would want 
to check on that, though. Again, let me get back to you on that 
because I would be surprised that that is the type of 
conscience objection, it is really what the statute, we are not 
inventing new provisions. We are enforcing various of the----
    Ms. Clark. But you could deny birth control? Is that a 
clear example?
    Secretary Azar. Again, I want to make sure I understand 
exactly the different conscience statutory provisions that we 
are enforcing there. Case-by-case it is an enforcement matter, 
so I do not want to just off the cuff give you an answer. I 
will be happy to get back to you in writing on the particulars 
of that.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Clark. So, this would just be case-by-case determined 
on people's----
    Secretary Azar. No, what I want to do is case-by-case 
sitting here, make something up for you. I would like it to be 
thoughtful. These are serious enforcement matters that involve 
statutes. I do not have the statutes in front of me, and I have 
been on the job for 7 weeks, so I have not dug into every 
different iteration of the conscience protections that are part 
of the OCR Enforcement Division. I am familiar with some of 
them certainly around the provision of abortion services, the 
most common one that is part of the Abortion Non-Discrimination 
Act for providers that have a conscience objection that they 
could not be retaliated against or discriminated for refusing 
to participate in an abortion.
    Contraception, the PrEP medicine, I do not know. I have not 
looked into that yet, so I welcome the opportunity to take a 
deeper look there.
    Ms. Clark. So, is there anything beyond abortion that you 
are clear would fall within this new office in this 
enforcement?
    Secretary Azar. Again, I would want to get back to you on 
the parameters of it.
    Ms. Clark. Okay.
    Secretary Azar. It is just an area that I have not gone as 
deep in yet with 7 weeks as Secretary so far.
    [The information follows:]

    As discussed above, under regulations issued in 2008 and 
amended in 2011 (45 CFR part 88), OCR enforces several 
conscience protection statutes, namely, the Weldon Amendment, 
the Church Amendments, and the Coats-Snowe Amendment. Each of 
those statutes specifically reference abortion with the Church 
Amendments also specifically referencing sterilization. In 
addition, Section 1553 of the ACA specifically designates OCR 
to receive complaints concerning conscience protections with 
respect to assisted suicide. The new OCR Conscience and 
Religious Freedom Division would enforce these statutes.
    We are committed to enforcing laws as Congress has written 
them. As described above, OCR's proposed regulation would 
provide specific enforcement procedures for existing conscience 
protection statutes so as to create parity with standard 
enforcement procedures available for other civil rights laws. 
We are currently analyzing, and carefully considering, all 
comments submitted from the public on the scope of the 
regulation as it is finalized. We cannot prejudge the outcome 
of that rulemaking process or how any rule might be applied to 
specific complaints or scenarios. OCR is a law enforcement 
agency. Under the existing rule or any future rule, it will 
remain committed to enforcing laws as Congress has written 
them, and applying the law to the facts of each particular case 
fairly and appropriately.

    Ms. Clark. I am out of time. If you would add to your 
response to that the nature of this influx of violations that 
you are seeing or reports of violations that you are seeing.
    [The information follows:]

    We cannot comment on specific open complaints. However, as 
of April 6, 2018, OCR has an estimated 937 open combined 
conscience and religion complaints (with 137 complaints 
alleging a violation of conscience rights, and 800 complaints 
alleging religious discrimination). In the first 3 months of 
2018, OCR received more religion and conscience complaints than 
in all of 2017, which had itself been the record year in OCR's 
history for receipt of such complaints.

    Secretary Azar. Yes, I would clarify not violations, but 
simply complaints.
    Ms. Clark. Complaints, thank you. Thank you, Mr. Chairman.
    Mr. Cole. Okay, thank you. We now move to my good friend, 
the gentleman from Michigan, Mr. Moolenaar.

                    BIOSHIELD ADVANCE APPROPRIATION

    Mr. Moolenaar. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today. I just wanted to first follow 
up on a question Dr. Harris had asked about the 10-year 
advanced appropriation for the Special Reserve Fund. And you 
had mentioned the certainty that provides, and I just want to 
clarify. So, the Administration supports that 10-year advanced 
appropriation?
    Secretary Azar. Absolutely. That was a part of what we did 
originally when we created Project Bioshield in 2004, I 
believe, and that type of advanced appropriation gives the type 
of certainty that we can live up to our commitments and 
contracts to companies that might try to be developing devices 
or biopharmaceuticals that are countermeasures or really unique 
government use in the event of an attack.

                      MEDICAID MANAGED CARE PLANS

    Mr. Moolenaar. Okay, thank you. I also want to address an 
issue affecting Medicaid managed care plans. As you know, the 
budget situation in Illinois and potentially several other 
States presents a significant challenge for the State's 
Medicaid program. And, you know, what happens in these States 
can have an effect on the HMOs in my home State of Michigan as 
well.
    In fact, at one point, Illinois owed the State's Medicaid 
managed care plans approximately $3,500,000,000. And for many 
plans, these debts created significant difficulties as they 
struggled to ensure that their beneficiaries had access to 
healthcare providers.
    Unfortunately, the Federal Social Security Act and its 
rules prevent these managed care plans from selling the debt to 
a third party. And our colleague, Representative Upton, has 
been working on a solution that would allow plans to sell this 
debt, allowing plans to access cash needed to ensure that 
patients can receive the needed medical services and that 
providers get paid.
    I just want to clarify. Are you aware of the situation in 
Illinois and the anti-assignment limitations, and also will you 
commit to help resolving and working on addressing this 
problem?
    Secretary Azar. So, I am aware of that issue. Mr. Upton 
actually had raised that question in our discussion as have 
you. It certainly concerns me, and I am happy to work with you, 
and Mr. Upton, and others to see if there are solutions that 
are appropriate around this question.

              CENTER FOR MEDICARE AND MEDICAID INNOVATION

    Mr. Moolenaar. Thank you very much. Last year, the 
Administration released a set of principles for the Center for 
Medicare and Medicaid Innovation that established more 
transparent procedures for developing and testing new payment 
models. And I agree these standards are necessary to ensure 
that CMMI models are first tested on a small scale voluntary 
basis, and then that permanent changes can be made later, and 
Congress would be very involved in that.
    I am wondering if you could tell us what steps that you 
will be taking a Secretary to put these principles in place. Do 
you have plans to implement more formal regulations describing 
the standards and process that CMMI will adhere to?
    Secretary Azar. So, the potential guardrails there are 
still under review. I do believe in the speeches I gave just 
last week around the transition to value-based care, I firmly 
believe that the Centers for Medicare and Medicaid Innovation, 
the powers that we have there are actually vital to our ability 
to use Medicare as the largest payer in the United States and 
in every geographic area as a key tool to drive the value-based 
transformation of our healthcare system. I also believe that 
guardrails to ensure transparency, collaboration are also 
vital. Whether those are in regulation or internal procedures, 
I need to determine on that.
    I also do want to be clear. I think there was a statement 
made about only voluntary use of that CMMI authority. Where 
necessary to ensure an adequate statistical design and an 
adequate test and demonstration of procedures or alternative 
payment models, I do believe it may be necessary for elements 
to be mandatory. But, again, through those types of guardrails 
of transparency and collaboration.
    Mr. Moolenaar. Okay, and that would be working with 
Congress to implement that if it was mandatory?
    Secretary Azar. Of course.

                       CDC SURVEILLANCE STRATEGY

    Mr. Moolenaar. Okay, thank you. Moving on to the CDC for a 
moment. The CDC has over 100 different surveillance systems 
used to collect and analyze data related to the public's 
health. And recently, the CDC has been developing the 
Surveillance Data Platform as recommended by the CDC's 
Surveillance Strategy. I am just wondering if given that the 
CDC is our leading public health surveillance agency, how do 
you see the CDC further enhancing its ability to manage, share, 
analyze data? Are there additional resources that Congress 
needs to provide? Do you see a need to better integrate the 
CDC's health data surveillance technology?
    Secretary Azar. So, I have not spoken with Dr. Schuchat 
about these particular issues of concern around the multiple 
disease surveillance systems that we have. I certainly have 
been able to get the type of data that we need from a public 
health emergency preparedness disease surveillance perspective. 
So, I have not seen challenges with the integration or 
interoperability of that data so far.
    I am, however, a huge believer in big data and predictive 
analytics applied on top of that. We are, in fact, moving at 
CMS towards approaches like that under Administrator Verma. So, 
as a follow-up, I would like to talk to Dr. Schuchat and the 
team at CDC to see if there are additional areas where we could 
improve data collection, interoperability, and actionability of 
the data that we get there. As you said, it is the premiere 
epidemiological institution on earth, and the data is the key.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Moolenaar. Great. Thank you very much, Mr. Secretary. 
Thank you, Mr. Chairman.
    Mr. Cole. The chair would ask members not to pose questions 
just as their time runs out. Very skillful. [Laughter.]
    Mr. Cole. With that, my friend, Ms. Roybal-Allard, is next. 
Oh, I am sorry. Ms. Lee has returned. You were gone, so I 
apologize for that. My good friend from California, Ms. Lee.
    Ms. Lee. No, let me yield right now to Ms. Roybal-Allard.
    Mr. Cole. Okay. We will certainly pick the gentlelady up as 
we come back through.
    Ms. Lee. Okay, thank you. I had another hearing. Thank you.
    Mr. Cole. Okay. With that, my other good friend from 
California, Ms. Roybal-Allard.

                           NEWBORN SCREENING

    Ms. Roybal-Allard. Welcome, Mr. Secretary. Newborn 
screening is one of the great public health success stories of 
the 20th century, but it has not always been as uniform for 
children in all communities as it is today. Congressman Simpson 
and I worked together for many years to promote national 
standards for State screening programs. Prior to enactment of 
the Newborn Screening Saves Life Act in 2008, only 25 States 
required infants to be screened for the complete panel of 29 
recommended disorders, and access to information on these 
diseases was also very difficult to locate.
    As a result, children in States that did not test for 
certain disorders would face lifetime disability and even the 
risk of death because they were not diagnosed in time to 
receive lifesaving interventions, and their families were often 
overwhelmed in their searches for answers and support. Today, 
41 States and the District of Columbia require screening for at 
least 31 of the 34 core treatable conditions, and States are 
actively working to implement screening for three new 
conditions added since 2015.
    Additionally, parents of the 12,000 newborns diagnosed each 
year with these conditions and the professionals caring for 
them now have a centralized access to newborn screening 
information when they are faced with a diagnosis of one of 
these disorders. These successes were made possible by HRSA's 
Hereditable Disorders Program, which our bill authorized in 
2008 and reauthorized in 2014. Alarmingly, your Fiscal Year 
2019 budget proposes to eliminate this program.
    Without this extremely successful program, what is your 
plan, and I have a series of three questions here. What is your 
plan to continue evaluating future lifesaving screening tests 
if the Secretary's Advisory Committee on Hereditable Disorders 
no longer exists to make recommendations? How will your 
Department update and distribute the recommendations to States? 
And will there still be grant for States to implement new 
conditions on their screening panels? And who will operate, 
update, and disseminate information from the Federal 
Clearinghouse of Newborn Screening Information if this program 
is eliminated?
    Secretary Azar. Congresswoman, thank you. I think those are 
important concerns, and it is obviously a very important issue. 
On the advisory committee and the dissemination of standards 
and screening information, I would like to look into that more. 
That is an aspect of this I do not know as much as I would like 
to, and I would like get back to you on that, but clearly an 
important area of newborn screening.
    [The information follows:]

    Prior to enactment of the Newborn Screening Saves Lives 
Act, the process for identifying conditions to be screened for 
and tested was not centralized and standardized with the 
Federal Government. However, states have always had the ability 
to review conditions and make decisions about what is screened 
for and tested for by their state newborn screening panels. 
Adoption of the conditions on the Recommended Uniform Screening 
Panel (RUSP) has always been voluntary. Absent funding for the 
Heritable Disorders in Newborns and Children program, we expect 
states to continue evaluating individually which new conditions 
may and should be included on their state screening panels. 
States currently may choose to use their Maternal and Child 
Health Title V block grant funds to support these efforts.
    HRSA would continue to maintain its website as an 
information resource for states, stakeholders, and the public. 
We expect states to continue evaluating individually which new 
conditions may and should be included on their state screening 
panels. States currently may choose to use their Maternal and 
Child Health Title V block grant funds to support these 
efforts.
    If states choose to implement new conditions under 
screening panels, they will be eligible to use their Title V 
block grant funds to support such efforts.
    As stated above, HRSA will maintain its current website for 
use by states, stakeholders and the public. States that are 
considering making changes to their screening panels will be 
able to use Title V block grant funds to gather information and 
review research evidence and findings for possible inclusion of 
new tests in such panels.

                 MATERNAL AND CHILD HEALTH BLOCK GRANT

    Secretary Azar. You know, in terms of the program and not 
requesting funding in the budget, we do believe that there is 
money that States could use through the Maternal and Child 
Health Block Grant program. This is one of those difficult 
budget choices that in a constrained environment one makes 
choices. That does not make it less difficult, however.
    Ms. Roybal-Allard. Okay. Well, let me just point out a 
couple of things. First of all, the system not only saves 
lives, but it also saves money for both the healthcare system 
and the taxpayer by preventing severe and permanent 
disabilities because infants receive treatment early. That was 
not happening before.
    And newborn screening, it is not just a test. It is an 
interconnected public health system that relies on the 
coordinated activities of healthcare providers, laboratories, 
public health professionals, and parents, and Federal support 
and funding are essential to its success. So, your budget 
unfortunately would set us back a decade in the progress that 
we have made to protect all children from unnecessary 
disability and death regardless of where they live.

                           NEWBORN SCREENING

    And so, I am truly hoping that, Mr. Chairman, that we will 
be able to, you know, support this program. And finally, my 
question is, if this program goes away, who is going to 
operate, and update, and disseminate the information from the 
Federal Clearinghouse of Newborn Screening Information?
    Secretary Azar. So, absolutely appreciate that feedback and 
input. So, it is important for me to hear that. And on the 
issue of the dissemination of information from the center, if 
this were to move forward, if the committee were, of course, to 
follow the budget recommendations here, I do not know, and I 
want to get back to you in writing if I could, on that question 
of what, if any, from the center input would there be around 
dissemination of guidelines, et cetera, does that go away also 
if the budget request were fulfilled. I do not know it at that 
level of detail I am afraid.
    Ms. Roybal-Allard. Well, Mr. Chairman, I hope we will be 
able to address the concerns I have raised on this program.
    Mr. Cole. I want to remind my friend from California, she 
always has a powerful advocate for all of her concerns in the 
ranking member of this committee, I can assure you. With that, 
I want to go to my very good friend, the distinguished chairman 
emeritus of the full committee, Mr. Rogers of Kentucky. 
Delighted to have you here.
    Mr. Rogers. Mr. Chairman, thank you for making space at the 
dais for me at this time, and thank you for what you are doing 
with this subcommittee. Mr. Secretary, welcome.
    Mr. Cole. Which you placed me on. [Laughter.]

                          OPIOIDS ENFORCEMENT

    Mr. Rogers. Yes, I sentenced you to this, sure. Welcome, 
Mr. Secretary. Opioids. My colleagues, Mr. Cole in particular, 
have heard me time and again extol the virtues of UNITE, which 
is an organization we started in my district 13 years ago, and 
now it has gone national.
    We are holding our 7th annual summit on prescription drug 
abuse and deaths in Atlanta April the 2nd, and you have been 
invited. I would be very delighted if you could make it there 
to speak. We will have 3,000 of the country's experts on this 
subject on all aspects of it, law enforcement, treatment, 
education, and the like. So, I would hope that you would come.
    And UNITE emphasizes the holistic approach. You cannot just 
arrest your way out of the problem. You cannot treat your way 
out. You cannot prevent your way out. You have got to do all 
three simultaneous, non-ending, expensive, complicated. We have 
made good progress toward that goal through CARA and the 21st 
Century Cures Act. But I am quite concerned that the 
Administration is focusing too heavily, almost exclusively, on 
enforcement above all else. It is important, but it is just one 
leg of the stool. I think we all agree.
    The President has expressed concern about the epidemic, 
formed a commission, and through your predecessor declared a 
public health emergency. Yet ONDCP, the drug czar's office in 
the White House, remains understaffed, almost unstaffed. And 
the public message seems solely focused on drug cartels rather 
than the Americans who fall victim to these addictive drugs. In 
fact, just 46 seconds of the State of the Union address were 
dedicated to the epidemic, glancing over treatment, ignoring 
prevention measures all together.
    Despite that enforcement-oriented rhetoric, I am pleased to 
see that your budget dedicates a lot of resources to the opioid 
epidemic. I would like to hear how you view the 
Administration's response to the epidemic thus far, how you 
intend to shape HHS' responsibilities to meet the ever-growing 
challenge that our constituents are facing back home. Yes, sir.
    Secretary Azar. So, Mr. Chairman, thank you for those 
questions around opioids. I would say this notion of 
enforcement over prevention and treatment and care, I can only 
tell you from everything I have seen in my interactions with 
the President, my work on the opioid summit, my work leading 
these efforts at HHS very directly and personally as one of the 
four core priorities that we have at HHS, is that we are 
dedicated around prevention and treatment for people. How do we 
keep people from getting into the cycle of dependency from the 
legal prescription opioids? How do we keep them from 
transitioning then into the illegal opioids into fast 
addiction? And then how for those who are addicted do we help 
them with treatment and keeping them from relapsing?
    I was just at the National Governor's Association, in fact, 
delivered a major statement around our full support for 
medication-assisted therapy, and two key guidances coming out 
of FDA to further assist MAT. Our budget fully supports MAT 
demanding that Medicaid provide coverage of all medicines in 
medication-assisted therapy, a demonstration within the Part D 
drug program. So, we are just across the board, I mean, we 
would be happy to come up and brief you on this. I can only 
tell you enforcement may be a critical aspect at the Justice 
Department, ONDCP. Treatment, prevention. The historic 
$13,000,000,000 requested for HHS from 2018 on is really 
focused around prevention, treatment, prevention or relapse, 
and next generation therapies and pathways around pain 
management.
    Mr. Rogers. You are a former pharmaceutical executive. How 
do you see the industry playing a positive role going forward 
rather than the driver of the epidemic as certain companies 
have been in the past? I have made no bones about naming names. 
Purdue Pharmaceuticals--I am sorry. Purdue Pharma. Purdue 
Pharma, the maker of OxyContin, convicted, $600,000,000 in 
fines for misleading doctors about OxyContin being addictive or 
not.
    But what can the industry do to help with this problem? I 
notice that they, Purdue Pharma, now has fired or laid off half 
their sales staff, but there have been billions of these pills 
produced by these companies. What can we expect?
    Secretary Azar. So, first, I would say in terms of 
retrospective, and I do not want to be involved in mentioning 
individual companies' names. But the Attorney General, as you 
know, the Justice Department on behalf of the United States has 
filed a statement of interest in the state attorney general 
actions that have been going on and has formed a task force 
looking into government action here to ensure whether, in 
effect, ethical practices have been maintained. And we will 
absolutely ensure that they are on a going forward basis also.

                            OPIOIDS RESEARCH

    In terms of those actors who are willing to work with us in 
an ethical and constructive way, this is where the public/
private partnership at NIH that we have requested funding for 
is so critical. We have asked for $500,000,000 there to support 
efforts to develop that next non-opioid generation of potential 
pain therapies, and as well as another $350,000,000 of effort 
at NIH to research just alternative pathways, different ways to 
treat pain, perhaps non-pharmaceutical ways of treating pain.
    And so, we would look forward to any entities to work with 
us in a constructive, ethical manner in that public/private 
partnership to come up with what are the targets, so what are 
the molecular and physiological targets that we should be 
designing molecules against, how do we design them, and how do 
we at FDA speed the approval pathways for them so we can get 
more products on the market to help people so we do not get 
them possibly trapped in this legal opioid pathway for pain.
    Mr. Rogers. And I thank you, Mr. Secretary, for focusing on 
this problem. It is of major importance, of course, to this 
country. Mr. Chairman, thank you very much.
    Mr. Cole. Well, Mr. Chairman, I can chastise Mr. Moolenaar 
for asking him questions at the last minute, but I am not going 
to chastise the guy that put me in the chair, so. [Laughter.]
    Mr. Cole. I want to next go to my good friend from 
California, Ms. Lee.

                                HIV/AIDS

    Ms. Lee. Thank you, Mr. Chairman. Welcome, Mr. Secretary. 
Thank you for being here. First of all, let me just mention 
this to the committee actually and to yourself. I do not know 
if you know it or not, but we have been selected, the United 
States, as the site for the 2020 International AIDS Conference. 
It is going to be in the Bay Area, so I hope we have the 
support of your Agency. And I would like to sit down and talk 
to you about this.
    There are well over 1,000,000 people living with HIV, and 
over 37,000 new infections each year in this country. So, we 
have made tremendous progress, but we have come very close to 
our goal of ending AIDS by 2030. But with these cuts now, I am 
concerned that we are going to turn back the clock.

                 MINORITY HEALTH/HIV-AIDS/FUNDING CUTS

    First of all, I am pleased to see that you referenced in 
the budget supporting a national HIV/AIDS strategy. That is the 
first time I have seen that with this Administration. And 
unfortunately, it almost appears an empty promise or 
disingenuous because you completely eliminate the Minority AIDS 
Initiative within the Office of Secretary and within SAMHSA. 
That is about $130,000,000 in cuts.
    Also, you propose a $35,000,000 cut to CDC's domestic HIV 
and AIDS research, and a more than $23,000,000 cut to CDC's 
Global HIV/AIDS Program, and a cut of $43,000,000 to the Ryan 
White Program. So, with these dramatic cuts, including programs 
that specifically are designed to serve low-income people and 
people of color, how do you intend to implement the National 
HIV/AIDS Strategy and achieve our goals of reducing new 
infections, increasing access to care, and reducing health 
disparities and inequality? So, that is my first question.
    Secondly, I would like to ask you once again about these 
proposed cuts to the National Institute of Minority Health and 
Health Disparities. You proposed a $7,000,000 cut to this 
institute and then a $2,000,000 cut to the Office of Minority 
Health. So, I do not know if you understand what these cuts are 
going to do to communities of color and people of color because 
we have huge disparities in healthcare. And in our minority 
communities, we rely on these institutes to help us begin to 
close these disparities, but I am worried now, especially with 
the signaling you are sending to people of color, what this 
means.

                                  CUBA

    And finally, if you have time to answer this, if not, you 
can give it to us in writing. There were several reports 
involving U.S. diplomats in Cuba. And so, I am wondering is the 
CDC or NIH involved in the ongoing investigation into the 
causes of the range of symptoms reported by these diplomats. 
So, thank you again.
    Secretary Azar. Well, thank you very much. We did not have 
a chance before the hearing, but I hope we will have a chance 
to sit and talk and get to know each other. I look forward to 
working together in the years ahead.
    On the Cuba issue, I do not know. I would like to get back 
to you in writing on that one in terms of what our involvement 
has been on the Cuba situation. So, I just simply do not know 
there.
    [The information follows:]

    At the formal request of the Department of State, CDC has begun 
working alongside other Federal agencies in the on-going medical 
epidemiological investigations. Officials at NIH were also recently 
briefed and have expressed their commitment to assist as well. This 
work also involves input from Penn and University of Miami.

                          HIV/AIDS--RYAN WHITE

    Secretary Azar. On HIV/AIDS, it is absolutely a core 
priority for us. I was actually in the Bush Administration when 
the historic PEPFAR program, that historic landmark program was 
created. I was just----
    Ms. Lee. I must know you then because we worked very 
closely with the Bush Administration on PEPFAR.
    Secretary Azar. And, in fact, I just met with Bill Gates 
yesterday on this critical issue, and how we can ensure that we 
are supporting that effort appropriately across the globe.
    And then within our budget here for 2019 around HIV/AIDS, I 
would say first, we fully support the Ryan White AIDS Program, 
for instance, which as you know, I think it is over three-
quarters of Ryan White beneficiaries or recipients of funding 
are racial ethnic minority group members who are receiving that 
kind of care.
    Ms. Lee. But you are cutting it by $43,000,000.
    Secretary Azar. This is in a tight budget environment. What 
we have tried to do is prioritize direct service delivery, so 
some of the programs that you mentioned around minority health 
were more training and infrastructure support as opposed to 
direct care delivery. So, again, in an environment where we are 
trying to just hit caps numbers, we have to balance some 
different items there. It is not a lack of commitment or desire 
around Ryan White, HIV/AIDS, or minority health. We just want 
to make sure, for instance, that community health centers are 
funded where 62 percent of patients are racial ethnic minority 
members, for instance. So, we are just trying to ensure that we 
are putting direct service, as much as possible, out there to 
people. That was a theme----

                 MINORITY HEALTH/HIV AIDS/FUNDING CUTS

    Ms. Lee. Yeah, I understand that theme, Mr. Secretary, but 
you are robbing Peter to pay Paul, and you are sending a 
horrible signal to people of color and communities of color in 
this country about who is worth supporting and who is not, and 
who your priorities are. And to cut HIV and AIDS at this level, 
these programs, and to cut programs for minority health, 
whatever they are, sends a terrible, terrible signal to the 
people of this country in terms of who is valued and who is not 
in this budget.
    Secretary Azar. We certainly would not want to be sending 
any signal that represents that we do not view on the HIV/AIDS 
issue, or minority health disparities or otherwise a deep 
commitment to solving and moving forward on those issues. So, I 
look forward to working with you on those issues in the future.
    Mr. Cole. Thank you very much. And now I will go to my very 
good friend from Arkansas, the vice chairman of the committee, 
Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Welcome aboard. I know it is still early in your 
tenure there, and we expect great things out of you, and I know 
you will deliver.

                           OPIOIDS DIVERSION

    To piggyback on my friend, Mr. Rogers, and his concern 
about opioids, in addition to the Federal government, the 
private sector has also recognized how devastating this crisis 
has been. And as an example, a company headquartered in my 
district, Walmart, will now, free of charge, distribute these 
packets, Dispose Rx, when they fill opioid prescriptions. It is 
a simple thing. You open the vial of an unused medication, you 
fill it with some lukewarm water, and you put this packet in 
it, and it hardens to where the remaining prescription cannot 
be taken. I think this is a great example of private sector 
innovation, and I am looking forward to its implementation.
    So, my question. How will you leverage such innovation to 
complement and further the goal of mitigating this epidemic 
with our Federal funds?
    Secretary Azar. Well, thank you. I actually had not heard 
of that initiative by Walmart, and certainly I am glad to see 
that type of private sector initiative by our pharmacist 
community here. As Kellyanne Conway has said and the President 
has said, we hope that every day will be takeback day for drugs 
because it is such a dangerous situation, and I just hope that 
the American people understand this.
    First, we have got to keep people from getting for a wisdom 
tooth, or a broken bone, or other injury, getting excessive 
quantities of these legal opioids. There may be a role for 
them, but there may be roles for non-opioid pain management 
also. But we have got to stop this notion of 30, 90 days of 
opioid pills for a wisdom tooth extraction, for instance, and 
we are working with the States on that. That was a significant 
topic of discussion at the National Governor's Association.
    But then for the parents out there and just for your own 
safety, this is not something to keep in your medicine cabinet. 
It is not safe to have around the house. The temptation around 
these products is simply too great. The risk of diversion to 
children or others is too great. And so, procedures like this 
or other forms of takeback and appropriate destruction of these 
medicines is absolutely critical.
    Mr. Womack. Based on your private sector experience, how 
much collaboration do you see between, say, the National 
Institutes and Health and the private sector to bolster the 
kind of efforts that we are talking about with a product, 
something like this?
    Secretary Azar. I think probably those types of efforts 
will be more out of Dr. Gottlieb's work at the Food and Drug 
Administration as we think about the appropriate distribution 
and prescribing of these, again, very, very serious medicines. 
And Dr. Gottlieb has full engagement, and he is working through 
a range of continued options here of how can we support States 
and the pharmacy community to ensure that we do not have 
excessive quantities of these medicines getting prescribed or 
even being out in the channel.
    Mr. Womack. So, diversion into the population is always a 
consideration, sadly so. But too much of these opioids are 
finding their way from a legally prescribed condition, diverted 
into something with more nefarious type consequences. So, we 
think that it is wise for us to explore ways to make more of 
these kinds of things happen so that we can give people an 
opportunity to do something. It is very convenient and very 
practical to help us help them do their part to save us from 
this crisis.
    I know I have a little bit of time left, and my questions 
remaining are not sufficient. So, I am going to yield my time 
to Moolenaar for taking more time than he needed, and I yield 
back. [Laughter.]
    Mr. Cole. He is off the bad list thanks to you. With that, 
we will go to my very good and patient friend from Wisconsin, 
Mr. Pocan.
    Mr. Pocan. Thank you very much, Mr. Chairman. Thank you, 
Secretary, for being here. You just recently got an invitation 
from the Congressional Progressive Caucus, which is the largest 
values-based caucus within the Democratic Caucus, to come and 
talk to us about the extremely, you know, high cost of 
prescription drugs. We would love you to take a look at that, 
and if you could sit down with us, that would be great.

                              DRUG PRICING

    I think one of the biggest threats we have to affordable 
healthcare is the rising cost of prescription drugs. And while 
there has been some bold language by the Administration, I 
would argue some of the positions have been rather timid 
compared to some other ideas that are out there. I would just 
like to ask you a little bit about some of those.
    The first one, I know you have been in the job for 7 weeks, 
but you have been in the industry for a while, so I think you 
might be able to answer all of these, and I would like to go 
through a few of them in the time, so if we can be really 
concise, I would appreciate it. But it is the ability to 
negotiate through Medicare for lower prescription drug costs. 
AARP has said that on average in the last 7 years, seniors saw 
the price of drugs double each year, and that we have come up 
with an estimate that about $429,000,000,000 could be saved 
over 10 years if we did just this. So, this is a bigger, bolder 
idea with public support. Do you support that there is a way we 
can get that done?
    Secretary Azar. So, we do support getting value for 
medicines through our Medicare programs. In Part D, we actually 
do, as you know, have the prescription pharmacy benefit 
managers that negotiate on our behalf and get the best net 
deals of anyone in the commercial sector for our Part D 
beneficiaries.
    The challenge we have there is the out-of-pocket, and that 
is why in our budget, as I was mentioning in our great call, is 
it is a comprehensive 5-point plan on Part D to drive down the 
out-of-pocket costs for our seniors. We think it will save 
them, over 10 years, tens of billions of dollars out-of-pocket 
there.
    Where we are not negotiating is Part B, and that is those 
physician-administered drugs, often quite high cost. We just 
pay the bill. We get a bill, we pay 106 percent of the average 
sales price. The budget proposes to allow me as Secretary to 
move drugs from Part B into Part D where we do negotiate. So, I 
would love to work with you and others around elements of the 
President's budget here that we think actually are quite bold 
and will get at that issue of what is the patient paying out of 
pocket at pharmacy, which is high.
    Mr. Pocan. Yeah, and we would argue instead of tens of 
billions of savings, if we can save $400,000,000,000-plus over 
10 years, let us move all of them into there. Let us just start 
negotiating for all drugs, and that would be a great approach, 
so I would be glad to work with you on that.
    Also, during your confirmation hearing one of the things 
that you talked about was the rising cost of prescription 
drugs, specifically how drug companies set the list prices for 
drugs. And I guess I had a question about that is, you know, if 
we are really going to reduce the cost of prescription drugs, 
can we address the issue? Can we, say, limit it to inflation? 
What can we really do around this because this is a huge driver 
of cost?
    Secretary Azar. So, one of the difficult issues around drug 
pricing. I think there are many approaches, including some we 
just talked about, that the Administration has in its budget to 
help with. In many areas, Part D, we get the best pricing net 
by negotiating. Part B, we are not doing that. So, there are 
some proposals that we have to do all of that.
    The list price, which, of course, drives the whole system, 
it is a harder nut to crack, frankly. What we have in the 
budget is on Part B, we actually propose an inflation penalty 
where if a company increases the price of a physician-
administered drug above medical inflation, that would actually 
come out of the reimbursement levels. We continue to look at a 
host of other ideas, how do we reverse the incentives for list 
price increases? Right now, every incentive in the system for 
every player in the system, except the patient and us as 
taxpayers, is for higher and higher list prices. The best way 
is how do you reverse those economic incentives?
    Mr. Pocan. And I would just encourage more boldness, you 
know. There is a bumper sticker I used to have that I am going 
to put back in my car again which is, ``When the people lead, 
eventually the leaders will follow.'' The people are way ahead 
of where we are at, and they think that, you know, we are in 
the pockets of prescription drug companies because we are not 
willing to stand up. There has been some bold language. Let us 
put bold policies behind that, and I think another one would be 
looking at how they set those prices.
    A third question would be how about the pay-for-delay 
tactics that some brand name manufacturing companies are using 
to delay cheaper generic drugs? You have done some other 
provisions around getting generics into the market. How about 
this one?
    Secretary Azar. Yeah, so we are very concerned. I am 
adamantly concerned about any types of gamesmanship. There is a 
deal under Hatch-Waxman that says there should be a time 
certain when your drug is off patent, and at that point generic 
competition, ``Katy, bar the door,'' prices fall, free 
competition, and efforts to delay inappropriate are improper.
    One of the pay-for-delay proposals we have in our budget 
would prevent the squatting by a generic company on that 180 
days of exclusivity that they get being the first to file 
generic drug. If you squat on it for whatever reason, and a 
second drug can be approved by FDA, that clock will start on 
under our proposal. That will save the Medicaid budget 
$1,800,000,000 a year just for making that one change against 
gamesmanship.
    Mr. Pocan. Thank you, Mr. Chairman. Final word is ``bold.'' 
Let us be bolder in this area. Thank you.
    Secretary Azar. And that is the goal.

                   DEPARTMENT FISCAL YEAR 2019 BUDGET

    Mr. Cole. I thank the gentleman, and now go to my very good 
friend, the distinguished lady from Alabama, Ms. Roby.
    Ms. Roby. Thank you, Mr. Chairman, and, Mr. Secretary, 
thank you so much for being here today. I just want to first 
say thank you for the time that you have made yourself 
available so that we could talk beyond these short 5 minutes 
that we have. And so, I am grateful for that and the phone that 
we had where I laid out a number of my concerns.
    But the one that I want to focus on today is the 
Department's Fiscal Year 2019 budget request, which reiterates 
the Administration's commitment to expanding choices, 
increasing access, and lowering the cost of healthcare in our 
country. And I share this commitment and I support reforming 
our healthcare system to give Americans much-needed relief from 
Obamacare.

                        RURAL HOSPITALS CLOSURES

    When it comes to the issue of access, as you and I have 
discussed, I am really concerned with the fact that hospitals 
located in rural areas of our country have been closing their 
doors at alarming rates and much more frequently than urban 
facilities, leading to less choices and less access for many 
people who live in rural communities. And since 2005, more than 
120 rural hospitals have gone out of business. In my home State 
of Alabama, we have seen 5 rural hospitals close their doors 
over the past 8 years. So, the impact of these closures is 
clearly detrimental to patients who will often be forced to 
travel more than 30 miles to have access to care, including 
elderly patients and those with chronic health conditions.
    So, Mr. Secretary, these closures have not gone unnoticed. 
Rural hospitals, as you know, provide essential healthcare 
services, and in a lot of instances they are the only 
healthcare available in communities, many that I represent in 
Alabama's 2nd Congressional District.
    So, I would like to know how we can work with HHS and what 
does HHS intend to do to address these rural hospital closures, 
and any plans that you may have to work on this important issue 
of access to care in our rural areas of our country. And then 
additionally, CMS pursuing any rulemaking opportunities and 
actions to address these challenges to provide them with 
regulatory relief.
    Secretary Azar. Well, first, thank you for your advocacy 
for rural access to care in Alabama, and this is an issue that 
is in our radar, and it is an issue of great concern to us. 
Just please know that. And we are following up on your 
suggestions around how do we reduce burden for our rural 
providers.
    We have a very important initiative going on within CMS 
that is Patients Over Paperwork, which is a historic, dramatic 
reduction in provider burden coming out of the Medicare and 
Medicaid programs. Now, will that solve it? No, but it 
certainly can improve their ability to achieve a margin by 
pulling away any kind of unnecessary burdensome requirements 
that have accreted over the 50-plus years of the program. So, 
we are working on that. And Administrator Verma is driving that 
with great success that has come and coming.
    The other is CMS has provided relief from the direct 
supervision requirements for our rural hospitals and our 
critical access hospitals, which is that notion that there has 
to be direct supervision of a doctor over others to be able to 
provide service and be able to bill. We have provided relief 
there for years 2018 and 2019.
    And then, of course, the big issue is the wage index as it 
always is. As you know, there was a report from the Secretary 
in April of 2012 about the wage index. We will always look 
forward to working with Congress to see if there are statutory 
solutions. From a regulatory perspective, it becomes a very 
knotty question because it is always a zero-sum game. One 
hospital wins, one hospital loses under the wage index 
nationwide, and that we believe Congress has to be intimately 
involved with this with us working with you, providing advice 
on how to steer through that.
    Ms. Roby. Well, Alabama is certainly not winning under the 
current law, so we would very much appreciate a thorough look 
at that. There have been several pieces of legislation 
introduced directly related to the wage index, and we would be 
happy. But really in my last few seconds, I just would love to 
have your commitment to continue to work with us on this very 
important issue. We have got to think outside of the box on 
some of these things, and of course I am ready and willing to 
do so. And I appreciate your candor and your time today, and 
again look forward to working with you.
    Secretary Azar. Thank you. It is a very important issue, 
and we commit to working together on this.
    Ms. Roby. Thank you, and I yield back.
    Mr. Cole. Thank you very much. Just to advise the 
committee, the Secretary has to leave at noon, so we are going 
to proceed. I want to give the ranking member a full 5 minutes 
to ask whatever questions she cares. I am going to give Mr. 
Harris my time as you have been patient to be here this long. I 
know you must have a question you want to ask, and then the 
ranking member and I will make a brief comment to close out. 
So, again, thank you for your forbearance. The gentlelady from 
Connecticut is recognized.

                       NIH GUN VIOLENCE RESEARCH

    Ms. DeLauro. Thank you very much, Mr. Chairman. Mr. 
Secretary, just a couple of points. You noted correctly that 
the NIH has funded gun violence prevention research in recent 
years. Let me just clarify for a second that NIH announced last 
year that it would not be issuing a new funding opportunity for 
gun violence prevention research. I would just ask you to 
strongly urge the NIH to issue a new funding opportunity in 
Fiscal Year 2018.

                                 LIHEAP

    I have another quick question which this has to do with the 
LIHEAP program, and just a ``yes'' or ``no'' answer. Do you 
support the President's proposal to eliminate LIHEAP?
    Secretary Azar. Well, I do support the request in a very 
tough budget environment to meet caps. These are difficult 
choices.

                     COMMUNITY SERVICE BLOCK GRANT

    Ms. DeLauro. Then on the Community Services Block Grant 
where you do also propose a termination, that also includes a 
network of community action agencies. I just wanted to request 
that, I do not know whether you have talked to local officials 
or mayors, but really I would like to request an evaluation of 
if this funding is eliminated, what is then going to be the 
effect on local governments, and what is going to be the effect 
on the community action agencies, which, as you know, provide 
housing, education, nutrition, and employment services. What 
happens with all of that? So, if you can get us a report, that 
would be terrific.
    [The information follows:]

    While the percentage can vary by agency, overall the Community 
Services Block Grant (CSBG) accounts for approximately five percent of 
total funding received by local agencies that benefit from these funds. 
In a constrained budget environment, difficult funding decisions were 
made to ensure that federal funds are being spent as effectively as 
possible. Although states have discretion to reduce or terminate 
funding to local agencies that do not meet state-established 
performance standards, CSBG continues to be distributed by a formula 
not tied directly to the local agency performance, and it is a priority 
of this administration to ensure limited federal funds go to programs 
that deliver results.
    In regard to Idaho, HHS is committed to working with states to give 
them as much flexibility as permissible under the law to provide their 
citizens the best possible access to healthcare. As noted in your 
question above, in March the CMS Administrator sent a letter to the 
Governor of Idaho and the State Director of Insurance stating that the 
Affordable Care Act remains the law and we have a duty to enforce and 
uphold the law.

                   SHORT-TERM HEALTH INSURANCE PLANS

    Ms. DeLauro. Let me just get to the issue of Idaho and the 
short-term plans. I think, you know, that the Idaho officials 
are claiming that their State-based plan offers better coverage 
than would be available under your short-term proposed rule. 
The other piece on Idaho is that, in fact, I think the 
Administration has said that Idaho, that their plan would be 
out of compliance with the law. The short-term plans, they are 
allowed to deny people insurance based on medical history, 
charge higher premiums because of preexisting conditions, 
provide skimpy benefit packages.
    Also, let me just a couple of questions with regard to 
this. Idaho makes maternity coverage optional. Do you believe 
that plans should not cover maternity care?
    Secretary Azar. So, I want to be very clear with Idaho. We 
have sent a letter to Idaho saying that the guidance that they 
have given would put them out of compliance under our reading 
with their requirements under the Affordable Care Act. And if 
they were to continue in that approach, that we at HHS would 
have to assume those authorities, and that the plan that was 
mentioned there would not be compliant.
    Ms. DeLauro. Should they cover maternity care, make it 
optional. Should they cover maternity care?
    Secretary Azar. So, that is a requirement under the 
Affordable Care Act.
    Ms. DeLauro. Right, okay. Contraceptive services, newborn 
care, habilitative service, which are particularly important to 
children with autism. Should they cover those efforts as well? 
Should these plans cover these services?
    Secretary Azar. Again, we are charged with enforcing the 
laws as written, and the Affordable Care Act so provides, and 
we will enforce as long as that remains the law of the land.
    Ms. DeLauro. You probably have seen this, but their 
questionnaire, you know, ``Have you or any family member listed 
on this application ever seen a doctor, been diagnosed,'' et 
cetera. Then they list a whole variety of health coverage 
because of these conditions, diseases, et cetera. My concern 
with this document is that checking off whether or not you have 
cancer, or tumors, brain, nervous system, urinary or kidney. 
Again, and you may have answered this already, but are we going 
to allow this kind of a survey which then would put people at 
risk for not getting the insurance coverage they need? And that 
would be including they ask about pregnancy, congenital 
conditions, et cetera. If they are out of compliance, does that 
mean that we are going to just say they cannot move forward 
and, what, in fact, will we do if they presume to move forward?
    Secretary Azar. Absolutely. And, again, I empathize with 
the situation that the governor and the commissioner in Idaho 
are trying to deal with, which is skyrocketing premiums, 
reduced choice, reduced access. And we want to do everything we 
can to support the governor and the people of Idaho to get 
access to affordable health insurance. So, please, let me start 
from that premise that we want to work to help them. But----
    Ms. DeLauro. We are not going to allow them to move forward 
on these issues which will deny people healthcare coverage.
    Secretary Azar. Not if it does not comply with the 
Affordable Care Act, which is the law. And so, the way this 
will work is we have given them 30 days to respond to our 
notice.
    Ms. DeLauro. Have they responded?
    Secretary Azar. No, not yet. Once they respond, we will 
make a determination. If they remain out of compliance in terms 
of their willingness to enforce the provisions of the 
Affordable Care Act, then CMS will assume that responsibility 
to fully enforce the Affordable Care Act, and an insurer who 
issues a plan that is not compliant will be dealt with and 
enforced against as appropriate.
    Ms. DeLauro. Thank you very much. Thank you, Mr. Chairman.
    Mr. Cole. Absolutely. For the final round of questions, my 
good friend from Maryland, Mr. Harris. Dr. Harris.
    Mr. Harris. Thank you very much. Let me follow up on that 
question because my understanding is that the short-term plans 
were exempt from some of the requirements of the ACA. Is that 
correct?
    Secretary Azar. That is correct. In fact, the separate 
issue from the issue of the Idaho Insurance Commissioner's 
guidance saying basically you do not need to comply is our 
proposal for short-term limited duration plans, these 
transitional plans that can be available to people. And this is 
actually restoring an option for States and for people that was 
in place during the entirety of the Obama Administration until 
October of 2016.
    Mr. Harris. Right, yeah. That is my understanding. These 
short-term plans were in place actually, you know, the ACA 
framework includes the ability to have short-term plans. And 
let me get it straight. Now, the existence of a short-term plan 
does not interfere with anyone's ability who has a medical 
condition to obtain insurance under an ACA plan.
    Secretary Azar. Absolutely.
    Mr. Harris. So, every American is absolutely guaranteed 
access to a plan that is actually by statute affordable because 
we set income limitations for subsidies, for the premium 
subsidies. So, that is all left in place. Now, if an American 
chooses not to have an ACA plan, they can just choose to have a 
short-term plan. Okay, I just want to straighten out----
    Secretary Azar. That is a very important clarification that 
the short-term plans are a choice. None of it changes the 
individual market Affordable Care Act exchange plans, or 
requirements that are there.
    Mr. Harris. Right. So, again, just to reiterate, so if you 
have a condition where someone may not insure you under a 
short-term plan, you always can go back to the ACA type plans, 
or in States like Maryland what we are going to do is we are 
probably going to have a separate plan with a reinsurance plan. 
Some States have high-risk pools. I mean, there are multiple 
methods now. Every person in the United States has the ability 
to be covered if they have a medical condition.
    Secretary Azar. And I would say, first, what our proposal 
would do is it puts the State back in the driver's seat. So, 
the State is the regulator. They can have requirements as high 
or higher than the Affordable Care Act on these short-term plan 
options.
    Mr. Harris. Right.
    Secretary Azar. Secondly, these plans, as I was very clear, 
may not be right for all people. They are an option for some 
for who maybe it is correct, but they should go in with their 
eyes wide open and know what is covered, what is not, what is 
there. And so, for instance, an individual with a preexisting 
condition, if an affordable plan is available in the individual 
market under the Affordable Care Act, that may be the best 
option. The challenge is for so many Americans, there are not 
affordable plans available even in the exchange system, and 
that is what we all have to work on.
    Mr. Harris. That is right, especially I imagine for young, 
healthy individuals who are priced out of the market. And 
obviously we know because millions of Americans chose to pay 
the penalty instead of to get the unaffordable ACA plans.

                      MEDICAID--WORK REQUIREMENTS

    Let me just briefly mention two issues. One is we talked 
about work requirements in Medicaid. Look, I congratulate the 
Department to do this. I think this is long overdue. I think 
that there should be a compact between the Federal government 
and someone who applies to the Federal government for 
assistance, and that is that if you are able-bodied, I think it 
is good to ask someone to apply for a job, train for a job, 
look for a job. I do not think that is unreasonable. The vast, 
vast majority of Americans agree with that.
    I am glad the Department is talking about it. I wish other 
departments, including the Department of Agriculture, would 
start doing it for able-bodied individuals who want the 
Supplemental Nutrition Assistance Program. I think across the 
board, I think these are good public policies to say we will 
help you, but, you know, if you are able-bodied and you are not 
disabled, you are not taking care of a child at home, you know, 
you are expected to work, or be trained for work, or apply for 
work, especially important in an environment where we have full 
employment.

                              RIGHT TO TRY

    Finally, the last is I am just going to express 
disappointment that the Democrats blocked the Right to Try bill 
this week. Very puzzling to me. Thirty-eight States have bills 
like this. You know, it is probably only going to be a 1-week 
delay. I know this is a priority of the President because he 
has talked to me about it in a meeting personally. He feels 
strongly that a person who has a terminal illness, you know, 
should have access to medications even before they have passed 
the Phase 3 clinical trials at the FDA.
    And, yes, it is probably only going to delay it for a week, 
but, god, I feel strongly for those individuals who have to 
wait a week because, again, the minority has blocked it this 
week on the floor. That is a real shame, and I hope the 
Administration redoubles its efforts to make sure that the bill 
passes next week, and then we come to agreement with the Senate 
and finally have a National Right to Try bill. And with that, I 
yield back to the chairman
    Mr. Cole. I thank my friend for yielding back. I want to 
recognize the ranking member for any closing remarks she cares 
to make. I will make a couple, and then we will adjourn the 
hearing.
    Ms. DeLauro. Thank you very much, Mr. Chairman. On that 
last point, let me just say my hope is that while we would say 
to Idaho that you cannot do this, that whatever the 
Administration is proposing, I mean, I am opposed to these 
short-term efforts. I think we have had that conversation. But 
that the exemptions that will be made under that effort, while 
those will be made in order and exemptions in States will not 
be made in order. So, we will have to take a very, very close 
look at this effort.
    I applaud you, Mr. Secretary, for some of the initiatives 
that you have taken here, but if you heard us on this side of 
the aisle, the level of cuts in fairly basic programs, and we 
talk about LIHEAP, community services block grant, health 
workforce training. In my view, when you look at your overall 
message, which where you sit, and I am just quoting you, is 
that ``We want to take a look if the programs are effective, if 
they are, you know, meeting their purpose, and that they are 
cost-effective.'' Well, we have so many of the programs that we 
now are under the chopping block that, in fact, are getting cut 
or eliminated. And for the life of me, I do not understand the 
criteria upon which these decisions have been made.
    My final comment is I go back, the gentleman that you have 
serving in a very, very key, important place, his ideological 
views should not be making the determination of whether it is 
the children who are coming in or anyone else. He is not 
qualified to do that, and he should be removed from that 
position. Thank you very, very much, Mr. Chairman.
    Mr. Cole. I thank you, and, Mr. Secretary, I want to just 
thank you for your testimony today. I want to thank you for the 
manner in which you engaged our committee, the openness, the 
thoughtfulness. Very impressive performance. I particularly 
want to thank you before the hearing for reaching out to every 
member on both sides of the aisle and engaging, as my friend, 
Ms. Roby, said, openly and candidly in conversations. Very 
helpful to every member of this committee.
    And, again, I just want to tell you how much I look forward 
to working with you, how impressed I am with the manner in 
which you have started your tenure as Secretary, and the manner 
in which you have dealt and the courtesy with which you have 
dealt with this committee. So, we look forward to working 
together as we go forward.
    And with that, we are adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                           Tuesday, March 20, 2018.

                      U.S. DEPARTMENT OF EDUCATION

                                WITNESS

HON. BETSY DEVOS, SECRETARY, U.S. DEPARTMENT OF EDUCATION

                      Chairman's Opening Statement

    Mr. Cole. Good morning, Madam Secretary. It is genuinely my 
pleasure to welcome you to the Subcommittee on Labor, Health 
and Human Services, and Education. We are looking forward to 
hearing your testimony today.
    Madam Secretary, your job bears great responsibility. 
Ensuring high-quality education in this country affects not 
only the future of each individual but also the collective 
economic well-being of the Nation.
    While most of the funding and policy for education lies, 
appropriately in my view, at the State and local level, the 
impact of Federal dollars and policies carries importance and 
influence. So it is our responsibility to ensure that they are 
being targeted to the best and most effective programs with a 
high degree of accountability.
    Your request continues to prioritize resources to certain 
populations of children who need additional support. I 
appreciate the continued investment into those programs, such 
as for children with special needs and disabilities, Indian 
education and rural education, and to support English learners.
    However, I am concerned about the administration continuing 
to request cuts that Congress has rejected. One example I am 
particularly concerned about is the repeat proposal to decrease 
funding for Impact Aid. And let me add, the last Administration 
also had a similar position in this area. But that aid is an 
important source of resources for school districts that are 
financially burdened by their large amount of Federal property. 
My colleagues and I will be interested in hearing what your 
plans are to better understand the economic effects of the 
Federal presence in districts, as you cite in the budget 
proposal.
    We also bear responsibility to ensure that there are 
various affordable paths to lucrative careers, whether that 
includes college, technical school, or other training. Your 
budget proposes a number of actions in the realm of career and 
technical education as well as changes to programs that support 
college education for those from disadvantaged backgrounds.
    The proposal also includes an expansion of Pell eligibility 
to short-term, high-quality programs that provide a 
certification or licensing. And, frankly, while I like this 
concept a lot, I want to learn more about the cost of it and 
some of the complications associated with it. But I very much 
like the general idea.
    Additionally, the budget again proposes deep cuts in some 
student financial assistance programs. I look forward to 
discussing those proposals with you today.
    I understand that, again, action by Congress just before 
the budget was released made some of the information provided 
to this committee out of date, even just as it was being 
presented to us. And that responsibility lies with Congress, 
certainly not with you. And now, based on our action this week, 
we will have more information on congressional priorities in 
the fiscal year 2018. For example, your budget continues to 
request no funding for Student Support and Academic Enrichment 
grants, which support school-based mental health services, 
bullying prevention, and professional development for personnel 
and crisis management.
    We look forward to continuing a conversation about where 
the Administration prioritizes funding in a less constrained 
environment than we have operated under in the past.
    As a reminder to the committee and our witness, we will 
abide by the 5-minute rule so that everyone will have a chance 
to get their questions asked and answered.
    Before we begin, I would like to yield 5 minutes to our 
subcommittee ranking member, the gentlelady from Connecticut, 
my good friend, for an opening statement.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                   Ranking Member's Opening Statement

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And thank you, Secretary DeVos, for joining us today.
    Public education is a great equalizer in our country. At 
the signing ceremony for the original Elementary and Secondary 
Education Act, President Lyndon Johnson described education as, 
and I quote, ``the only valid passport out of poverty.'' 
Decades later, he is still right. The economic benefits that 
accrue to the individual and to society are indisputable.
    Congress passed the law in 1965 because real leaders on 
both sides of the aisle understood the Federal Government's 
responsibility to ensure that children everywhere receive a 
quality education.
    Fifteen years after that landmark law, the Department of 
Education was established. Its primary function is--and I quote 
from the Department's mission statement--``to strengthen the 
Federal commitment to assuring access to equal educational 
opportunity for every individual,'' end quote. The mission 
statement goes on to say the Department is to supplement 
efforts of States and local school systems to improve the 
quality of education.
    And yet, in your testimony, you say the Department was 
charged with prohibiting Federal control of education. No one 
is trying to impose a Federal takeover of education. I have 
read the establishing law, and I find your broad statement 
somewhat dubious. To characterize the aims of the Department 
vaguely as, quote, ``prohibiting control of Federal education'' 
is misleading and, yes, cynical.
    Madam Secretary, do you support public education? I ask 
because the Trump budget request seeks approximately $4 billion 
in cuts to investments in public schools while proposing $1 
billion in new funding for unauthorized programs, including to 
expand private school vouchers. I am pleased Congress rejected 
similar proposals made in the fiscal year 2018 request and hope 
that we continue to focus bipartisan support on increasing 
investments in areas that strengthen public schools.
    For the last year, I have watched you advocate as Secretary 
for the privatization of public education. This budget intends 
to shift public school funding and advance a radical agenda 
that transfers taxpayer dollars out of local community schools.
    In your testimony, you say that the United States spends 
more per pupil than nearly every other developed country. What 
you fail to point out is that we have a school funding gap in 
this country, much worse in high-poverty areas, both urban and 
rural. And yet these are the very areas that the Trump budget 
would starve.
    In addition, other countries blow us out of the water in 
terms of providing access to early childhood education. We have 
one of the lowest enrollment rates for early childhood 
education.
    Ninety percent of our kids are in public schools. We need 
more resources to help them succeed. You can't do more with 
less; you do less with less. We certainly shouldn't be 
siphoning off taxpayer dollars to pay for vouchers.
    I was disturbed by your appearance on ``60 Minutes'' early 
this month where you admitted that you have not visited 
underperforming schools. You say, quote, ``maybe'' you should 
visit them. Maybe? I am perplexed by that answer, because it 
sounds to me like you are turning your back on these schools.
    We need to focus our policies on strengthening public 
schools, supporting the teaching professions, boosting student 
enrichment opportunities, increasing parental involvement, and 
making high-quality preschool available to all. The 29 
authorized programs that this budget completely eliminates 
include after-school programs that keep our kids safe, block 
grants that provide mental health and counseling services, 
literacy programs that build the foundation for a lifetime of 
learning.
    Your testimony mentions support of students with 
disabilities. So why does the Trump budget zero out Special 
Olympics? The administration's own budget justification 
indicates that this program exceeds its performance measures. 
And for students with disabilities, are you aware of what the 
President's budget does to Medicaid? It cuts it $1.4 trillion. 
Do you know who Medicaid serves?
    Turning to higher education, I was dismayed that the budget 
proposal does nothing to make college more affordable. It 
level-funds the maximum Pell grant award; eliminates $733 
million in campus-based aid for low-income students; slashes 
Federal Work Study in half.
    At the same time, the Department is undoing protections for 
students and taxpayer dollars from fraudulent for-profit 
colleges, ones that specifically prey on our veterans, working-
class women, and minorities. Repealing the Gainful Employment 
rule would cost taxpayers $1.3 billion and leave thousands of 
students at risk.
    The Department has also undermined sexual assault 
investigations on college campuses, which I plan to ask you 
about in more detail later.
    The Trump Administration has advocated for arming teachers, 
yet all credible research we have shows that more guns lead to 
more accidents. In the short amount of time since the tragedy 
at Parkland, we have seen teachers with guns mistakenly fire 
them in their classroom. Let me emphasize that the teacher in 
California who shot a gun in his classrooms, resulting in 
bullet fragments in the neck of a student, was a reserve police 
officer.
    The task force announced by the White House is not a 
solution; it is simply talk and an acceptance of the status 
quo. I am amazed that the budget proposes to cut School Safety 
National Activities by more than a third. The funding supports 
evidence-based programs to ensure safe learning environments 
for our kids, including preventing violence in schools and 
providing services in response to serious incidents.
    Instead of focusing on dangerous policies to arm teachers, 
the Department should be focused on supporting teachers and 
school counselors where they need it the most. We should have a 
school counselor in every school in this country. This proposal 
eliminates funding dedicated to supporting both classroom 
teachers and counselors through Supporting Effective 
Instruction State grants and Student Support and Academic 
Enrichment grants.
    Madam Secretary, we also face a debt crisis. Forty-four 
million individuals owe $1.4 trillion in student loan debt. You 
often say you came to Washington to return power to the States, 
yet you recently took steps to preempt State laws and 
regulations that protect these borrowers, including in my home 
State of Connecticut, which is a leader in this area.
    States have stepped up because of predatory practices in 
the student loan industry, including ruining credit scores for 
disabled veterans seeking loan discharges under, quote, ``total 
and permanent disability.'' These actions have prompted rebukes 
from the National Governors Association, a large bipartisan 
coalition of attorneys general who urge you to reject the 
company's campaign to, and I quote, ``secure immunity for 
themselves from State-level oversight and enforcement,'' end 
quote.
    This seems to me like you are standing up for debt 
collectors over injured military veterans. I hope that you can 
reassure us that this is not the case.
    In closing, I would like to make known my deep concern over 
the plan to dismantle the Budget Service office. A Politico 
article from March 14 reported that you, and I quote, ``want to 
break up and decentralize all of the Education Department's 
budget functions.''
    The budget office plays a leading role in managing the 
Department's programs and resources, and this particular 
congressional committee relies on its professional expertise 
and nonpartisan technical assistance. It was reported that even 
the White House Office of Management and Budget objects to 
these actions.
    In addition, it was disturbing to read that career 
officials have been prohibited from communicating directly with 
congressional committees or OMB without the approval of 
political appointees. This directly impinges on the critical 
work of this committee, and I hope and I believe it needs to 
stop.
    In addition, the 2019 budget justification fails to include 
details on these plans, which I am aware have been in the works 
for many months. I need to know who was consulted and why was 
there a deliberate choice to withhold this information for 
Congress' consideration.
    Madam Secretary, if an education is a passport out of 
poverty, as Lyndon Johnson said, then your plan for public 
education in our country puts students' future at risk. I hope 
that we can work together to ensure that this is not the path 
that we go down, and I look forward to our discussion.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    We have been joined in the interim by the chairman of the 
full committee.
    And so, Mr. Chairman, always a delight to have you here, 
and you are recognized for whatever opening comments you care 
to make.

              Full Committee Chairman's Opening Statement

    The Chairman. Just a few comments. Thank you, Mr. Chairman.
    I want to thank Chairman Cole for his leadership and, 
obviously, Ranking Member DeLauro for her leadership.
    Often I say in my opening remarks--and they will be brief--
the power of the purse resides here. A lot of things have been 
rolled out, in terms of public policy initiatives from the 
Department of Education. And I say this very respectfully. You 
have been on the job for a while. I think sometimes people 
recognize the role of authorizing committees, but oftentimes 
they don't recognize the responsibilities of the Appropriations 
Committee.
    I would welcome an opportunity and a visit to my office to 
discuss the path forward. I say this more to the Secretary's 
staff than I do to the Secretary. You are an honorable, 
successful person, but I think it is important for Members who 
pay the bill to meet with the Secretaries before they come 
before the committee. I say that respectfully. I am concerned 
that we have sort of a disconnect here.
    And may I say, I just left Secretary Wilbur Ross, and I 
said the same thing to his staff. It is hard to believe that 
people have been on the job for this long and they don't have 
staff that are understanding how the system works.
    So I say this with no disrespect to you. But, certainly, I 
think many of my colleagues would probably feel the same way. 
It is important to connect with the people who pay the bills. 
And the bill payors, in many ways, determine, as the chairman 
knows, the public policies that we lay out and that you are 
seeking, that we are both seeking, to improve public and higher 
education across the Nation.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    Madam Secretary, thank you again for being here. And you 
are recognized now for whatever opening statement you would 
care to make.

                  Opening Statement by Secretary DeVos

    Secretary DeVos. Thank you, Chairman Cole, Chairman 
Frelinghuysen, Ranking Member DeLauro. I appreciate it--and 
members of the subcommittee. Thank you for the opportunity to 
testify on the President's fiscal year 2019 budget request for 
the Department of Education. This budget sharpens and hones the 
focus of our mission: serving students by meeting their needs.
    When the Department was created, it was charged to prohibit 
Federal control of education. I take that charge seriously. 
Accordingly, President Trump is committed to reducing the 
Federal footprint in education, and that is reflected in this 
budget.
    The President's fiscal year 2019 budget would reduce 
overall funding for department programs by $3.6 billion, or 5 
percent, from fiscal year 2017 enacted levels. This budget was 
initially prepared prior to the 2-year-cap deal, so the 
administration submitted an addendum that allows for valuable 
investments in students, including Impact Aid Basic Support 
Payments, TRIO, school choice, Federal Work Study, and Pell.
    This Department's budget focuses on improving educational 
opportunities and outcomes for all students while also 
returning power to the people closest to students.

                             SCHOOL CHOICE

    First, our request would provide significant new resources 
dedicated to helping achieve the President's goal of giving 
every student the freedom to attend a school that best meets 
his or her unique needs. The budget provides funding for this 
purpose through a new opportunity grants program that would 
expand the number of students who have the opportunity to 
attend a school of their choice. Under this new program, States 
could apply for funding to provide scholarships to students 
from low-income families that could be used to transfer to a 
different school.
    Local educational agencies participating in the 
Department's student-centered funding pilot could request funds 
to build on the flexibility provided by establishing or 
expanding open enrollment systems. This way, funds follow 
children based on their needs, not buildings or systems.
    In addition, the budget expands support for charter schools 
by providing an increase of $160 million, for a total of $500 
million, and continues support for magnet schools.
    We are also proposing to expand the use of direct student 
services to allow States to reserve up to 5 percent of their 
Title I allocations to further expand educational freedom, 
including helping students transfer to a school that better 
meets individual needs.

                        OTHER BUDGET PRIORITIES

    Second, the administration's request maintains support for 
students with disabilities. Our request includes funding for 
essential K-12 formula grant programs that support the Nation's 
neediest students, including all programs authorized under the 
Individuals with Disabilities Education Act.
    Third, our request creates more pathways to prepare workers 
to fill existing and newly created jobs as well as jobs of the 
future. Expanding apprenticeships and reforming ineffective 
education and workforce development programs will help more 
Americans obtain relevant skills and enter high-paying jobs.
    Students should be able to pursue a variety of pathways to 
successful careers. To that end, grants should follow the 
student, not the other way around. The budget expands the use 
of Pell grants for high-quality, short-term summer and 
certificate programs. It invests in career and technical 
education and streamlines student loan repayment.
    These proposals also support congressional efforts to 
reauthorize the Higher Education Act to address student debt 
and higher-education costs while reducing the complexity of 
student financial aid.
    Fourth, our request supports science, technology, 
engineering and math (STEM) education to help better equip 
students with skills employers need. Consistent with the 
Presidential memorandum on STEM education, our request includes 
$200 million in new funding to support STEM education while 
continuing to fund almost $330 million in discretionary grants.
    Fifth, we look forward to working with Congress on 
promoting a safe and healthy culture in our schools. Schools 
must have the resources they need to improve safety 
infrastructure, hire more counselors, and host more programs 
and activities aimed at violence prevention. We owe the victims 
of school violence nothing less.
    Finally, our request reflects a number of reform proposals 
aimed at streamlining the Department's internal organization 
and improving the Department's services to States, districts, 
post-secondary institutions, and the public.

                    CONSOLIDATIONS AND ELIMINATIONS

    We recommend, for instance, a number of consolidations, 
including proposals for the Federal TRIO programs and the HEA 
Title III and Title V programs supporting minority-serving 
institutions, making them formula grants so that, for example, 
States may use TRIO funds more effectively.
    The budget eliminates, streamlines, or reduces funding for 
many discretionary programs that do not address national needs, 
that duplicate other programs, are ineffective, or are more 
appropriately supported with State, local, or private funds, 
reducing taxpayer costs by $6.7 billion.
    The budget reflects our commitment to spending taxpayer 
dollars wisely and efficiently. The Federal Government does not 
and can not know the unique needs of each individual student in 
America. Parents and teachers know their students best and know 
how their needs should be addressed. With this budget, we can 
continue to return power to those who walk side-by-side with 
students every day, because that is who budgets are for, not 
special interests, not legislators, and not the system. This 
budget is about students.
    It is easy to get lost in the numbers and forget about the 
faces of students whom we have all pledged to serve--students 
like Carolina Martinez. Carolina was raised by a single mother 
who spoke little to no English in one of the poorest housing 
complexes in my hometown of Grand Rapids. Her home was later 
razed because it was in total disrepair.
    Carolina wasn't doing well in the school she was forced to 
attend based on her ZIP code. That school's graduation rates 
didn't give Carolina's mother much hope for her future. So, 
with help from a local scholarship, she enrolled Carolina in a 
different school that more deliberately met her needs.
    And then things began to look up. Carolina progressed and 
graduated and became the first in her family to go to college 
and earn a degree in pre-med. Carolina went on to be one of the 
first 200 students in Michigan State University's new School of 
Medicine in Grand Rapids. She graduated and moved to Arizona, 
where she practices as a surgeon.
    Think about that for a moment. Carolina went from complete 
poverty, her home being torn down because it was no longer 
livable, to a surgeon, all in one generation. Education can 
truly change the trajectory of a child's life. All they need is 
the chance to attain it.
    More students deserve the same chance Carolina and her 
mother had. That is the focus of this administration and the 
focus of this budget.
    Thank you for this opportunity to testify. I look forward 
to answering your questions.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
              Acknowledging Full Committee Ranking Member

    Mr. Cole. Thank you very much, Madam Secretary.
    Before we begin, I see we are joined by my favorite ranking 
member of the full committee. I want to give her a chance to 
get settled and then offer whatever opening comments she would 
care to make.
    Mrs. Lowey. Given I am running from one hearing to 
another----
    Mr. Cole. I was just watching you.
    Mrs. Lowey [continuing]. I think I will skip my opening and 
begin with questions. But----
    Mr. Cole. Well, I would normally be next up and then the 
ranking lady and then you, Madam, ranking member of the full 
committee.
    Mrs. Lowey. Well, you are very generous. Is that an 
invitation to move forward?
    Mr. Cole. Well, as soon as I get my questions done.
    Mrs. Lowey. Good. I think that is appropriate.
    Mr. Cole. All right. Thank you. Well----
    Mrs. Lowey. That is very kind, Mr. Chairman.
    Mr. Cole. Well, again, as I tell you, I know we are really 
your favorite subcommittee, so I want to work extra hard.
    But let me begin, if I may, and just start the clock on my 
5 minutes, if you could.

                      PROPOSED CUTS TO IMPACT AID

    As I mentioned, Madam Secretary, in my opening statement, I 
am very concerned about the proposed cuts in Impact Aid. School 
districts with high numbers of federally connected children or 
large amounts of untaxable Federal property rely heavily on 
these resources. And to be, you know, perfectly candid, some of 
these districts are certainly in my home district, in my home 
State. Let me give you a couple of examples.
    The largest single-site employer in Oklahoma is Tinker Air 
Force Base. It has 16,000 civilian workers and 8,000 military 
personnel. Their children all attend the local public schools. 
I have 39 Indian tribes in the State, 11 in my district. They 
have Federal property--or property, their property, held in 
trust by the Federal Government. Obviously, most of those kids 
are actually in the public school system. And we have other 
military installations.
    And that is not unique. As a matter of fact, of our better 
than 500--we have probably too many school districts in 
Oklahoma--of our 550, over 200 get some sort of Impact Aid 
either because of the military presence around the State or 
because of the very strong Native American presence.
    So your proposal mentions a high-quality evaluation of the 
effects of the Federal presence on districts. I want to ask 
three questions. Could you give me more detail on what kinds of 
questions you are likely to explore? And when do you plan to 
undertake the study? And, finally, why would you propose to cut 
funding before such a study is complete?
    And let me again add, the last administration also had this 
idea, as well, and didn't fare too well. So there is clearly 
some thought at the Department that this is a good approach, 
but it is met with a lot of resistance on the committee. So I 
wanted to give you an opportunity to explain it to us a little 
further.
    Secretary DeVos. Thank you, Mr. Chairman, for that question 
and for your----
    Mr. Cole. I don't think your mike is on. Thank you.
    Secretary DeVos. Thank you, Mr. Chairman, for that 
question, and we share your desire for ensuring that the needs 
of these districts and these communities are met.
    And, as you know better than many or most, we have had to 
work within the framework of a bottom line. And so the initial 
budget did propose more significant cuts to Impact Aid. The 
addendum allowed us to restore much of that funding, so it is 
back to almost what the funding was for the last fiscal year 
budget proposal.
    But with respect to some of the details of your questions, 
I would like to refer to Bill.
    Mr. Cole. Sure.
    Mr. Cordes. As you know, just as part of fiscal discipline 
and an effort to reduce funding and also to identify programs 
that are lower-priority, multiple administrations have proposed 
to reduce or eliminate payments for Impact Aid payments for 
Federal property.

                         IMPACT AND EVALUATION

    I think, as a budget analyst, I very much would like to 
carry out the evaluation that we are now proposing. Part of the 
problem has been funding. There is no separate line item for 
evaluation in Impact Aid. But we do have section 8601 in the 
Elementary and Secondary Education Act (ESEA), which allows us 
to reserve up to one-half of 1 percent for an evaluation. And 
so I think we would like to talk to you about that.
    I think the issues we want to explore are, as you know, the 
program has been around for a long time, so it is one of our 
oldest programs, and much of the property that we are now 
making payments on behalf of was set aside decades ago. And 
some of that property has actually since been developed; some 
of that property is generating income now.
    And so I think we want to be able to--we would like to be 
able to be a little more discerning in our proposal by looking 
at the impact it's had. I mean, in some cases, the Federal 
presence actually generates more revenue. A military base, for 
example, oftentimes brings in a lot of people, a lot of 
businesses. So we would like to have the opportunity to do, 
sort of, a more in-depth study of maybe a half-dozen places.
    Mr. Cole. I would be happy--this is something I know a lot 
about, and so I would be happy to work with you on that.
    But let me assure you, in the cases I mentioned--let's just 
take Tinker Air Force Base. That is 16,000 people that wouldn't 
be there. And the principal place of where they work is 
Federal, and it is not subject to State or local taxes. There 
is no way the businesses around them make up for that or come 
anywhere close to it. And, again, it is not an Indian--you 
know, Indian property is held in trust by the Federal 
Government, and it is not disposed of very often.
    So I would just be very careful here, because these funding 
streams are awfully critical in the places where they are at.
    And, again, the Federal Government is going to literally 
build capital-intensive places. The same thing is true at the 
other end of my district, at Fort Sill Army post. We have been 
the home of the Field Artillery since 1911 and been an active 
military base since 1865. Again, those populations aren't there 
other than the fact that the Federal Government is there 
providing employment or bringing in military personnel. So, 
again, these are not areas that I would say can afford those 
kind of hits and that there is an alternate tax base.
    I don't mean to lecture you, but my time is nearly up, and 
I can't hold anybody else to the clock if I don't hold myself.
    Secretary DeVos. Do you want----
    Mr. Cole. No, that is fine. I will go to my friend, the 
ranking member of the Subcommittee, the gentlelady from 
Connecticut.

                              GUN VIOLENCE

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    In 2018, there have been 17 school shootings, not including 
one this morning, I might add, in Maryland, St. Mary's school. 
And these schools range from elementary school classrooms to 
university halls. On average, Americans can expect a school 
shooting nearly one and a half times a week.
    Several questions. Do you believe that we have a crisis 
with gun violence in our country? That is a yes-or-no question.
    Secretary DeVos. Congresswoman DeLauro, I believe we have a 
crisis of violence in our country, yes.
    Ms. DeLauro. Okay.
    Then, we have a young man who murdered 17, injured 15 of 
his own classmates using an AR-15 assault rifle. What is the 
best way to prevent another young person from taking lives at 
the hands of a gun?
    Secretary DeVos. I think there are a number of ways to 
address this. The President has been very clear in his focus 
on----
    Ms. DeLauro. What are they?
    Secretary DeVos. There are ways to prevent young people 
from getting guns--who should not be having guns, from having 
them. We need to strengthen background checks and ensure that 
individuals who should not be getting guns don't get them.
    And in the cases where they have them and have demonstrated 
that they are not competent to have them from a mental health 
perspective, there should be ways of taking them away--
emergency restraining and protective orders.
    Ms. DeLauro. Uh-huh.
    Do school counselors have a role to play in supporting the 
social and emotional well-being of children to prevent school 
shootings, yes or no?
    Secretary DeVos. Certainly.
    Ms. DeLauro. Well, then we have an issue here. Three days 
before the Parkland shooting, there was a budget released from 
your department that proposed to zero out money for school 
counselors and for school safety.
    In your interview on ``60 Minutes,'' you claimed that 
teachers having guns in the classroom should be an option for 
States and communities to consider, despite believing that your 
own first-grade teacher should not have been armed.
    I think you may be aware there is a Gallup poll from, you 
know, recently that said three-quarters of teachers oppose 
school staff carrying guns, nearly 60 percent saying that 
arming staff would make schools less safe.
    To that end, since, as we all know, the majority of 
education policy is a local matter and we know that the Federal 
budget is a very tight one, would you support a government-wide 
prohibition of using Federal funds to arm teachers and to train 
teachers and teacher candidates on firearms?
    Secretary DeVos. That is an issue that needs to be 
discussed more broadly.
    And what I will say is this budget was submitted well in 
advance of recent----
    Ms. DeLauro. My point is, if a majority of--you are focused 
on States and control there. If we have about 73 percent of 
teachers oppose school staff carrying guns, 60 percent believe 
arming staff would actually make schools less safe, your view, 
and would you then reconsider and support a prohibition on the 
use of Federal funds to arm and train teachers if, as I said, 
it is supported by a majority of parents and educators?
    Secretary DeVos. That is an important discussion and an 
important consideration for----
    Ms. DeLauro. So you don't have a view about that, given 
that you want to give the control to the States?
    Secretary DeVos. I think it is an important matter for 
discussion in addition to many other factors that play into a 
culture of violence that I think we can all agree has taken 
root in our country. There are many issues to be addressed 
here. The President has advanced----
    Ms. DeLauro. Well----
    Secretary DeVos [continuing]. A number of very commonsense 
steps that can be taken today----
    Ms. DeLauro. But he has not talked about banning assault 
weapons. But that is a different issue.
    My point is, given your belief in State control of the 
process, you want to decrease the Federal imprint on this--
footprint. So where can--you know, the majority count of 
teachers and parents that say ``no'' to arming teachers. You 
are the Secretary of Education. Would you take their word and 
do something about it?
    Or, if I can judge what you are saying, it is that what you 
are going to do is to continue to study it. What research do 
you already have that you are looking at, in terms of the areas 
you want to go down?

           LOCAL AUTONOMY IN DECISION TO ARM SCHOOL PERSONNEL

    Secretary DeVos. The question of school personnel being 
armed is very much one for local communities and States to 
grapple with. And many States have already done so. Texas has 
170 districts that have determined that is the right answer for 
them. Other States have decided they do not want to proceed in 
that direction. This is very much a matter of----
    Ms. DeLauro. Right. But if it is a majority of the parents 
and of the teachers across the country that say ``no,'' will 
you--and I am just asking you, will you reconsider?
    Secretary DeVos. That is a matter for Congress to decide, 
not for the Secretary of Education to decide.
    Mr. Cole. Thank you very much.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Cole. And, of course, the gentlelady, the ranking 
member of the full committee, has a lot of committee meetings 
to go. So I want to move, next, to her in case she has to leave 
us early.
    And, again, it is always a pleasure to have you here.

          Opening Statement From Full Committee Ranking Member

    Mrs. Lowey. Thank you, Mr. Chairman. I always appreciate 
your warm welcome.
    And I want to thank you, Secretary DeVos, for coming before 
the Subcommittee. We have multiple hearings this morning, and 
so I apologize for missing most of your testimony and questions 
of my colleagues. So I will get right to it.

                    GAO REPORT ON IDEA AND VOUCHERS

    On November 16, the GAO put out a report stating that many 
parents of children using private school vouchers are not aware 
of the full level of Federal protections they surrendered when 
leaving public schools. The report also stated that most 
private schools usually do not disclose the loss of special 
education protections.
    This can't be all that shocking based on the evidence. 
Multiple investigations, including a recent investigation into 
the Indiana voucher program, found that special education 
students underperformed in voucher schools compared to public 
schools.
    And yet your budget would spend up to $1 billion on private 
school vouchers, all while not providing a dime of extra 
funding for the IDEA special education.
    And I must say as I move forward, IDEA has been a priority 
of both Democrats and Republicans as long as I have been in 
this Congress, which is a long time.
    And the GAO report recommended requiring States to notify 
parents and guardians of potential changes to a student's 
special education rights when using a voucher to attend private 
school. Has the Department of Education taken steps to address 
the GAO recommendation?
    Secretary DeVos. Congresswoman, thanks for that question.
    The Department is committed to following the statute, the 
IDEA statute, and making sure that States are complying with 
the law as written by Congress.
    As you know, with regard to parents getting information in 
States, those are State programs. And while I fully personally 
agree that parents should be afforded the widest array of 
information possible when making decisions for their children. 
It is not a Federal matter, it is not a Department of Education 
matter.
    We certainly will recommend and encourage States to ensure 
that parents have all of the information possible for making 
decisions on behalf of their students. But it is a matter for 
States to grapple with specifically.
    Mrs. Lowey. So the Department of Education has not taken 
any steps to address the GAO recommendation? I am a little 
puzzled.
    Secretary DeVos. We are committed to following all the IDEA 
provisions, statutory provisions, and we are doing so.
    Mrs. Lowey. Have you or your Department encouraged the 
congressional leadership to work on this important issue?
    Secretary DeVos. I think it is an important matter for 
Congress to consider and encourage you to discuss it further.

                FEDERAL ROLE IN ENSURING IDEA COMPLIANCE

    Mrs. Lowey. But how about your leadership? You are head of 
the Department of Education. If you think it is an important 
matter, have you contacted the Republican leadership and urged 
them to consider addressing this real serious issue?
    Secretary DeVos. Where Federal funds and Federal statute 
are involved, the Department is directly involved and committed 
to that.
    Mrs. Lowey. Look, I just think we have to be real with the 
American people and tell them that this Administration, with 
your leadership, is selling, frankly, a false bill of goods, 
and it is an attempt to weaken public education in our country.
    So I don't understand this. You are saying it is up to the 
States. You don't have any leadership role in presenting the 
facts? I just want to make sure I understand what you are 
saying.
    Secretary DeVos. Well, Congresswoman, let me just go back 
to what you just said about not supporting public education. 
That is, in fact, false. I absolutely support public education 
and encourage public education in all traditional public 
schools and charter schools, which are also public schools, to 
continue to do better for each of the students that they serve. 
I am a strong supporter of public education and will continue 
to be.
    Mrs. Lowey. What about the--I just want to make sure I 
understand. What about the IDEA program? Republicans and 
Democrats have been fighting for this as long as I can 
remember.
    Secretary DeVos. IDEA is a Federal law, and where Federal 
funds are involved in States, if they are, the Federal 
Government has a role.
    The report and the situation to which you referred are 
really matters of States. I agree with you----
    Mrs. Lowey. Wait, wait, wait.
    Secretary DeVos. I agree with you that parents should have 
information and should have the fullest amount of information 
when making a decision for their child with a disability, but 
it is a State matter and a State issue.
    Mrs. Lowey. Even though we are providing Federal funding?
    Secretary DeVos. We are not, in those cases, providing 
Federal funding.
    Mrs. Lowey. To those institutions, schools that are not 
providing the services, is what you are saying.
    Well, I think this----
    Secretary DeVos. IDEA funding is a Federal program and a 
Federal matter.
    Mrs. Lowey. Correct.
    Secretary DeVos. Uh-huh.
    Mrs. Lowey. But, then, if it is a Federal program with 
Federal funding, then I don't understand how you don't have a 
role in providing information so that parents----
    Secretary DeVos. The programs to which you are referring 
are State programs. They do not receive Federal funding.
    Mrs. Lowey. IDEA doesn't get Federal funding?
    Secretary DeVos. The schools----
    Mrs. Lowey. Maybe we are misunderstanding each other.
    Secretary DeVos. Perhaps. I don't think so. I think you are 
referring to programs in States that provide parents with 
choices in private schools. Those are not receiving Federal 
funds through IDEA.
    Mrs. Lowey. Yes, because they made a decision, I guess, not 
to accept them.
    Secretary DeVos. Correct.

            FEDERAL ROLE IN PUBLICIZING INFORMATION ON IDEA

    Mrs. Lowey. But if we--my question is--and I will conclude 
with that. If we--and I would say if my recollection is 
correct, both Democrats and Republicans have been advocates--I 
could check those numbers again--for IDEA. And as far back as I 
can remember on this committee, we are always pushing for more 
money for IDEA.
    So you are saying that you have no obligation to share 
information on the values of IDEA programs with schools that 
are not Federal-funded--I mean--I shouldn't say that. Only 10 
percent or less of Federal funds goes to schools in this 
country. Most is funded State and local.
    But you have no obligation to parents to let them know that 
they can make a better choice?
    Secretary DeVos. We absolutely have an obligation to follow 
the statutes of IDEA. The Department does that, the Department 
is doing that, and----
    Mrs. Lowey. What does that mean?
    Secretary DeVos [continuing]. The Department will continue 
to do that.
    Mrs. Lowey. What does that mean, ``in the statutes''?
    Secretary DeVos. To follow Federal law as it relates to 
education of children with disabilities.
    Mrs. Lowey. So if parents don't have all the information--
they have a child who needs this help and they choose to go to 
a school that doesn't provide the services, your reaction is, 
``Okay. They made that decision.'' I think that is what you are 
saying.
    Secretary DeVos. No. I am saying that if it is a State 
program and it is a State-run and -funded program, it is a 
matter for the State to deal with.
    And I agree with the premise that parents should receive 
full information, but you are trying to extend, I believe, the 
role of IDEA into a place where IDEA does not touch.
    Mrs. Lowey. Why don't we follow up at another time, Mr. 
Chairman? I think I have taken too much time.
    Mr. Cole. As a matter of fact, I agree with the gentlelady.
    And I want to advise the rest of the committee, it is only 
my great affection for the ranking member of the full committee 
that allowed her to stretch the time that far. Don't anybody 
else try that, okay?
    All right. With that, I want to go to, on the basis of 
order of arrival, my good friend, the gentlelady from Alabama, 
for whatever questions she cares to pose.
    Mrs. Roby. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for being here today. I 
really appreciate the time that you spent with me last week in 
my office. My son, George, who was on his spring break, he and 
I enjoyed the opportunity to visit with you. So thank you for 
your time.
    Secretary DeVos. Likewise.

                 EVERY STUDENT SUCCEEDS ACT COMPLIANCE

    Mrs. Roby. In our budget hearing last year, I asked for 
your view on the law we passed here in Congress and what it 
says about the role of the Federal Government in decisions 
concerning standards and curriculum for the classroom.
    This issue is one of great importance, as I have said to 
you many times, to parents and teachers across my district and 
State. So I wanted to take this opportunity to once again ask 
you, as a matter of record, to please state the 
Administration's position.
    Do you acknowledge that the Every Student Succeeds Act 
expressly forbids the coercion of States to adopt certain 
standards or curriculum, including Common Core?
    Secretary DeVos. Yes. Correct.
    Mrs. Roby. And will the Department of Education continue to 
follow the letter and the spirit of the law?
    Secretary DeVos. Indeed we will.
    Mrs. Roby. I appreciate your direct answer and your 
continued support of the State-driven approach to education. 
And I believe that Alabama and all States should set high 
standards to challenge students and help create better 
opportunities.

                 CAREER, TECHNICAL AND ADULT EDUCATION

    I was pleased to see the Administration's commitment to 
investing in career and technical education by proposing an 
increase of $22 million in the CTE State grants program. 
Supporting career and technical education has been and will 
continue to be a priority for me.
    I have long been a proponent of CTE and workforce 
development programs in our country for three simple reasons: 
These programs help ensure that students are prepared for 
rewarding careers; they ensure American workers have the 
necessary training for skilled trades that are foundational to 
our society; and they boost local economies by producing a 
quality workforce.
    In my home State of Alabama, we have an incredible network 
of community colleges, industries, and facility partnerships 
that help provide skills training to prepare our students for 
in-demand jobs. They work hand-in-glove, together, to ensure 
students are prepared with the right skills to be successful 
and have job options when they graduate.
    So could you expand, again, on behalf of the 
Administration, upon the importance of career and technical 
education to the Department of Education? And how does the 
Department plan to address any perceived weaknesses within 
career and technical education?
    Secretary DeVos. Thank you, Congresswoman, for your 
commitment to career and technical education and for the 
multitude of pathways that young people really do have for a 
successful future.
    This Administration, our President, is really committed to 
supporting and encouraging students to pursue all these 
different opportunities. And your State of Alabama has been 
exemplary in providing options and alternatives to young people 
in seeking a career beyond high school and an education beyond 
high school.
    We are committed to helping to support those activities and 
those efforts with the proposal for the short-term Pell, to 
have certification become a robust way for students to pursue 
good careers that don't require a longer-term encounter in a 
higher-ed setting.
    We are committed to expanding earn-and-learn opportunities 
and apprenticeship programs. I am serving on the task force 
with Secretary Acosta and Secretary Ross to expand 
apprenticeship on-ramps and to really start facilitating 
industry-recognized apprenticeships and that as a way for 
students to begin a different pathway, an alternative to a 4-
year college or university.
    We have very much encouraged through the implementation of 
ESSA that schools consider increasing dual-enrollment 
opportunities for high school students to begin earning college 
credit while they are still in high school. And, in fact, we 
would advocate for making the CTE programming through the 
Perkins program more flexible to reach down even into middle 
school to help students know and understand, again, what 
pathways they might have beyond high school to consider.
    So, very much a commitment to ensuring that students have 
these different opportunities and that we support them in as 
many ways and as flexible a way as possible.
    Mrs. Roby. Thank you for your very thorough answer.
    And I am going to be a good example and yield back.
    Mr. Cole. That was 2 extra seconds. I appreciate that. 
Thank you very much.
    I want to go next, again, on basis of order of arrival, to 
my good friend from California, Ms. Lee.

                RACIAL DISPARITIES IN SCHOOL DISCIPLINE

    Ms. Lee. Thank you, Mr. Chairman.
    Good morning, Madam Secretary.
    First, I believe that this budget does decimate public 
education. But let's talk about, for a minute, institutional 
racism and racial discrimination and what this budget says 
about students of color. For me, it is a slap in the face.
    First of all, you cut $1 million from the Office for Civil 
Rights.
    Secondly, there are about 29 programs, including 21st 
Century community learning centers--that is after-school 
programs for low-income students. You are zeroing out American 
history, civics history, literacy programs, Promise 
Neighborhoods. These are all programs that are critical to 
students of color and low-income communities.
    We know that school discipline practices disproportionally 
impact black and Latino students. For example, the data 
released by the Department of Education's Office for Civil 
Rights--and I am wondering now if this is why you want to cut 
that budget--over three times more likely, brown and black 
students, to be expelled than their white peers.
    Now, recently, you said that you weren't sure or you didn't 
know whether or not race plays a role in school discipline. 
Now, isn't it your job to be sure that schools aren't executing 
harsher punishment for the same behavior because they are black 
or brown? Could you kind of talk a little bit about your views 
on students of color and the----
    Secretary DeVos. Thank you, Congresswoman.
    Ms. Lee [continuing]. Disparities in expulsions and 
suspensions.
    Secretary DeVos. Well, you have posed a number of different 
issues and questions here, and let me just begin by thanking 
you for your concern, more broadly, around students of color.
    And I just want to say that I believe this budget does very 
much to not only protect but encourage students of color to 
pursue their education through level Title I funding, through 
expanding opportunity grants for parents to be empowered to 
choose a different school if their assigned school is not 
working for their child, for expanding charter school 
programs----
    Ms. Lee. Obviously, I am talking about public education, 
Madam Secretary, and----
    Secretary DeVos. As am I.

                        OFFICE FOR CIVIL RIGHTS

    Ms. Lee [continuing]. I am talking about eliminating the 
Office for Civil Rights, and I am talking about, in the public 
sector, what you are doing to----
    Secretary DeVos. I, too, am talking about public education, 
expanding opportunities for students within a community to 
attend a different public school in that community, to expand 
charter school options.
    With regard to Historically Black Colleges and Universities 
(HBCUs), there was loan forgiveness in the wake of Hurricane 
Katrina. And we have also continued our commitment to 
supporting HBCUs by naming the board to the finance--the 
finance board for HBCUs.
    I believe that this administration actually has a very 
strong record and this budget is very much oriented around 
ensuring that students--the most vulnerable--are protected and 
encouraged to be able to pursue education that is right for 
them.
    Ms. Lee. But you are robbing Peter to pay Paul in many of 
these budget items, in terms of, say, opportunity grants not 
being authorized.
    But, also, let me just say, you still haven't talked about 
the issue in public schools as it relates to black and brown 
students and the high disparity rates as it relates to 
suspensions and expulsions. And is race a factor? Do you 
believe that or not?
    Secretary DeVos. Let me just say----
    Ms. Lee. Is there racial bias in----
    Secretary DeVos [continuing]. There is no place for 
discrimination, and there is no tolerance for discrimination. 
And we will continue to uphold that. I am very proud of the 
record of the Office for Civil Rights in continuing to address 
issues that arise to that level----
    Ms. Lee. But you are taking away $1 million from the Office 
for Civil Rights.
    Secretary DeVos. The team in the Office for Civil Rights is 
doing an amazing job. They have continued to investigate and 
solve and resolve issues at a much more rapid rate than was 
previously done. We have decentralized their decisionmaking 
around this and their ability to see these cases through to 
resolution.
    And so I will continue to defend all of the work that they 
have done more effectively and more efficiently.
    Ms. Lee. But you are still cutting their budget, Madam 
Secretary. And that is going to mean that we will have less 
civil rights enforcement for students of color.
    Also, just look at what you are suggesting as it relates to 
the discipline guidelines in the Obama administration that 
ensured that students of color were not subject to harsher 
discipline practices. You are actually talking about that now. 
What does that mean for black and brown students?
    Secretary DeVos. Congresswoman, I said before, I will say 
again, there is no place for discrimination, and we are not 
tolerating discrimination. The Office for Civil Rights----
    Ms. Lee. But you are saying that; your policies and your 
budget show differently.
    Secretary DeVos. The Office for Civil Rights budget 
reduction is less than 1 percent. The office is being operated 
and is functioning at a much more efficient level than it was 
previously, and so they are able to do more with less.
    Ms. Lee. Madam Secretary, that is not acceptable----
    Secretary DeVos. And a less-than-1-percent change.
    Ms. Lee [continuing]. That is not acceptable when you look 
at the huge expulsion and suspension rates and what is taking 
place in terms of racial bias in our public schools. You need 
to increase that budget, and you need to back off of looking at 
how to rescind the policies that would decrease the school-to-
prison pipeline for black and brown----
    Mr. Cole. I will allow the Secretary to answer, but the 
gentlelady's time has expired.
    But do you care to respond?
    Secretary DeVos. I think I have addressed that issue.
    Mr. Cole. I thank you both.
    We will, again, now move to Ms. Herrera Beutler for the 
next set of questions.

                        DUAL ENROLLMENT PROGRAMS

    Ms. Herrera Beutler. Thank you, Mr. Chair.
    Thank you, Madam Secretary. I also appreciate you taking 
the time to come in and meet with us last week--this week. It 
is all running together. I appreciate your time.
    I am going to jump right in.
    In Washington State, we have a combined enrollment program 
called Running Start. This program allows upperclassmen to 
enroll in courses--I shouldn't say ``upperclassmen''--11th and 
12th graders--in courses at community or technical colleges as 
well as some public universities.
    Many families have greatly benefited from this program, 
which provides the opportunity to graduate your son or daughter 
from high school with an associate's degree. You are utilizing 
that time basically to get two birds with one stone, so to 
speak. This saves families thousands of dollars and gives 
students that jump start on good opportunities in the workforce 
or on a bachelor's degree, because you can get rid of some of 
those general ed credits and not pay the steeper price at a 4-
year school.
    So I wanted to ask, what can your department do to ensure 
that the students are made aware of these opportunities and 
that it could be a good option for them?
    One of the things that I found troubling is not all schools 
or districts make this available--or make students aware that 
they can get two birds with one stone, so to speak.
    Secretary DeVos. Well, thanks, Congresswoman, for that 
question and for your support of and commitment to this dual-
enrollment opportunity and option.
    We have been following through on Congress' intent in the 
ESSA legislation to ensure that a lot of the funding programs 
through ESSA are made more flexible, and there is a great 
opportunity for schools to seize this particular direction and 
to build upon it.
    I believe it is really up to the States to ensure that they 
communicate these opportunities to students, and I will 
continue to encourage that they do so. We have to make known to 
students that they have a wide variety of pathways and they 
have the opportunity to start earning higher-ed credit while 
they still are in high school.
    And, again, I would say, even beyond that, or before that, 
that middle school students need to become aware of these 
opportunities to be able to anticipate and think about them in 
advance of actually arriving at the time they have to make that 
decision.

         SECLUSION AND RESTRAINT OF STUDENTS WITH DISABILITIES

    Ms. Herrera Beutler. Absolutely. Absolutely.
    I am going to switch over to an issue I have become aware 
of. Your department has the absolute critical responsibility of 
ensuring that schools provide safe and healthy learning 
environments for all students. And reports have demonstrated 
that students with disabilities are subjected to restraint and 
seclusion at rates that far exceed those of other students.
    Although schools are required to report to the Office for 
Civil Rights on these instances, it has come to my attention 
that multiple States have reported zero instances for an entire 
school year, which is just not believable. This raises concerns 
on this issue, that it is being chronically under-reported.
    I wanted to ask about your awareness of this issue, what we 
can do, and is there a need, perhaps, for a clearer definition 
of ``seclusion'' and ``restraint?''
    Secretary DeVos. Thank you, Congresswoman. And I will just, 
again, state our commitment to and support of making sure that 
the IDEA statutes are followed and the provisions are adhered 
to by the States.
    I am aware of this issue, this claim. And we will certainly 
look into ways that we can continue to insist and ensure that 
States are appropriately addressing and reporting these 
situations and that that community is well aware of solutions 
and resolutions to ensuring that those situations are reported 
fully.

                   SCHOOL CLOSURES AND STUDENT LOANS

    Ms. Herrera Beutler. Okay. And one final--thank you.
    And I actually just want someone on your staff to work with 
on this issue. I had a constituent come to me regarding a 
college she attended. She was 8 weeks from graduation, and it 
was an online school. And the last administration, the last 
Department of Education, shut the school down. She was 8 weeks 
from graduation.
    And so they shut it down, and basically it froze 
everything. It froze her credits. It froze all the money she 
had paid--like, she attempted, then, to go to a community 
college and pay cash, and because it was a FAFSA--because it 
was federally connected, it basically put a hold on her ability 
to continue on with her education, even if she was paying cash. 
She wasn't able to repay loans. It impacted her ability to get 
a mortgage.
    And the Department was sitting on it. Basically, she 
couldn't move because the Department was going to resolve this. 
And this impacted other students.
    So I realize this is kind of--I hadn't led into this. I 
just want someone on your team of the right people to work 
through this, because she is not the only affected constituent 
that I have. And I want to make sure that if a school did 
something wrong, she is not being held liable and it is not 
impacting her life, especially when she had done a good job, 
she was on track, she had great grades, and then, bam, it was 
taken from her.
    Secretary DeVos. I would like to be able to work with you 
and your team and make sure that we get this addressed and 
resolved for your constituent.
    Ms. Herrera Beutler. Perfect.
    With that, I thank the chairman.
    Mr. Cole. Thank you.
    Mr. Cole. Thank you. We next go to my good friend, Mr. 
Pocan, from Wisconsin.

                              GUN VIOLENCE

    Mr. Pocan. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for being here. Last night 
on our Facebook page, I said you were coming before the 
committee, got over 100 different questions, but I am going to 
try to cover some of the topics they covered.
    I was very heartened to hear you say that the budget is 
about students, not special interests, about the faces of the 
students. A lot of the questions came in around gun violence. 
They are concerned not just about the faces, but the hearts and 
the minds and the lives of the students, if you go to school in 
the morning, you are able to go home alive at the end of the 
day, and that hasn't been happening.
    You once, in an interview, said, I would imagine that there 
is probably a gun in the schools to protect from potential 
grizzlies. Is it still your opinion that we need guns in 
schools to protect from grizzlies?
    Secretary DeVos. Thanks, Congressman, for that question. 
And if I had to do over today, I probably would have used a 
different example. The point was that if there are going to be 
guns in schools, they need to be in the hands of the right 
people, and those who are going to protect students and ensure 
their safety. And that is the point.
    Mr. Pocan. I appreciate that, because I agree, there is not 
a grizzly bear problem in this country. There is a gun violence 
problem in the country. And a few weeks ago, the President 
seemed to be on board with some sensible alternatives, and then 
he met with the NRA and the sensible alternatives went out the 
door.
    Are you a member of the NRA, by any chance?
    Secretary DeVos. I am not.
    Mr. Pocan. You are not, okay. I was wondering specifically 
do you know how many school shootings and incidences involving 
guns have taken place in schools since you were confirmed last 
year?
    Secretary DeVos. Too many.
    Mr. Pocan. Too many, yeah. So it is over 85. In fact, that 
number this morning increased. At least two people were injured 
in Maryland.
    Secretary DeVos. I understand that.
    Mr. Pocan. You know, 17 lives recently in Parkland. In your 
comments, you made a comment about trying to prevent young 
people from getting guns. Does that mean you support banning 
the purchase of guns for people under 21?
    Secretary DeVos. The President has indicated support for 
that. I think it is an important issue for this body to deal 
with. I would like to think that this body and Congress could 
go ahead and get progress on some of the things that are 
broadly supported, and I encourage and the President has 
certainly encouraged that.
    Mr. Pocan. So you support that?
    Secretary DeVos. The President has said that that should be 
a part of the consideration. That is actually part of the study 
that the school safety commission will be looking at and making 
a recommendation on.
    Mr. Pocan. So you support that?
    Secretary DeVos. The President has indicated support.
    Mr. Pocan. I got you. I got you. Okay.
    Secretary DeVos. I have not reached a conclusion myself.

                 MEETING WITH SURVIVORS OF GUN VIOLENCE

    Mr. Pocan. Someday maybe we will find out where you are on 
it, but the President supports it. I got that. Okay.
    This Friday, the Parkland students are going to be up here. 
Would you be willing to sit down? I know you had a meeting with 
the President, but you didn't get a lot of one-on-one time. 
These students really would like to be heard. I am staying an 
extra day just to meet with them. Would you be willing to meet 
with the Parkland students? We would be glad to facilitate a 
meeting.
    Secretary DeVos. I look forward to meeting with Parkland 
students. I have actually talked with a few of them about 
meeting them in Parkland at a time that is workable for both of 
us.
    Mr. Pocan. Are you available this Friday to meet with them 
when they are in town?
    Secretary DeVos. I don't know. I can't say right now what 
my schedule is.
    Mr. Pocan. If we could just follow up with that, we would 
certainly appreciate it.
    Let's see. The President maybe is saying not to raise the 
age. Okay. Well, anyway, that is all right. We will find that 
out.

                             SCHOOL CHOICE

    On vouchers, I want to associate myself with the remarks 
from our ranking member of the committee on the GAO report, 
because I do think there are concerns there. I know at another 
interview you made a comment just recently that you haven't 
visited poor-performing schools. I think that is another one 
you would like to reel back.
    Secretary DeVos. As Secretary, I have made a point of 
visiting schools that are doing things creatively, 
innovatively, out-of-the-box thinking. I think it would be 
important to visit some poor-performing schools.
    Mr. Pocan. Great.
    Secretary DeVos. I think the question is, will they let me 
in?
    Mr. Pocan. So that is the exact place I am going, but you 
and I are on the same wavelength. So you are willing to meet 
with some schools that are poor-performing schools?
    Secretary DeVos. Absolutely.
    Mr. Pocan. Okay. So there are, according to a recent 
article in the Milwaukee Journal, at least 26 Choice schools, 
which I know you are a big advocate for. They are performing 
way below the standards and level they are supposed to.
    So I would love to meet you in Wisconsin. And, you know, 
one of them that ranks the lowest recently said, we don't let 
people from the media in our building, and they are the lowest 
of 121 schools in the Milwaukee area. I would love to go to one 
of those with you, because I have seen the problems in my 
State--as you know, we were one of the early adopters of the 
choice program--just to see exactly what that problem is.
    We have 140 private schools, voucher schools statewide that 
couldn't be rated because they won't provide the information. 
Do you think that is right that the State of Wisconsin, as much 
as you want to give the State rights, can't even get the 
information from schools that are ultimately getting some sort 
of Federal dollars, because they are a choice program?
    Secretary DeVos. Congressman, Wisconsin has legislated 
their program and their accountabilities to the----
    Mr. Pocan. But do you think it is right is the question?
    Secretary DeVos. I think parents and I think----
    Mr. Pocan. Do you think it is right?
    Secretary DeVos. I think parents and taxpayers need to have 
more information, not less. And the goal of this administration 
and this Department is to ensure that all children have an 
equal opportunity to access a great education.
    Mr. Pocan. So I am going to take it that you think they 
should have to report. Is that fair?
    Secretary DeVos. I am going to--I have been focused on 
ensuring that children and students and parents have 
opportunities to make the right education decision for them, 
and I support those parents in Wisconsin who have made choices 
for their children. I am not going to comment on the Wisconsin 
method of reporting and accountability.
    Mr. Pocan. So you don't think those schools should have to 
provide information?
    Mr. Cole. The time has----
    Secretary DeVos. I think all parents need to have 
information, and I think all taxpayers need to have 
information.
    Mr. Pocan. Maybe if we get a second round, I can get more. 
Thank you.
    Mr. Cole. I would advise every member of the committee, you 
have a much better chance of getting a second round if you stay 
within your time in the first round.
    So, with that, let me facilitate a conversation between two 
old friends. Your next person to be recognized for questions is 
your good friend and this committee's very distinguished 
member, Mr. Moolenaar of Michigan.

                            CHARTER SCHOOLS

    Mr. Moolenaar. Thank you, Mr. Chairman.
    Thank you, Secretary DeVos, and I just want to appreciate 
your focus on students, student achievement, trusting parents 
to make the right decisions for their children. You know, as 
someone from Michigan, I have seen the work you have done over 
the years that has benefited our students in Michigan, and you 
should be commended for that.
    And, you know, there is a lot of confusion over the issue 
of charter schools. As you pointed out in your testimony, 
charter schools are public schools. And I want to clarify 
something in Michigan. There are over 300 charter schools in 
the State of Michigan, serving over 145,000 students. Half of 
those students are minority and low-income students, and those 
are students whose parents have chosen those options for their 
children, and they have had the freedom to do that. So, again, 
I want to thank you for that.
    I want to go to a few different issues. One is, I want to 
talk with you a little bit more about your Opportunity 
Scholarships and Grants, because when I think of the Lyndon 
Johnson quote, and I had never heard that, ``passport out of 
poverty,'' I think two things: one is education; the other is a 
job.
    And I think that the focus you have in the Department right 
now on improving options for education and opportunities, as 
well as this job preparedness are hitting that mark. But before 
we get to that, I wanted to also just kind of question you on a 
few things that came up. One is, when it comes to ranking 
lowest in some of these school districts, you know, some 
charter school districts in our State are focused on, you know, 
adjudicated youth, at-risk youth. And so I don't think it is 
compared, you know, apples and oranges seem to be. So I wonder 
if you kind of run across some of that?

                             SCHOOL SAFETY

    And I appreciate that you are looking at best practices to 
see what can be replicated around the country. I think that is 
very important. You know, the fact that you aren't giving your 
opinion on all the gun issues that are politicizing our country 
right now, what strikes me as you are the head of a commission 
on school safety, and the goal of that commission is to look at 
ways to keep students safe. And I understand that if you had 
all your conclusions before you had the commission, it wouldn't 
make much sense to have a commission. So thank you for your 
leadership on that.

                           SPECIAL EDUCATION

    And then finally, on the IDEA question that was raised, if 
I understand what you were saying is that Congress, you know, 
has passed a law. The executive branch, you know, is 
administering that law. States have the ultimate responsibility 
to administer the law and communicate to individual parents. 
And it is in their best interest, if you are an intermediate 
school district, to communicate with the parents who may be 
leaving your district, here are the things you are losing. So 
if there needs to be further follow-up legislation, would you 
be willing to work with the committee or myself to address 
that?
    And so I know I have thrown a lot at you, but I just wanted 
to get some of those issues on the table, because I think you 
have really responded well to a lot of different questions on 
all sorts of topics, but I thought some of those needed to be 
clarified.
    Secretary DeVos. Thank you so much, Congressman. And thank 
you for your previous leadership as a charter school 
administrator who knows the value of having that kind of an 
option for students.
    Let me start with your last question around IDEA. And, 
indeed, if there are ways to clarify in the law requirements of 
States in terms of what they communicate and how, I would 
certainly encourage Congress to consider that and address that.

                           OPPORTUNITY GRANTS

    With regard to the Opportunity Grant proposal that is part 
of the budget, it is proposed to be a $1 billion fund, that 
roughly half of which would be tied to the student-weighted 
funding pilot program that has been authorized through the 
Every Student Succeeds Act, and would encourage districts to 
direct their funding in the student-weighted funding approach. 
It would facilitate allowing students to choose from within 
public schools in a district.
    So for those communities that are hesitant to take that 
step today because of costs involved with making a funding 
mechanism switch, it would help facilitate that and would open 
up public school choice more broadly to students in that 
district. There are, I believe, 50 opportunities, and only a 
handful have indicated a desire to move that direction to date. 
We think this would help incentivize and encourage some of them 
to do that further.
    The other half roughly would be to come alongside of 
States' private school choice programs that are already in 
existence and enhance what they already have, voluntarily on 
the part of States, nothing required or mandated. And so that 
is the idea. The details surrounding that would need to be 
worked out with Congress.
    Mr. Moolenaar. Mr. Chairman, if I could just make a 
statement and not a question.
    Mr. Cole. Very quickly.

                     CAREER AND TECHNICAL EDUCATION

    Mr. Moolenaar. I think you are also on the right track with 
career and technical education. I have two words: The Mecosta 
Osceola Career Center, enrollment is up by over 10 percent, 
students who want to get these skills in careers. We also have 
a community college that is working on, in our district, a way 
that--a short-term certificate that gets people into jobs where 
they can earn and work and learn. And I appreciate your work on 
that. So thank you.
    Mr. Cole. With that, we will go to my good friend from 
Massachusetts, Ms. Clark.

                             SCHOOL SAFETY

    Ms. Clark. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today. I want to 
talk back about Parkland. I know you went there to visit, 
weren't able to take many questions from students, so some of 
them have submitted them to me today. And as we hear news 
reports of another school shooting in Maryland yet today, your 
work on this commission, I think you described it in a recent 
interview, as urgent. It couldn't be more urgent as we send our 
kids to school and hope that they will come home safely.
    So in that line, and this is in line with many of the 
questions from students: When is the first meeting of your 
commission?
    Secretary DeVos. The first meeting is going to take place 
very soon.
    Ms. Clark. What does that mean?
    Secretary DeVos. Within the next few weeks. And we are----

                        SCHOOL SAFETY COMMISSION

    Ms. Clark. Who is going to be on the commission?
    Secretary DeVos. The commission is going to be comprised of 
four Cabinet Secretaries: Myself, HHS, Justice and Homeland 
Security.
    Ms. Clark. Is that it, just four Cabinet Secretaries? No 
experts? No Democrats?
    Secretary DeVos. That is the composition of the commission 
itself. We will be inviting and having forums and meetings with 
a wide variety of experts not only here, but across the 
country.
    Ms. Clark. Will you have any students? Apparently not as 
commission members, but you will be inviting students?
    Secretary DeVos. Not as members of the commission. As I 
said, this is an urgent matter, and we want to ensure that we 
are able to move and operate as quickly as possible without 
getting bogged down in a lot of bureaucracy.
    Ms. Clark. So you think the first meeting will happen by 
mid-April. When do you plan to conclude this?
    Secretary DeVos. The timeline is still being worked out, 
but rest assured, we have a very keen sense of urgency around 
the work of this commission and the necessity of really----
    Ms. Clark. How are you defining urgency? I mean, you must 
have some timeline in your head for this.
    Secretary DeVos. I do, but----
    Ms. Clark. What is that? What do you think, as the leader?
    Secretary DeVos. I do, but we are still working out the 
details with the administration.
    Ms. Clark. Okay. So your urgency, but you haven't begun. 
There will be five members of this in total?
    Secretary DeVos. Four.
    Ms. Clark. Just four. So four includes you?
    Secretary DeVos. That is correct.

                RACIAL DISPARITIES IN SCHOOL DISCIPLINE

    Ms. Clark. Okay. And you have said that you were going to 
look at everything. One of the questions from my students 
follows back on Barbara Lee's question that she had for you. Do 
you recognize that there are disparate rates of discipline for 
black children in our schools, that it is 3.8 times----
    Secretary DeVos. I have heard of that data.
    Ms. Clark. You have seen that data. So how are you feeling 
about arming guards and teachers and increased militarization 
of our schools potentially, how will that affect students of 
color?
    Secretary DeVos. I am concerned about all students, 
students of color and all students. We want to ensure that 
students have the opportunity to learn in safe environments. 
That is----
    Ms. Clark. Is that going to be a top agenda of your 
commission?
    Secretary DeVos. That is going to be the focus of this 
commission. That is the charge of this commission, to look at 
ways to advance the safety and well-being of all the physical 
environments that students attend. We want to ensure that 
parents don't have the situation that they did in Parkland and 
today in Maryland.
    We have a culture of violence in this country that we have 
got to help identify solutions for and root causes to, and we 
need to come up with ways----
    Ms. Clark. We are sort of moving beyond platitudes at this 
point, though. We have students' lives on the line. Have you 
rethought your elimination of the Student Support and Academic 
Enrichment grants that specifically go to violence in our 
schools and help students deal with that?
    Secretary DeVos. As you know, this budget was presented 
several months ago.
    Ms. Clark. Is that a no, you have not rethought that?
    Secretary DeVos. As you know, the budget was presented 
several months ago. Our current scenario suggests that we 
should revisit this again, and I would welcome Congress' doing 
so and supporting this initiative around ensuring schools have 
the resources that they need to help keep----
    Ms. Clark. So you will take a leadership role in undoing 
the elimination of those critical mental health programs for 
students?
    Secretary DeVos. I support Congress' readdressing this and 
looking at this budget item----
    Ms. Clark. What about after school programs, are you----
    Secretary DeVos [continuing]. And support the flexibility 
that schools and districts have under ESSA to focus resources 
where they believe it is most needed to ensure student safety.

                         AFTER SCHOOL PROGRAMS

    Ms. Clark. And what about after-school programs? You also 
eliminated the 21st Century Community Centers. That is 80,000 
kids in Florida alone. Are you----
    Secretary DeVos. This budget has had to make priorities 
around the bottom line.
    Ms. Clark. Have you rethought that, in light of school 
violence?
    Secretary DeVos. I encourage Congress to take a look at 
areas that they think need to be done differently, based on 
where we are today. But the after-school programs have been 
identified as being very--there is no data to show that they 
are effective in what the stated goal has been. In some 
communities, they may be----
    Ms. Clark. What do you mean, there is no data? There is 
study after study after study.
    Mr. Cole. The gentlelady's time has expired. Again, I am 
trying to make sure everybody gets a second round.
    Ms. Clark. I appreciate that. We will be glad to supply you 
with the studies on the efficacy of after-school programming.
    Mr. Cole. With that, we will now move to my good friend, 
Mr. Harris of Maryland.

                         GLOBAL COMPETITIVENESS

    Mr. Harris. Thank you very much, Mr. Chairman.
    It is a pleasure to see you again, Madam Secretary. Thanks 
for the flexibility in your visit time last week with me. I 
have got to tell you, you have got your work cut out for you, 
because the Federal intrusion into education just hasn't 
worked. You know what the PSSA scores are. It is pathetic. I am 
tired of going in other countries and having them brag about 
actually having better scores than the United States. And you 
know the list. In math, you know, we come under the Slovak 
Republic, lower than Hungary, lower than Lithuania, lower than 
Latvia.

                       FEDERAL ROLE IN EDUCATION

    My gosh, I mean, the Federal intrusion into education just 
hasn't worked, and it is time to drain the education swamp. 
That is the fact.
    And, you know, I am not surprised you get questioned here 
today, you know, about doing more with less. Now, I thought 
that is the way America kind of worked, that you actually got 
rewarded if you increased efficiency. And with the $21 trillion 
debt deficit, that we actually can do more with less and I am 
not shocked that that is possible, that we actually have an 
efficiency problem in the Federal Government. And I applaud 
you. If the OCR is doing a more efficient job, it can actually 
do more civil rights enforcement with less money, have at it. 
Great idea.
    You know, bucking the education establishment is not easy. 
You know what it is about, because the education establishment 
is into basically warehousing our low-income students. That is 
it. It is warehousing. And if you resist that warehousing, you 
are called--sometimes I have been called a racist for resisting 
it.

                    OPPORTUNITY SCHOLARSHIP PROGRAM

    But the fact of the matter is that the Opportunity 
Scholarship Program, which we discussed here in Washington, is 
a success, and that is an embarrassing fact. But you know in 
the year 2015 to 2016, the graduation rate for students 
receiving those Opportunity Scholarships was 98 percent in a 
city where the average graduation rate for all D.C. public 
schools is 69 percent. And you and I both know that graduation 
rate is usually inflated by cooking the books, because that is 
what they did in Maryland, and I am sure that is what they do 
in D.C.
    But my first question is, is the President's budget 
proposed to fully fund the Opportunity Scholarship Program?
    Secretary DeVos. Yes, indeed, Congressman.

                       RACE AND SCHOOL DISCIPLINE

    Mr. Harris. Thank you very much.
    Let's go on to the next thing. The racial disparity, the 
disparate racial impact dear colleague letter. You know, I have 
got complaints from my constituents, because the fact of the 
matter is now what you have is you have schools that, because 
you know the way the heavy hand of the Federal Government 
works, it sends out a dear colleague letter and then threatens 
to withhold funding if they should, in fact, do a study in your 
district and somehow, by the magic of Federal Government 
mathematics, find that you somehow disparately discipline 
people.
    So the average person in some of the school districts in my 
district have just stopped disciplining people. They are just 
afraid to do it, because they don't want the Federal Government 
coming in and, through some statistical magic, showing that 
they have a disparate impact. So I have constituents writing me 
that their children are in fear in their schools, because they 
have just not--they just don't do a job disciplining anymore, 
because they are afraid of it.
    And I hope that--look, racism is wrong; discrimination is 
wrong. If you punish someone, or you determine the extent of 
the punishment solely based on their race, that is just plain 
wrong. But you have to have some punishment and discipline in 
schools, and it goes too far when the long hand of the Federal 
Government reaches into that level.

                             OPIOID CRISIS

    We just have a few minutes remaining. I do want to talk 
about an issue that I think that your Department can help in, 
and that is with the opioid crisis, because I think that this 
strikes all age levels, but a lot of these problems start at 
the school-age level. We have an increasing number of students 
in our, not only our middle schools, but our high schools 
certainly who have this problem. And I want you to discuss, 
because I have read about a school in Indiana, I think it is 
called the Hope Academy, a charter school. And, again, you 
know, I know it is using the C word, and the education 
establishment doesn't like the word ``charter schools,'' but 
for some people, this can save lives.
    So I want to, if you can just educate me a little bit more 
about this, you know, what these opportunities are to help with 
those students who, you know, have this problem with addiction 
and they and their families want to get through it and they 
look to the school system to perhaps give them a helping hand.
    Secretary DeVos. Well, thank you, Congressman. And, as you 
note, this is a really critical issue. Obviously, there is a 
proposal in the budget to raise up and elevate to a national 
level programs that are working from a prevention perspective.
    And I think that is where we really have to invest a lot of 
time and resources to the side of preventing kids from ever 
getting addicted to, and on, these really corrosive drugs. The 
Hope Academy that you referred to was a great visit to a 
charter school outside of Indianapolis. It is a school that is 
focused solely on recovering addicts that want to continue 
their education simultaneously while they are in recovery. And 
the students are able to progress at their own speed through a 
mastery competency-based program, but they have the support 
services to ensure that they are staying on track to stay off 
the drugs and/or alcohol, depending on their addictions.
    I met a family that had moved to Indiana from Georgia 
specifically for this school. The young woman had been through 
three recovery programs in Georgia, every time had gone back to 
the same school, the same friends, the same environment, and 
had fallen right back into addiction.
    She was there at the Hope Academy in Indianapolis, and was 
doing extremely well, had been clean for nearly, I believe, 9 
or 10 months. And this type of school and this type of 
opportunity we need to offer more of, and there needs to be 
more of these kinds of programs that students who are addicted 
can avail themselves of. But I go back to the, you know, 
primacy of prevention being the focus.
    Mr. Harris. Thank you. I yield back.
    Mr. Cole. Thank you.
    Mr. Harris. I tried.
    Mr. Cole. Nobody's trying that hard here today on both 
sides, to be fair.
    If we could, I want to go next to my good friend from 
California, Ms. Roybal-Allard.

                       ESSA TITLE IV BLOCK GRANTS

    Ms. Roybal-Allard. Welcome, Madam Secretary. Secretary 
DeVos, you emphasize the importance of letting States decide 
for themselves what programs work best for them. The flexible 
block grant under Title IV-A of ESSA is one of the few programs 
authorized in law that allows districts to decide for 
themselves how to invest in areas that support STEM, computer 
science, violence prevention, and mental health services. These 
are areas that you and the administration claim to prioritize. 
Yet you are eliminating this flexible block grant program, and 
the reasons given are that it is ineffective due to low 
allocations to local school districts, and that it is 
duplicative with other Federal programs.
    My question is, why are you eliminating this program, which 
gives States the flexibility you support instead of providing 
it with the resources it needs to make the program successful?
    Secretary DeVos. Congresswoman, again, this budget was 
developed several months ago. We had to make decisions within a 
bottom line, and this particular program was thinly spread. 
When it was originally authorized by Congress, it was 
authorized at--it had a $1.6 billion authorization, but it was 
never funded beyond $400,000,000. So we are at a different 
place, and I would encourage Congress to revisit this program, 
if you all believe it is a good program that provides the kind 
of flexibility to meet the needs of schools and districts with 
regard to school safety, in particular.

                           EFFECTIVE TEACHERS

    Ms. Roybal-Allard. Okay, great. I look forward to working 
with you on that, Mr. Chairman.
    In communities across our country, whether they are urban, 
rural, or Native American, there is a severe teacher shortage. 
And research tells us that effective school leadership helps 
foster the development and retention of effective teachers. It 
also tells us that effective teachers have an outsized impact 
on student outcomes.
    The State grants under Title II of ESSA provide the 
resources States need to develop and train effective teachers. 
For example, in California, the State uses it to effectively 
teach children with disabilities. Other States also use the 
grant money to support administrators in their role as leaders, 
and to provide opportunities for the growth and development of 
aspiring young administrators. Yet your budget request proposes 
eliminating this grant program on the grounds that it is 
duplicative.
    Can you specify which programs offer the same kind of 
support for teacher and school leadership development, 
recruitment, and retention?
    Secretary DeVos. Thank you, Congresswoman, for your 
question there. We have, again, focused our budget requests 
around areas that do provide the most flexibility, and continue 
to want to support teachers, in both their roles as teachers as 
well as their continued development; and we have done so 
through the protection of Title I funds and through the 
protection of IDEA funds. We have also, through ESSA, provided 
a lot more flexibility in the classroom and have moved away 
from high-stakes testing, all of which teachers have really 
spoken out for and in favor of and are grateful for. We 
continue to want to support teachers in their roles, and know 
that you can't replace a good teacher in a classroom. We need 
more of them.
    Ms. Roybal-Allard. I just want to point out that Title I is 
a critical program that is designed to help schools in low-
income communities provide students with access to tutoring, 
educational technology, and other school activities that enrich 
students' learning experience. And proposing schools use these 
funds for teacher development instead of providing the 
resources that enhance student learning, I think is 
preposterous, quite frankly. So, again, I am hoping that we 
will be able to take another look at this and maybe reinstate 
this program as well.

                        ACCESS TO SCHOOL CHOICE

    And I see that my time is almost up, so I just want to make 
one point rather than ask a question. In your opening 
statement, you used the example of Carolina, who was successful 
because she was able to move on to, I guess, a charter school. 
The point is that she was able to do this because she got a 
local scholarship. Without that, she would not have been able 
to go to the other school. And there are a limited amount of 
scholarships throughout this country. So unless we invest in 
public education, there is going to be a lot of Carolinas who 
are going to be left behind, because right now she is the 
exception and not the rule.
    Secretary DeVos. Congresswoman, she actually would have had 
access to something like that if Michigan had continued to 
advance in offering more choices to parents. Unfortunately, it 
has not. And so, Carolina is an example of what we need to 
change, that we need to offer parents more of those 
opportunities and options, Michigan foremost among them.
    Ms. Roybal-Allard. And parents would need the resources in 
order to do that, and many do not have that money. They have 
two and three jobs. They are barely making ends meet.
    Secretary DeVos. Many States offer programs. Many States 
offer programs that afford parents like Carolina's mom the 
opportunity to do so. Other States have programs.
    Ms. Roybal-Allard. I would like you to come and visit my 
district and some of my schools and talk to the parents there.
    Mr. Cole. Good. Now, Mr. Fleischmann, you have been 
extraordinarily patient, so I recognize my good friend, the 
gentleman from Tennessee.

                       COMPUTER SCIENCE LITERACY

    Mr. Fleischmann. Thank you, Mr. Chairman.
    And, Madam Secretary, it is a privilege and pleasure to 
have you before us today. I sincerely appreciate the visit that 
we had last week in my office. We discussed a lot of great 
topics, but thank you for hearing me out and about my 
commitment to computer science literacy in America, 
particularly in the underserved areas, rural, inner city. There 
is just a great need and thank you.
    There is a great coalition out there, tremendous bipartisan 
support. As a matter of fact, with the chairman's great help, 
we got language in this bill supporting computer science 
literacy, and I sure hope that strong bipartisan commitment 
continues. So I appreciate that so much.
    Madam Secretary, I know you are aware America needs 1 
million more STEM professionals by 2022 to hold jobs ranging 
from computing to the national security and defense fields. 
Additionally, it is estimated that we are only graduating about 
10 percent of the computer science professionals that our 
country needs to compete globally. And by leaving these jobs 
unfilled, we are vulnerable to cyber attack and other threats 
to our national security.
    Additionally, I regularly meet with employers from my 
district, and there are an increasing number of job openings 
with state-of-the-art technology. These jobs require 
specialized technical training, and I am hearing from employers 
that there are not enough of our workforce that has the skills 
necessary to be considered for these technical jobs.
    Thus, I was pleased in September when President Trump 
signed a memo on creating pathways to jobs by increasing access 
to STEM and computer science education. Central to this 
memorandum was directing you to make STEM and computer science 
one of your top priorities, including the goal of devoting at 
least $200 million per year of grant funding toward this 
effort.
    Madam Secretary, can you please update the committee on the 
progress of this goal and whether you believe this goal will be 
met in fiscal year 2018 and how?
    Secretary DeVos. Thank you, Congressman, for that question 
and for your commitment to STEM, and particularly to computer 
science education. As you have noted, this is not only an 
economic issue, it is also a matter for national security.
    And I am pleased to say that this budget has proposed a 
$200 million investment in STEM-related programs and subjects, 
and we seek to use $180 million of that for competitive grants 
to support evidence-based innovations in K-12 education. And I 
would argue that the focus really needs to be primarily, or, to 
a large extent, on computer science, on attracting kids from a 
very, very young age to begin learning coding and taking up 
computer science at a very young age. There is a very strong 
commitment on the part of this administration to not only 
recognizing the need, but also filling and responding to that 
need.
    Mr. Fleischmann. Thank you. Thank you for that response. 
The Presidential memorandum also called on you to explore 
appropriate administrative actions to increase the focus, 
specifically on computer science and existing K-12 and 
postsecondary programs, such as through guidance documents and 
other technical assistance that could support high-quality 
computer science education.
    Can you please update the committee on what you have done 
to date in carrying out these actions and what you have planned 
in the coming year?
    Secretary DeVos. Yes. Commensurate with the budget 
proposal, we are putting together proposals to actually address 
this through appropriate guidance and appropriate FAQs and 
other information to help support State and local initiatives 
in this area.

            CONGRESSIONAL ROLE IN ADVANCING COMPUTER SCIENCE

    Mr. Fleischmann. Thank you. I have one last question. How 
do you believe Congress could help in your efforts to increase 
STEM and especially computer science education? What can we do 
to help?
    Secretary DeVos. Well, I think continuing to talk about the 
need and the opportunities. It is clear that there are tens of 
thousands of opportunities for students in high-paying jobs in 
computer science. And, you know, maybe Members of Congress need 
to demonstrate their interest and commitment to this in 
creative and unique ways to draw attention to it.
    I am just thinking that perhaps a coding class for some 
Members of Congress that are really interested in it might be 
an interesting way to help draw attention to it, just off the 
top of my head on that one.
    Mr. Fleischmann. Thank you, Madam Secretary. I am actually 
all in. I had second-graders in one of our inner city schools 
in Chattanooga last year teach me how to code. It was 
tremendous. So thank you.
    Mr. Chairman, I yield back.
    Mr. Cole. I appreciate that. If you are going to drag the 
chairman into coding, Madam Secretary, we are going to have a 
problem.
    Secretary DeVos. Only those who are interested, Mr. 
Chairman.
    Mr. Cole. Okay. Well, I am interested, just not capable.
    In the interest of time, the ranking member and I are going 
to reduce our time to 4 minutes. If we can stay there, I will. 
But if not, just for Ms. Clark, I want to make--then we will go 
to 3. If Mr. Fleischmann is leaving, we still have Mr. Harris. 
But anyway, I want to recognize my good friend, the ranking 
member, for 4 minutes.

                            SCHOOL VIOLENCE

    Ms. DeLauro. Thank you, Mr. Chairman.
    Just a couple quick recaps here. Madam Secretary, you said 
you believed that counselors were an important part of our 
school strategy in terms of our children and violence, and yet, 
you had a budget that proposed zeroing out money for school 
counselors. The President has said he was for increasing the 
age; now he is opposed to increasing the age for the purchase 
of assault weapons. You can't talk out of both sides of your 
mouth.
    And I would like to introduce this into the record, Mr. 
Chairman. If you are going to talk about a culture of violence, 
I certainly do hope that guns on the streets are an interest. 
This is: ``Shoot real machine guns, Machine Gun America, an 
adrenaline rush for the entire family,'' except for the 
youngster who is at the other end of that assault weapon.

                         AFTER SCHOOL PROGRAMS

    My colleague, Ms. Clark, will talk about the studies, 2007, 
2010, on the after-school program and their success in raising 
grades. It is a successful program.

                         STUDENT LOAN SERVICING

    Let me talk about student loan servicing preemption. My 
State of Connecticut has led the country to ensure we were the 
first State in the Nation where borrowers were defended. We 
required that student loan servicers are licensed and follow 
consumer protections. We want to drain the swamp. To my 
colleague from Maryland, these companies have a track record of 
predatory practices, of abuses, and State-led investigations 
have resulted in hundreds of millions in settlements on behalf 
of students.
    Despite your statements all morning about supporting 
States' rights, supporting States' rights, what your office has 
done, you issued a declaration to preempt State regulations on 
companies that collect student loans. And you have the NGA 
bipartisan statement saying no to what you want to do. 
Bipartisan list of attorneys general, Montana, Texas, 
Tennessee, Kansas, Indiana, say no to State preemption, because 
they are watching what is happening in their States.
    Why aren't you listening to what they want to do? Do you 
believe that States have the right to guarantee consumer 
protections for their citizens?
    Secretary DeVos. Congresswoman, we have----
    Ms. DeLauro. Do you believe that States have a right to 
guarantee consumer protection for their citizens?
    Secretary DeVos. Federal Student Loans is a Federal program 
that has appropriate Federal oversight, and that is our 
argument----
    Ms. DeLauro. You are preempting States' rights here.
    Secretary DeVos. What we are doing is ensuring that 
students continue to be protected through the Federal program 
that Congress created, and we are continuing to ensure that 
students and taxpayers are----
    Ms. DeLauro. Why does no one believe what you are doing? 
The people who are legally in charge of their States, people--
Governors who are in charge of their States that say no, 
because they are tracking down these folks and this industry, 
which is hurting the borrowers. Let me just ask you, who made 
that decision? Did you make this decision to preempt States' 
rights? Did you make it?
    Secretary DeVos. I have supported the fact----
    Ms. DeLauro. Who made the decision? What was the process?
    Secretary DeVos. Federal Student Aid is a Federal program 
with Federal oversight, and we believe----
    Ms. DeLauro. You have issued a declaration to preempt State 
regulations on companies that collect student loans. This is 
your Department. Did you do it?
    Secretary DeVos. To not layer another layer of 
bureaucracy----
    Ms. DeLauro. So you made the decision. Who was a part of 
that decision? Borrowers, were they a part of the decision?
    Secretary DeVos. We have decided to exert all preemption--
--
    Ms. DeLauro. Who is ``we''? Who is ``we''?
    Secretary DeVos. The Department of Education, 
acknowledging----
    Ms. DeLauro. So you are the Department of Education. Who do 
you believe this serves? Does it serve the borrowers or the 
servicers? Preempting----
    Secretary DeVos. We are supporting students and are 
committed to protecting students through the oversight that is 
relevant in the Federal program.
    Ms. DeLauro. Madam Secretary, the bulk of the people who 
have a stake in this interest have said, No, don't do it, and 
they are not going to live by--what I believe you have said is 
you made the decision, as the Secretary of Education.
    I yield back.

                            TRIO AND GEAR UP

    Mr. Cole. Thank you very much.
    Madam Secretary, as you probably know, I have long 
supported the role of programs meant to support first-
generation college students. I believe that far too many 
students enter college, frankly, unprepared for the coursework, 
relationships with the faculty, or are simply at a disadvantage 
in navigating the day-to-day environment, because they are the 
first person in their entire family to have the opportunity to 
attend college.
    It is important to ensure that these students can succeed 
in completing coursework, as I believe every new generation 
that completes college only helps grow the future workforce and 
support the economy. So I strongly support the TRIO and GEAR UP 
programs for these reasons. And first, I would like to commend 
the Department for taking the step to increase TRIO 
commensurate with the fiscal year 2017, once the budget deal 
was actually reached and making the extra funding available. I 
commend you for that.
    And, frankly, I hope if we have similar success this year 
in the 2018 budget, that that is a step that you will strongly 
consider doing again. Again, I recognize we have put you in a 
very difficult spot by not getting our work done in a timely 
fashion.
    However, the request that we have, at least, still cuts all 
funding for GEAR UP, so, again, I want you to address that. And 
it may well be, again, I understand you had budget constraints 
at the time you put this together.
    But I am also particularly interested in understanding the 
proposal to cut parts of the TRIO program and redesign the rest 
of the program, proposing moving from a competition to a State 
formula grant. Of course, we supported easing the 
administrative burden, but I have got some concerns.
    So could you tell me a little bit more about why the 
Department thinks this is the best course of action and can you 
ensure the same level of accountability you have now through a 
competitive grant, and how would this new grant format, if you 
will, work?
    Secretary DeVos. Sure. Thanks, Congressman, for that 
question, and for your commitment to TRIO. It is a program that 
I think has broad support, and we certainly support the notion 
that first-generation college students should be supported in a 
multitude of ways.
    The proposal in this budget is to combine a number of 
smaller grant programs with the TRIO program, and with that sum 
of money, block grant it back to the States, based on the fact 
that 90 percent of the TRIO grantees in past years have 
continued to receive grants in subsequent competitions.
    We believe that the States are closer to the students and 
the institutions that are served, and would be best suited for 
being able to make the decisions for where these TRIO funds are 
going to make the most difference for students.
    And the savings and the efficiencies created in that will 
ultimately help more of those funds get directly to the 
students involved. And so this is, you know, the essence of the 
proposal. The details, of course, around boundaries or 
guidelines with that have to be worked out with Congress.
    Mr. Cole. Well, I would love to discuss that with you, 
because I think there is considerable merit in that, but I want 
to be very careful. This is a program that has literally 
produced over 5 million college graduates for the United States 
from people that, frankly, absent these programs may well never 
have had the opportunity to go. So I want to commend you for 
thinking about how to use those dollars more effectively, and 
we will keep working here to try and make sure the investments 
are there.
    With that, I am going to yield back some of my time, in the 
interest of my good friend at the very end of the podium to 
actually get to her. And let me go next to my good friend from 
California, Ms. Lee.

                RACIAL DISPARITIES IN SCHOOL DISCIPLINE

    Ms. Lee. Thank you very much.
    Let me first respond to Dr. Harris and clarify one thing on 
school discipline. The issue is the differing punishment by 
race for the same type of infraction, the disparity there as it 
relates to suspensions and expulsions. For the same infraction, 
black and brown students are disciplined and expelled at a much 
higher rate. That is what you call racial bias and racism.
    Madam Secretary, let me ask you, because I am not so sure 
you really are clear about racial bias and what this all means. 
First of all, you are officially seeking to delay by 2 years an 
Obama rule aimed at combating disproportionate numbers of 
minority students in special ed classes. That is according to 
the Federal Register notice published on Tuesday.
    Secondly, you said you wanted all students, including 
students of color, to learn in safe environments. We all want 
that. Yet students of color are subjected to harsher 
punishments and disciplines. Should the President's view 
prevail in arming teachers, do you see why black and brown 
students are really worried and anxious about this? It is very 
clear to me.
    And also, let me just ask you, as it relates to your 
comments as it relates to considering the elimination of the 
discipline guidance--actually, this is a report--in the wake of 
the tragic shootings in Florida. The White House released this 
report, school safety proposals, which imply, really, that 
black and brown students are responsible for mass shootings in 
schools, which is just not the case.
    This directive was really to ensure that students of color 
are not subject to the harsher disciplines and practices. And 
now you are talking about possibly eliminating this, based on 
the tragedy of gun violence in Florida. So can you comment on 
that, please, and if that is really what you are thinking about 
doing.
    Secretary DeVos. Thank you, Congresswoman. That particular 
piece of guidance has been under review, per the Executive 
Order to review all regulation within the Department. And this 
is a matter we take very seriously.
    Clearly, the stated goal of the guidance is one that we all 
embrace, to ensure that no child is discriminated against. And 
we are committed to reviewing and considering this guidance, 
and taking appropriate steps if any are warranted, but I have 
nothing further to say at this point with regard to where that 
is.

   DISPROPORTIONAL REPRESENTATION OF MINORITIES IN SPECIAL EDUCATION

    Ms. Lee. Well, how about let's go to the delay of the 
regulation requiring a strategy to combat disproportionate 
numbers of minority students in special ed classes. Why the 2-
year delay on that?
    Secretary DeVos. The delay is to ensure that we have a 
regulation that really does meet the needs of students that are 
disabled in any way.
    Ms. Lee. By 2 years, though? Why would you do that?
    Secretary DeVos. We are committed to upholding the 
provisions of IDEA, and I want to be very clear that we are 
addressing this issue appropriately. There have been varying 
opinions and very different approaches to this within the 
community that are most concerned about this. We want to ensure 
that we end up with a regulation that does address these issues 
appropriately.
    Ms. Lee. Another example of the fact that I think more and 
more every day that your head is in the sand about racial bias 
and racial discrimination. I wrote you a letter June 2017, 
concerned about school segregation and what this means in terms 
of addressing the adverse effects of segregation on minority 
students, to ensure that every student has an opportunity for 
an equal education. You never answered that letter nor that 
question. I would like for you to please respond to that.
    Secretary DeVos. I am sorry if we have not yet responded to 
it. We are still waiting to actually have Senate-confirmed 
nominees become a part of the Department, and would urge that 
this body encourage your fellow Members of Congress----
    Ms. Lee. Madam Secretary, you just don't care much about 
civil rights of black and brown children. This is horrible.
    Mr. Cole. The gentlelady's time has expired. I really am 
trying to make sure everybody gets a second round here.
    So, with that, we will go to my good friend from Maryland, 
Mr. Harris.

                           SCHOOL DISCIPLINE

    Mr. Harris. Thank you.
    And I guess that is the reason why you support Opportunity 
Scholarships, because you just don't support minority students 
in the District of Columbia. I guess that is right.
    Again, I have been called racist. You know, I guess that is 
the favorite thing to do to anyone who you disagree with. And 
it is shameful, to be honest with you. Because, you know, I 
have letters. I mean, I have a letter from someone in my 
district who says, Look, this letter has led to decreased 
discipline in their schools, and they see it because the 
teachers are afraid to discipline because the Federal 
Government will come in and do their analysis and somehow 
threaten to withdraw Federal funds.
    And, Madam Secretary, you know, look, there is a fine line 
that you have got to balance here. I think this letter went way 
overboard. And I don't want to hear that in my schools--and 
look, you know what the problem is. The problem is that it gets 
to the outcome, not the cause.
    And the causes of bad behavior and disciplinary behavior in 
classes, they are connected to socioeconomic problems. You 
know, the fact of the matter is that the great society 
destroyed the nuclear family in some of our communities. And as 
the destruction of the nuclear family, you have an end result 
that is not good for society.
    You know, so just looking at an outcome, just looking at an 
outcome is not going to solve this problem; and, in fact, it is 
going to make the problem worse, because people get resentful 
when they try to solve a problem and are accused of racism.

                       FIREARMS ON SCHOOL GROUNDS

    Just to clear the record up, because I was in the military 
and I know what an assault rifle is, an M4 weapon is. An M4 is 
not what we are talking about banning, because a machine gun 
is--assault rifles that are supposed to be banned are not 
machine guns. That is a plain fact. I am sorry, they are not. 
An assault rifle that we are talking about is an AR-15. An AR-
15 is not a machine gun. A machine gun is defined as a fully 
automatic weapon.
    And we do have to ask whether the creation of gun-free 
zones has, in fact, been an invitation to violence in gun-free 
areas. The fact that the debate still occurs whether a police 
officer in a school should carry a firearm amazes me that we 
still have that discussion, given the amount of potential 
violence in our public schools and other schools. But that 
discussion still exists.
    Madam Secretary, I applaud you for saying this is up to the 
States, and it is even more than the States. It should be up to 
the local jurisdiction. You know, if I have a county--I have 12 
counties in my State, and if one of them says, You know what, 
we have a high school, we have three high schools in our 
county, and in each one we have a veteran or retired police 
officer who is fully trained with a firearm, why shouldn't they 
have the ability to have that person have a firearm to protect 
the students in that school just like they protected people 
when they were either in the military or they were in law 
enforcement? That is just common sense.
    And I hope the long arm of the Federal Government doesn't 
reach into the schools and say, no, you cannot arm people in 
schools. It hasn't yet. I hope you don't do it. In fact, I hope 
you go exactly the opposite way and encourage districts who 
want to protect their students by abolishing the idea that a 
gun-free zone is absolutely safe. I hope we are disabused of 
that idea, given the tragedies that have occurred, because 
whether it is Baltimore City, which has one of the highest gun 
control--the greatest gun control laws in the country, and yet, 
is not a gun-free zone, pretty clearly, with over 300 murders a 
year, or whether it is a school, which proudly displays, or a 
movie theatre, like it did in Denver, proudly displaying a sign 
that says gun-free zone, which we know does not mean guns are 
not going to be there.
    So I urge you to make this a local decision, and encourage 
the proper local decision, because what works in one 
jurisdiction doesn't work in another.
    And I yield back my time.
    Mr. Cole. I thank the gentleman.
    We have a hard stop at noon, so I am going to cut it to 3, 
but we are going to get both of you in and then I want to give 
the gentlelady, the ranking member, a chance to make a final 
comment. I will make one as well.
    So, with that, Mr. Pocan, you are recognized.

                              GUN CONTROL

    Mr. Pocan. Sure. Thank you.
    First of all, no one called anyone a racist. I think people 
were addressing racial bias as a policy matter, and people 
often who don't want to address racial bias as a policy matter 
claim they are called a racist, just for the record.
    So I am reading a text from the President, who said he 
wasn't moving forward, he didn't have the courage to move 
forward on changing the age to 21. And I know you said that was 
a policy the President wanted. So I am a little confused. What 
exactly, then, did you mean by preventing young people from 
getting guns if, indeed, he chickened out after he met with the 
NRA in his own tweet? I guess that is how we talk these days, 
in tweets. He said, 18 to 21, age limits, watching court cases 
and rulings before acting. States are making this decision. 
Things are moving rapidly on this, but not much more political 
support, to put it mildly.
    What did you mean then how to keep guns out of young 
people's hands? You said it was the President supported that 
measure, but he clearly chickened out.
    Secretary DeVos. I think we were talking about ensuring 
that students in schools don't have guns. And let's go back to 
the purpose of the work of this commission. It is to consider 
all----
    Mr. Pocan. Yeah, I have 3 minutes, so we got to keep right 
to my subject area. So you don't have an answer on specifically 
how to keep guns out of young people's hands?
    Secretary DeVos. I think it is an important discussion for 
this Chamber to have.

            WEAPONS TRAINING VERSUS TEACHER TRAINING FUNDING

    Mr. Pocan. Got you. Discussion, no answer. Okay.
    Some people have asked, why is it that we don't have enough 
money to train teachers to teach, but suddenly have enough 
money to train them to be sharpshooters by eliminating Title II 
moneys? How do you respond to that?
    Secretary DeVos. I don't think it is----
    Mr. Pocan. You don't have a response again? I just want to 
make sure I got----
    Secretary DeVos. That is not the consideration. We want to 
ensure that teachers have the opportunity to continue to 
develop, and we have continued to support them through this 
budget in ways that I have already articulated.
    Mr. Pocan. And again, I am trying not to be rude. With the 
amount of time I have, if we could just keep to the subjects.
    You said something I thought was very poignant, that ``if 
they let me in'' about talking to poor-performing schools. 
Don't you think any school that wouldn't let the Secretary of 
Education in shouldn't get a single penny of money if Federal 
dollars are involved if they wouldn't let you into their 
school? Would you at least personally agree with me on that? 
And that could be a yes-or-no answer.
    Secretary DeVos. I hope that the schools would be 
hospitable enough to open their doors. And I look forward to--
--
    Mr. Pocan. So you don't think they shouldn't get a penny of 
public dollars if they won't let you in? Simple question.
    Secretary DeVos. I am not going to----
    Mr. Pocan. A simple answer.
    Okay, final one: Last year, LGBT rights, you basically 
answered Ms. Clark's question saying that States should be 
flexible on it. I don't think being flexible on whether or not 
someone has rights or not matters. It should be you have rights 
and that is it, period.
    In February of this year, your Department said it wouldn't 
investigate or take action on any complaints filed by 
transgender students who are banned from restrooms that match 
their gender identity. The question being, how does the 
Department intend to investigate and act upon claims of 
transgender students denied access to restrooms corresponding 
to their gender identity in the Sixth and Seventh Court 
Circuits? And I will stop there, because I have seconds.
    Secretary DeVos. We have continued to protect the rights of 
students as defined under Title IX, and have continued to do so 
and to consider all of those matters brought to the Office for 
Civil Rights. We will continue to do so until either the 
Supreme Court or Congress clarifies the law with regard to 
transgender access to bathrooms, athletic locker rooms, and 
athletic teams. That is not an area where law has been 
clarified. This Department is not going to make law. We are 
going to continue to enforce laws that we are given to do.
    Mr. Pocan. So you won't back the courts. Thank you.
    Mr. Cole. The gentlelady from Massachusetts is recognized 
for the final round of questions.

            ANTIDISCRIMINATION PROTECTIONS IN SCHOOL CHOICE

    Ms. Clark. Thank you, Mr. Chairman.
    I want to also go back to the $1 billion voucher program 
that you have proposed. I could not find a single State that 
protects LGBT students within the States' voucher 
antidiscrimination laws. So State dollars flow to private 
schools. They are allowed to discriminate. I couldn't find any 
case where that didn't happen.
    As you were looking at Federal dollars under your program 
going to private schools, will you put in protections of 
nondiscrimination for all students, whether on sexual 
orientation, race, religion, or gender?
    Secretary DeVos. Congresswoman, as I have said before, 
where Federal dollars flow, Federal law must be adhered to. And 
this Department has continued to adhere to that and will 
continue to in the future.
    Ms. Clark. So, to be clear, under your voucher program, no 
dollars will go to private schools, Federal dollars, that do 
not adhere to nondiscrimination policies? Is that correct?
    Secretary DeVos. Let me first clarify. The $1 billion 
request is not a voucher program. It is a program to allow 
traditional public schools to move to student-weighted funding 
formulas so that students can make choices within a district of 
other traditional public schools for a portion of it. The other 
portion is to come alongside States that have private school 
programs and enhance the opportunities there.
    Ms. Clark. Let me make this as simple as possible. Where 
Federal dollars are going to private schools through voucher or 
choice programs, will you guarantee, as Secretary of Education, 
that that money is included with nondiscrimination policies for 
those private schools?
    Secretary DeVos. As I said, Federal dollars----
    Ms. Clark. Is that a yes or a no?
    Secretary DeVos. Federal dollars going to any program 
requires----
    Ms. Clark. So what is your interpretation of Federal law?
    Secretary DeVos. I think I have made this clear.
    Ms. Clark. Then just say yes or no.
    Secretary DeVos. Federal dollars going anywhere for 
education, Federal laws are adhered to.
    Ms. Clark. So you would not be able to send Federal dollars 
to a private school that did not adhere to the full panoply of 
civil rights laws in this country?
    Secretary DeVos. Federal law must be followed.
    Ms. Clark. Is that a yes or no? Just say yes or no. Yes or 
no?
    Secretary DeVos. Federal law must be followed when Federal 
money is involved.
    Ms. Clark. Is there some problem? Yes or no? Will you 
guarantee--
    Secretary DeVos. I think I have been clear.
    Ms. Clark. Then say yes or no.
    Secretary DeVos. Yes.
    Ms. Clark. Okay, great. Thank you. Wow, that took a year.
    Briefly--I see that I am----
    Mr. Cole. Actually, yeah, I think that is it.
    Ms. Clark. Okay.
    Mr. Cole. I want to recognize the gentlelady, my ranking 
member, for a brief closing statement.
    I want to thank you for, frankly, indulging us, because we 
did have a hard stop, so we will keep our remarks brief.

             IMPORTANCE OF FEDERAL INVESTMENT IN EDUCATION

    Ms. DeLauro. Thank you very much, Mr. Chairman. As I said 
at the outset, Lyndon Johnson said that the only valid passport 
out of poverty is education. He is still right. But yet the 
Trump budget seeks $4,000,000,000 in cuts to investments in 
public schools, and $1,000,000,000 in new funding to create 
unauthorized Opportunity Grants that would expand private 
school vouchers and Public School Choice.
    The programs eliminated: After school, data that says they 
succeed; full-service community schools, data talks about what 
they do in preparing kids; comprehensive literacy development 
grants; supporting effective educator developments; supporting 
effective instruction State grants; comprehensive literacy 
development grants; innovative approaches to literacy.
    My colleague from Maryland who is no longer here--and we 
have the lowest enrollment rate on early childhood education in 
any country in the world. My colleague talks about 
international education and where we stand. When we do not 
provide either educational opportunities or the services that 
go along with them, we don't compete in an international world. 
And the others are doing all of these services and wraparound 
services as well.

                  DEPARTMENT OUTREACH TO APPROPRIATORS

    In closing, let me point out that it sounds like, Madam 
Secretary, that you have made the time to meet with every 
subcommittee member on the other side of the aisle, and I will 
exclude the full committee chairman, because of his statement 
that he made early on, and yet no one on the Democratic side of 
the aisle had the opportunity for a question and answer with 
you. And yet you are not sure that you have the time to meet 
with the Parkland kids on Friday. And maybe you will have a 
meeting with the commission in a few weeks, but then, maybe 
not.
    You know, Madam Secretary, I think we understand where your 
priorities are. They are not with the young people of this 
country.
    Thank you very much, Mr. Chairman.
    Mr. Cole. Thank you.
    Madam Secretary, I want to thank you very much for coming 
and sharing your testimony with us today. I appreciate very 
much your poise and your professionalism, frankly, your candor 
and your openness. I appreciate it very, very much.
    And I want to thank you for sending us a thoughtful budget. 
We won't agree on every part of the budget, obviously, but I 
will be candid with you. I think this is a better budget, that 
you have had a little more time and you can tell. And we have 
complicated your work, and I want to recognize that. And the 
committee acknowledges, because Congress didn't get its work on 
time, you have had to operate under different sets of figures 
at different points along the way.
    So we want to continue our dialogue with you so that if we 
have a different budget arrangement, as I am certain we will, 
that, you know, we have an opportunity to work together and 
direct those dollars to where they need to go, where we think 
working together those dollars will make a difference.
    And, again, many, many thanks for coming here and, frankly, 
many, many thanks for your many years of uncompensated service 
on the cause of educational reform, working for children, rich 
and poor alike, to have opportunities and choices available to 
them.
    And thank you for taking on what is a really tough job in a 
really polarized and contentious period of our political 
history. I think you do the President great credit and the 
country great credit. So it is good to have you here today.
    With that, we are adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                        [all]
</pre></body></html>
